<html>
<title> - BREAKING THE SILENCE ON CHILD ABUSE: PROTECTION, PREVENTION, INTERVENTION, AND DETERRENCE</title>
<body><pre>[Senate Hearing 112-883]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-883

                  BREAKING THE SILENCE ON CHILD ABUSE:
                 PROTECTION, PREVENTION, INTERVENTION,
                             AND DETERRENCE

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON CHILDREN AND FAMILIES

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                                   ON

      EXAMINING CHILD ABUSE, FOCUSING ON PROTECTION, PREVENTION, 
                      INTERVENTION, AND DETERRENCE

                               __________

                           DECEMBER 13, 2011

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



      Available via the World Wide Web: http://www.gpo.gov/fdsys/



                         U.S. GOVERNMENT PRINTING OFFICE 

88-103 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
                          Washington, DC 20402-0001












          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                       TOM HARKIN, Iowa, Chairman

BARBARA A. MIKULSKI, Maryland       MICHAEL B. ENZI, Wyoming
JEFF BINGAMAN, New Mexico           LAMAR ALEXANDER, Tennessee
PATTY MURRAY, Washington            RICHARD BURR, North Carolina
BERNARD SANDERS (I), Vermont        JOHNNY ISAKSON, Georgia
ROBERT P. CASEY, JR., Pennsylvania  RAND PAUL, Kentucky
KAY R. HAGAN, North Carolina        ORRIN G. HATCH, Utah
JEFF MERKLEY, Oregon                JOHN McCAIN, Arizona
AL FRANKEN, Minnesota               PAT ROBERTS, Kansas
MICHAEL F. BENNET, Colorado         LISA MURKOWSKI, Alaska
SHELDON WHITEHOUSE, Rhode Island    MARK KIRK, Illinois
RICHARD BLUMENTHAL, Connecticut     

                      Daniel Smith, Staff Director
                  Pamela Smith, Deputy Staff Director
              Frank Macchiarola, Republican Staff Director

                               __________

                 Subcommittee on Children and Families

                BARBARA A. MIKULSKI, Maryland, Chairman

PATTY MURRAY, Washington             RICHARD BURR, North Carolina
BERNARD SANDERS, (I) Vermont         LAMAR ALEXANDER, Tennessee
ROBERT P. CASEY, JR., Pennsylvania   JOHNNY ISAKSON, Georgia
KAY R. HAGAN, North Carolina         RAND PAUL, Kentucky
JEFF MERKLEY, Oregon                 JOHN McCAIN, Arizona
AL FRANKEN, Minnesota                PAT ROBERTS, Kansas
MICHAEL F. BENNET, Colorado          MARK KIRK, Illinois
RICHARD BLUMENTHAL, Connecticut      MICHAEL B. ENZI, Wyoming
TOM HARKIN, Iowa (ex officio)          

                    Jessica McNiece,  Staff Director

                                  (ii)





















                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                       TUESDAY, DECEMBER 13, 2011

                                                                   Page

                           Committee Members

Mikulski, Hon. Barbara A., Chairman, Subcommittee on Children and 
  Families, Committee on Health, Education, Labor, and Pensions, 
  opening statement..............................................     1
Burr, Hon. Richard, a U.S. Senator from the State of North 
  Carolina, opening statement....................................     3
Casey, Hon. Robert P., Jr., a U.S. Senator from the State of 
  Pennsylvania...................................................     4
Franken, Hon. Al, a U.S. Senator from the State of Minnesota.....    30
Blumenthal, Hon. Richard, a U.S. Senator from the State of 
  Connecticut....................................................    32

                          Guest Senate Member

Boxer, Hon. Barbara, a U.S. Senator from the State of California.     5
    Prepared statement...........................................     7

                           Witnesses--Panel I

Kennedy, Sheldon, Former NHL Player and Co-Founder, Respect 
  Group, Inc., Alberta, Canada...................................     9
    Prepared statement...........................................    11
Collins, Michelle K., Vice President, Exploited Children Division 
  and Assistant to the President, National Center for Missing and 
  Exploited Children, Alexandria, VA.............................    12
    Prepared statement...........................................    14
Cervone, Frank P., Esq., Executive Director, Support Center for 
  Child Advocates, Philadelphia, PA..............................    17
    Prepared statement...........................................    19

                          Witnesses--Panel II

Sutton, Erin Sullivan, J.D., Assistant Commissioner for Children 
  and Family Services, Minnesota Department of Human Services, 
  St. Paul, MN...................................................    38
    Prepared statement...........................................    42
Block, Robert W., M.D., FAAP, President, American Academy of 
  Pediatrics, Tulsa, OK..........................................    47
    Prepared statement...........................................    48
Huizar, Teresa, Executive Director, National Children's Alliance, 
  Washington, DC.................................................    57
    Prepared statement...........................................    59

                                 (iii)
                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Senator Bennet...............................................    76
    Bryan Samuels, Commissioner, Administration on Children, 
      Youth and Families, Youth and Families Administration for 
      Children and Families, U.S. Department of Health and Human 
      Services, Washington, DC...................................    76
    Lauren Book, Founder, Lauren's Kids Foundation, Miami, FL....    82
    Child Welfare League of America (CWLA), Washington, DC.......    84
    Joan Cole Duffell, Executive Director, Committee for 
      Children, Seattle WA.......................................    86
    Jolie Logan, President and Chief Executive Officer, Darkness 
      to Light, Charleston, SC...................................    87
    Anthony P. Mannarino, Ph.D., Professor and Vice Chair, 
      Department of Psychiatry, Allegheny General Hospital, 
      Drexel University College of Medicine; Presented on Behalf 
      of the American Psychological Association, Washington DC...    88
    Lisa Pion-Berlin, President and CEO of Parents Anonymous 
      Inc., Claremont, CA........................................    90
    Deborah Donovan Rice, Executive Director, Stop It Now!, 
      Springfield, MA............................................    91
    Adam Rosenberg, Esq., Executive Director, Baltimore Child 
      Abuse 
      Center, Baltimore, MD......................................    95
    Kenneth Wooden, Author and Child Safety Expert; with Rosemary 
      Wooden Webb and Jennifer Wooden Mitchell, Child Lures 
      Prevention/Teen Lures<SUP>T</SUP><SUP>M</SUP> Prevention, 
      Shelburne, VT..............................................    99
    Response to questions of Senator Casey by:
        All Witnesses............................................   101
        Sheldon Kennedy..........................................   102



 
     BREAKING THE SILENCE ON CHILD ABUSE: PROTECTION, PREVENTION, 
                      INTERVENTION, AND DETERRENCE

                              ----------                              


                       TUESDAY, DECEMBER 13, 2011

                                       U.S. Senate,
                     Subcommittee on Children and Families,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:20 a.m. in 
Room SD-106, Dirksen Senate Office Building, Hon. Barbara 
Mikulski, presiding.
    Present: Senators Mikulski, Boxer, Casey, Franken, 
Blumenthal, Alexander, Isakson, and Burr.

                 Opening Statement of Senator Mikulski

    Senator Mikulski. Good morning, everybody.
    The subcommittee on children and families will now come to 
order.
    Today we have a very powerful and poignant hearing. We will 
be addressing one of the most difficult issues one needs to 
raise in child welfare policy. That is, how do we protect the 
children in our communities and in our country if they are 
victims of child abuse? Particularly, if they are victims of 
child abuse, either within their own home or when they are 
somewhere the children have been placed in the care of a 
trusted adult.
    The focus of this hearing is, the topic will be ``Breaking 
the Silence on Child Abuse.'' How we can protect children when 
they are being abused. How we can intervene and protect them. 
And then, what policies should we put in place to achieve 
deterrence of this vile and repugnant act against children.
    It is sad that we have to have this hearing, but the 
reality exists in our society. It is late breaking news. It is 
headline evening news. But this hearing will not be one of 
sensationalism, and it will not be sensational. Our hearing is 
focused not on the sensational, but on solutions, rooted in 
prevention, intervention, and deterrence.
    This hearing is the result of a letter to me from Senator 
Bob Casey who had a tragic, tragic incident in Pennsylvania. 
This hearing will not focus on Pennsylvania. It will focus on 
the broad issues because it goes on in every State and, 
regrettably, in every community.
    I also want to thank my Ranking Member, Senator Burr of 
North Carolina, for his active participation in developing the 
framework and the witnesses for this hearing. Senator Burr has 
a longstanding and persistent reputation for standing up for 
vulnerable populations and we have worked together on a variety 
of these issues, including the protection of children when they 
are in daycare centers.
    We also want to note her longstanding advocacy, Senator 
Barbara Boxer, for her role and her own ideas.
    I am going to give a brief opening statement, and I welcome 
all of you who are here. And all of you who are watching in 
their home, and in the locker room, and in the dugout, and all 
over our country, we have got to dedicate ourselves now to the 
right policies, the right legislation to really protect our 
children.
    While many have been shocked by the recent child sexual 
abuse, unfortunately, I am not surprised. Many, many years ago, 
I worked as a child neglect social worker in Baltimore. I saw 
the danger to children up close and personal. I was with them 
in the ER. I was with them in the courtroom. I was with them 
when I had to remove them from their own homes, and I was with 
them as I tried to put them on the road to recovery and 
rehabilitation from what had been done to them. Because I saw 
the permanent and indelible scars that this leaves on a child 
for all of their lives.
    For me, that experience as a young social worker so many 
years ago was a searing, searing experience. I learned from it. 
I grew up while I was working in it, and now as a Senator, I 
continue to devote my life to being able to work on this. This 
is why I am so determined we are going to take what we hear 
today and turn it into an action plan. We have worked on this 
in appropriations, putting into place programs with the Center 
for Missing and Exploited Children, working with the FBI, the 
Marshall Services, and others. But again, our focus is really 
on prevention--protection, prevention, and deterrence.
    There is nothing more troubling than a child who has been 
physically, sexually, or emotionally abused. Then abused again 
because of the failure for adults that they turn to who either 
do not listen and rebuff and reject them, or who do listen, but 
in order to protect the brand of an institution or the 
reputation of a team, do not report it. They abide by a cover 
up of silence, a conspiracy of silence. So the child is doubly 
victimized: those who abuse them and then the system that turns 
their back on them.
    We are going to hear about some of this today. One is from 
Mr. Sheldon Kennedy, a former professional hockey player who 
skated for the United States of America. Abused by a minor 
league hockey coach; by a coach his parents had come to trust. 
What was additionally troubling about Mr. Kennedy and his 
experience is that the abuse was allowed to continue despite 
the red flags.
    So we want to talk about that because we want to break that 
code of silence for preventing not only the first abuse, but 
the second abuse.
    Mr. Kennedy's story is not the first. There have been many 
examples in our history where children have been subjected to 
this second abuse, victimized a second time where they have 
been overlooked, ignored, or covered up. Well, this Senator 
takes the position that no institution should ever be too big 
to report or too famous to report, and no adult should ever 
feel that they are protected because of the brand that they 
represent.
    My hope is that this hearing will point out what we need to 
do to help our children. Our job is to ensure that we have the 
right legislative program and the right prevention. There is 
currently a law on the books, passed on a bipartisan basis, the 
Child Abuse Prevention Treatment Act written in 1974. It is to 
provide funds to the States for prevention, and investigation, 
and prosecution. We need to examine whether that law is 
sufficient or whether it needs to be amended.
    My own view is in recent years, whether Congress should 
look at reform. It is my belief that every adult has a 
responsibility for a child. It takes a village to raise a 
child, and it takes a village to protect a child. And I believe 
regardless of who you are, if you see something, if you know 
something, then report it. If you see something, do something.
    So we are going to listen to that and now I am going to 
turn to my colleagues, to Senator Burr, my Ranking Member, who 
has done such a great job. Then to Senator Casey, who has 
requested this hearing, a staunch, staunch advocate of 
children. Then we will go to Senator Boxer and her own 
advocacy.

                   Opening Statement of Senator Burr

    Senator Burr. Madam Chairman, thank you for your 
willingness to hold this hearing today. More importantly, I 
want to thank you for your passion for children. Clearly, that 
comes across, not only in your opening statement, but in your 
actions in Congress.
    Nothing is more important than the safety and the well-
being of our Nation's children. No child should ever have to 
suffer the pain or shame of abuse at the hands of an adult, be 
it of a parent, a teacher, a coach, or a stranger met in the 
park, or on the Internet.
    I also want to thank all of our witnesses for their time 
and dedication to our shared goal of ensuring that children are 
free from abuse and neglect. And in those horrific instances 
when a child is abused, I thank today's witnesses for their 
commitment to ensuring that we intervene quickly and more 
importantly, provide those children with the support and the 
treatment that they need to heal and recover.
    Over the years, Senator Mikulski and I have worked very 
closely together on legislation that would require criminal 
background checks for individuals working in childcare or 
volunteering with vulnerable populations like kids, the 
disabled, and the elderly.
    When parents leave their children with an adult in an 
entrusted organization--daycare, school, sports activities, 
afterschool care, summer camp--they should not have to worry 
that they might be dropping their child off to be cared for by 
someone who has been convicted of a violent crime, especially a 
crime against children.
    The use of criminal background checks for keeping criminals 
and violent offenders away from children, however, is but one 
important piece for keeping children safe. A criminal 
background check will only weed out the offenders known to the 
criminal justice system or another government agency such as 
Child Protective Services.
    Today, we will be hearing a lot about the offenders known 
to children and often known to be suspected by adults within a 
community who remain unknown to the judicial authorities due to 
the silence of their victims and the silence of the adult 
bystanders.
    To truly ensure our children are safe, both children and 
adults must break the silence of abuse. However, since children 
who are being abused live a life of fear and shame, and are 
thus least able and likely to come forward, it is adults with 
whom the greatest responsibility for breaking the silence of 
abuse rests. As one of our witnesses said in her testimony 
today, ``Child abuse is a grownup problem.''
    Although crimes against children through such means as sex 
trafficking or the Internet often tend to gain the greatest air 
time on cable news, I think it is important for us to remember 
that most instances of abuse against kids, sexual and physical, 
are occurring not across the State lines or on the Internet, 
but in our own neighborhoods and communities, and by folks we 
know.
    Since the vast majority of abuse is occurring so close to 
home, it is critical that we train and empower adults to know 
the signs of abuse and to know what to do when they see or 
suspect it.
    There is no quick fix. There is no single piece of 
legislation that will make the problem of child abuse magically 
go away. However, the adults returning to a collective sense of 
responsibility for all the children of their community can, 
from the grassroots level, begin to break the silence and 
benefits all kids.
    I look forward to working with Chairman Mikulski and all of 
my Senate colleagues to better understand and respond to the 
issues of child abuse in this Nation today. We often hear that 
children are our Nation's future. How we, as adults, treat and 
how we respond to the ill-treatment of our Nation's children 
will determine what that future looks like.
    I thank my colleagues. I thank the Chair.
    Senator Mikulski. Excellent.
    I would like to turn now to Senator Bob Casey, who 
requested this hearing, and this committee was already 
contemplating it, but who has been such a longstanding 
advocate. We know he has legislation. We are going to be 
focusing on the broad policy.
    Senator Casey, let us hear from you, please proceed.

                       Statement of Senator Casey

    Senator Casey. Madam Chair, thank you very much. I want to 
commend you and Senator Burr for bringing us together today, 
and I am grateful for that not only on behalf of the people of 
the Commonwealth of Pennsylvania, but the whole country. We are 
grateful.
    And I want to say to Senator Mikulski, that your work, if I 
can use an old phrase ``laboring in the vineyard,'' goes back 
long before you were a member of the United States House of 
Representatives or a member of the U.S. Senate, a long, long 
time ago helping children as an advocate. So we are grateful 
that you spent so many years working so hard to protect our 
kids.
    Child abuse is the ultimate betrayal, isn't it, the 
ultimate betrayal of a child, when every child has, and should 
have, a reasonable expectation of safety and security. It is 
hard to begin to comprehend the horror that a child must feel 
when they are the victim of abuse, especially when they are the 
victim of abuse by someone they know, someone they trust, maybe 
even someone that they love. I could think about it for years, 
and I could not begin to comprehend how horrific that is.
    It is the ultimate betrayal and it happens because adults 
fail. Not because children do anything wrong, we cannot just 
blame it upon systems. We are all adults and we all have to 
take some measure of responsibility.
    What has to come out of a hearing like this one? Maybe not 
today, maybe not in the next few days, but when we come to a 
consensus about what to do, it is as basic as we could imagine: 
it is about protecting children no matter what the cost, no 
matter what the impediment, no matter what the obstacle.
    So that is what we are here to do today and ultimately, I 
think it is about holding adults accountable, and that is why 
legislation that I have introduced says to States,

          ``If you want to have the benefit of a Federal 
        program to prevent child abuse, you have to pass a law 
        that makes sure that every adult is a mandated 
        reporter.''

    I know there is some disagreement about that, and we will 
debate that and other aspects of the bill as we move the 
discussion forward.
    I think Senator Mikulski makes a very important point when 
she says that this is much broader than one bill, and it is 
much broader than one incident, or one scandal, or one news 
item, and we have seen several in the last couple of months.
    It is getting back to that basic obligation that every 
public official has to protect our kids, and to do everything 
we can to fight against, and to push back, and to deal with 
that betrayal that we all know in our hearts is at the root of 
this.
    Chairman Mikulski, we appreciate your work on this, and you 
and Senator Burr are doing the country a great service today.
    Senator Mikulski. Thank you very much.
    I want to say to my colleagues, I would like to turn now to 
Senator Boxer, who has done such incredible due diligence in 
the area of child protection. To others, I would hope that you 
would weave your opening statement or part of that in your 
question period. After Senator Boxer, we are going to move to 
an excellent panel.
    Senator Boxer, we want to welcome you. You have, over the 
years, really been remarkable in your advocacy for children and 
the due diligence you have put in, in recommending several 
pieces of legislation. Some are with us; some are with 
judiciary, but it does not matter. We all need to be in it 
together, and we have to be in it for the kids.
    Please proceed.

                       Statement of Senator Boxer

    Senator Boxer. Thank you, colleagues. You are all so 
eloquent.
    Chairman Mikulski and Ranking Member Burr, I thanked you 
privately for this, what you are doing today. I want to thank 
you publicly. Not enough committees are doing, in my opinion, 
the diligence that should be done, and I am so appreciative of 
you. And, of course, Senator Casey for requesting this hearing.
    I speak to you today as a mother, and a grandmother, and a 
Senator from the largest State in the Union, believing that 
there must be zero tolerance for crimes against kids. Zero 
tolerance. We need a new ethic in this country. I think Senator 
Burr referred to that idea, that we get it from the heart, from 
the soul in our own communities. So we need a new ethic in this 
country, as much as we need to strengthen our laws.
    If this ethic were in place, this zero tolerance, this kind 
of sensibility about the fact that we need to protect our kids. 
If that ethic were in place, many crimes against children would 
be prevented. And those who commit such acts would be caught 
before their crimes are repeated and repeated and repeated, and 
the innocents are damaged for life.
    I am going to give you just two facts because sometimes we 
glaze over this issue, because there are so many numbers thrown 
at us. I am just going to give you two of the many I have.
    There are 700,000 reported cases of child abuse every year. 
Think about it 700,000. Some of our States have fewer than 
700,000 people living in them. Every year, there are 700,000 
reported cases of child abuse, and included in that, 80,000 
reported cases of child sexual abuse. That is every year.
    And the other percentage I want to give you is that 71 
percent of all sex crime victims are children. Seventy-one 
percent of the victims are children.
    I do not believe Congress has done enough to prevent these 
atrocities. And I want to tell you my own involvement, and I 
have worked so closely with all of you on so many issues.
    Senator Isakson and I just worked together to prevent 
violence in the Peace Corps, and all of you supported us in 
that endeavor. So a lot of our involvement stems from 
something. He had a constituent, and he took that issue to 
heart.
    In May 1997, Sherrice Iverson, a Californian, 7-year-old 
from Los Angeles was molested and killed in a Nevada casino 
bathroom. The assailant's friend witnessed the molestation and 
learned of the murder. He did not do one thing to stop it and 
he never reported it.
    So that moved me in 1998 to introduce legislation that 
dealt with reporting requirements. Nothing happened, and in the 
meantime, unreported cases of child abuse have occurred at 
educational institutions, religious institutions, daycare 
centers, and interestingly, on Federal land and property.
    The worst part of the failure to report these horrific 
crimes is it allows the serial killer to go on, and on, and on 
to prey on more and more defenseless children. So it is time to 
protect our children nationwide.
    You know in 1994, we came together to pass the Violence 
Against Children Act. I am sorry.
    Senator Mikulski. Once again.
    Senator Boxer. A Freudian slip. I want that to happen next. 
The Violence Against Women Act, and it has been successful. We 
worked hard, across party lines. It is time to pass the 
Violence Against Children Act, which would be an all-
encompassing way to bring about this new ethic of zero 
tolerance.
    But today because I have been told by the Chairman and the 
Ranking Member, do not talk about a specific bill. I will not 
do that. I am for so many bills, and I have written some of 
them. I am for all of them.
    But I do want to make one point that I do not think anyone 
is aware of and this is critical. Today on Federal property, if 
there is a crime in this building, or in a national park, or on 
a military base, we do not have reporting requirements other 
than if it is a professional that sees a person after the fact. 
So in our own bailiwick here, in our own house, so to speak, we 
have work to do. We are going to want to tell the States what 
to do, but we had better look at our own law, which is 
extremely weak. So I am going to close now with a final 
thought.
    After 9/11, our Nation reached a consensus. That consensus 
was: no one would ever sit passively on an airplane as a 
terrorist tried to take it over. I do not care if you are under 
5 feet tall, as I am, we will get up out of our seat and we 
will do what it takes, all of us.
    Now, our Nation needs to reach a consensus that we never, 
ever, ever turn a blind eye to a crime against an innocent 
child. We have to defend our kids, otherwise we are failing as 
human beings and we are failing as legislators.
    I thank you, colleagues. I know you share this passion, and 
I am so grateful to all of you. Thank you.
    [The prepared statement of Senator Boxer follows:]

                  Prepared Statement of Senator Boxer

    Chairman Mikulski, Ranking Member Burr and Senator Casey, I 
so appreciate this hearing.
    As a mother, grandmother and Senator from California, I 
believe there should be zero tolerance for crimes against 
children. We need a new ethic in this country as much as we 
need to strengthen our laws.
    If this ethic were in place, many crimes against children 
would be prevented and those who commit these crimes would be 
caught before their crimes are repeated and repeated and 
innocent children are damaged for life.
    The facts cry out for attention:

    <bullet> There are 700,000 reported cases of child abuse 
every year, including up to 80,000 reported cases of child 
sexual abuse.
    <bullet> Seventy-one percent of all sex crime victims are 
under the age of 18, and 38 percent of all kidnapping victims 
are under the age of 18.

    Congress has not done enough to prevent these atrocities.
    In May 1997, Sherrice Iverson, a 7-year-old from Los 
Angeles was molested and killed in a Nevada casino bathroom. 
The assailant's friend witnessed the molestation and learned of 
the murder. He did nothing to stop it and he never reported it. 
That moved me to get involved in the issue of failure to 
report.
    Unreported cases of child abuse have occurred at 
institutions of higher education, religious institutions, day 
care centers, and on Federal land and property.
    The worst part of the failure to report these horrific 
crimes is that it allows serial child abusers to continue to 
prey on the most defenseless among us.
    It is time to act to protect children nationwide. Just as 
we came together in 1994 to pass the landmark Violence Against 
Women Act, we should now work together to pass a Violence 
Against Children Act.
    Today, I am not here to talk about the many good bills on 
this subject. But, I do want to point out that the Federal 
Government has no reporting requirements for those who witness 
these crimes on Federal property, including GSA buildings, 
military bases and national parks.
    I close with this thought. After 9/11, our Nation reached 
consensus that we would never ever sit passively on an airplane 
as a terrorist tried to take it over. Now our Nation needs to 
reach a consensus that we will never ever turn a blind eye to a 
crime against an innocent child. We must all be ready to act to 
defend children.

    Senator Mikulski. Thank you, Senator Boxer. We look forward 
to working with you on your other legislation.
    We would like to now call our panel, Mr. Sheldon Kennedy, 
former hockey player. Michelle Collins, Vice President of the 
Center for Exploited and Missing Children, and Frank Cervone 
from Pennsylvania, who heads up the Support Center for Child 
Advocates.
    While they are coming to the table, I would also like to 
acknowledge as we get ready to turn to Mr. Kennedy, someone 
else who was a victim of terrible sexual abuse at the hands of 
her nanny. Miss Lauren Book of Florida, who is brought to our 
attention by Florida colleagues, and Lauren, we want to welcome 
you. We thank you for taking your personal tragedy and turning 
it into an organization called Lauren's Kids, that your father 
is with you. We will go forward to your advice and council in 
moving this bill.
    We had such enormous outpouring from the people who wanted 
to testify, to use the hearing to come forward to bring to our 
national attention the depth and breadth of this horrific 
problem. We could not accommodate everybody at this table, but 
we want to encompass them at the legislative table. And Lauren, 
we look forward to benefiting from your experience, not only 
what happened to you, but your thoughtful work in prevention.
    I am going to comment on everybody. Mr. Sheldon Kennedy was 
a professional hockey player. He skated for the United States 
of America. During his young career, he was terribly abused, 
and then he was abused a second time because people paid more 
attention to protecting the coach and protecting the brand. Mr. 
Kennedy was eager, and we eagerly want to hear, not only your 
story, but all of your recommendations about that.
    Then we are going to turn to Michelle Collins, who 
represents the group established by Congress, the National 
Center for Missing and Exploited Children. She comes to us with 
tremendous background and experience. She oversees the Cyber 
Tipline. I say to my colleagues, we already have a 
congressionally authorized recipient of reports on child sexual 
exploitation. She has, and then also the Child Victim 
Identification program. So we need to know, again, from a 
policy level.
    And then Senator Casey, did you want to introduce your 
representative from Pennsylvania?
    Senator Casey. Yes. I will be brief and we could go on for 
a while about Frank Cervone. I have known Frank a long time, 
and I am so grateful he is here with us.
    Frank is the executive director of the Support Center for 
Child Advocates, which is a pro bono program that provides 
legal council to abused and neglected children. He is also 
chair of the Pennsylvania Children's Trust Fund, which funds 
community-based programs to prevent child abuse and neglect. 
Frank has a distinguished record working to protect kids in 
Pennsylvania and few people I know, if any, have the record and 
the commitment that Frank has. I should also mention that he is 
a graduate of the University of Pennsylvania, and Villanova 
University School of Law, and he has a Master's Degree in 
Theology and Ministry from LaSalle University. Frank, we are 
grateful you are here as well. Thank you.
    Senator Mikulski. Praise the Lord.
    Mr. Kennedy, we would like to welcome you, and we so 
appreciate this. We will ask you again to proceed with your 
testimony and any thoughts, recommendations, or insights you 
would like to provide the U.S. Senate.

STATEMENT OF SHELDON KENNEDY, FORMER NHL PLAYER AND CO-FOUNDER, 
              RESPECT GROUP, INC., ALBERTA, CANADA

    Mr. Kennedy. Thank you. Good morning, Senator Mikulski, 
Ranking Member Burr, and members of the subcommittee. Thank you 
for inviting me as a witness today.
    For many Canadians, hockey is everything. It is our 
passion, our culture, our national pride. Like most boys 
growing up on the prairies, I dreamed of playing in the 
national hockey league. Unfortunately for me, the dream came 
true. I played for the Detroit Red Wings, the Boston Bruins, 
the Calgary Flames.
    But it is not my dream that I am best known for. It is my 
nightmare. As a junior hockey player, I suffered years of abuse 
and harassment at the hands of my coach Graham James. Despite 
the nature of the abuse, the hurt I experienced, and the fact I 
knew what was being done to me was wrong, it took me over 10 
years to come forward to the authorities.
    Why I didn't say anything? This is the question that I ask 
myself again and again and again. It is the question I know 
everyone else was asking, and it is the question that plagues 
the millions of sexual abuse victims around the world. Even 
though I wrote a whole book on the subject, the answer is quite 
simple: because I did not think anyone would believe me.
    In my case, my abuser was International Hockey Man of the 
Year. In Canada, that gave him almost god-like status. Sound 
familiar? The man who preyed on me took advantage of his 
position as a coach to look for children who were especially 
vulnerable: single parent households, families with drinking 
problems, boys who needed a father figure, etc. These kids, and 
often their parents too, looked up to him as a hero. This was 
someone who could make their dreams come true, and he used that 
trust to hurt them.
    This imbalance of power and authority creates a deeper 
problem, and it is the one that I think this subcommittee has 
to deal with head-on if you truly want to prevent child abuse. 
In every case of child abuse, and certainly in my own, there 
are people who had a gut feeling that something was wrong, but 
did not do anything about it. Their attitude was, ``I don't 
want to get involved.'' ``It's not my problem.'' ``He couldn't 
possibly be doing that.'' ``Ah, the authorities will take care 
of it.'' And that is what pedophiles and predators are counting 
on. They are counting on the public's ignorance, or worse yet, 
their indifference. That is what keeps child abusers in 
business and that, Senators, is what we have to address.
    From my experience, a child who is being abused has to 
tell, on average, seven people before their story is taken 
seriously. Seven. That is completely unacceptable.
    When my story became public in 1997, there were people who 
refused to believe it. Many were angry that I exposed an ugly 
side of their beloved sport. Fortunately, Hockey Canada 
responded seriously to my situation and made abuse prevention 
education mandatory for their 70,000 coaches. And this is the 
positive message that I want to leave you with this morning.
    Seven years ago, I co-founded Respect Group, Inc. in 
partnership with the Canadian Red Cross, internationally 
recognized experts in the prevention of child abuse. Together, 
we launched an online training program for sport leaders called 
Respect in Sport. It focuses on educating all adult youth 
leaders on abuse, bullying, and harassment prevention including 
a sound understanding of your legal and moral responsibilities.
    Our belief at Respect Group is that we may never fully 
eliminate child abuse, but by empowering the 99 percent of 
well-intentioned adults working with our youth, we can greatly 
reduce it.
    I am proud to say that through Respect in Sport, we have 
already certified over 150,000 youth leaders which represents a 
high percentage of all Canadian coaches.
    Many sport and youth serving organizations have mandated 
the Respect in Sport program and the list continues to grow. 
Hockey Canada, Gymnastics Canada, the entire province of 
Manitoba, school boards, and some early adopters here in the 
United States including USA Triathlon, USRowing. In addition, 
organizations like Hockey Canada and Gymnastics Canada have 
implemented our Respect in Sport program designed specifically 
for parents.
    We are also seeing proactive initiatives by the Canadian 
government to combat child maltreatment. Not just tougher 
legislation and minimum sentences for perpetrators, but a 
Federal approach headed up by Minister Rona Ambrose to 
introduce prevention education that spans the multiple 
ministries that touch our most vulnerable Canadian youth.
    We have learned that social change takes time and has to 
occur at both the grassroots level, and from the Government on 
down. I am pleased to say that is exactly what is happening in 
Canada and I hope that is what will happen here too.
    Over the years, through my work at Respect Group, I have 
learned that educating the good people, the 99 percent of our 
population is our best defense to prevent abuse. Training must 
be mandatory to ensure full compliance and reduce liability. 
The education has to be simple and consistent. All forms of 
abuse leave the same emotional scars, so training has to be 
comprehensive.
    Education is best delivered online to insure consistency, 
safety of the learner, convenience, and the greatest reach. And 
finally, training must be ongoing. It is not a one-time thing.
    Too often, society's response to child abuse is to focus on 
punishing the criminal. If the teacher, priest, or coach is 
sent to jail for a long time, then we feel that we have done 
our jobs as citizens or as politicians. Punishing the bad guys 
makes us feel good, but it does not fully solve the problem.
    Senators, you need to give all adults working with youth, 
and all parents the tools to recognize and respond to abuse 
when it first arises. I am under no illusion that such an 
approach will eliminate child abuse, but I do know that 
mandatory education creates a platform within all organizations 
for that conversation to happen. Empower the bystanders, and 
you will be taking an important first step in breaking the 
silence on child abuse.
    Thank you, and I would be happy to take any questions.
    [The prepared statement of Mr. Kennedy follows:]
                 Prepared Statement of Sheldon Kennedy
    Good morning Chairwoman Mikulski, Ranking Member Burr, and members 
of the subcommittee. Thank you for inviting me as a witness today.
    For many Canadians, hockey is everything. It is our passion, our 
culture and our national pride. Like most boys growing up on the 
Prairies, I dreamed of playing in the National Hockey League and 
luckily for me, that dream came true. I played for the Detroit Red 
Wings, the Boston Bruins and the Calgary Flames.
    But it's not my dream that I'm best known for--it's my nightmare. 
As a junior hockey player, I suffered years of sexual abuse and 
harassment at the hands of my coach, Graham James.
    Despite the nature of the abuse, the hurt I experienced and the 
fact I knew what was being done to me was wrong, it took me over 10 
years to come forward to the authorities. Why didn't I say anything?
    This is the question that I asked myself again, and again, and 
again. It's the question I know everyone else was asking. And it's the 
question that plagues the millions of sexual abuse victims around the 
world.
    Even though I wrote a whole book on the subject, the answer is 
quite simple--because I didn't think anyone would believe me.
    In my case, my abuser was International Hockey Man of the Year! In 
Canada, that gave him almost God-like status, sound familiar?
    The man who preyed on me took advantage of his position as a coach 
to look for children who were especially vulnerable (single parent 
households, families with drinking problems, boys who needed a father 
figure, etc).
    These kids--and often their parents too--looked up to him as a 
hero. This was someone who could make their dreams come true and he 
used that trust to hurt them.
    This imbalance of power and authority creates a deeper problem and 
it's the one that I think this subcommittee has to deal with head-on if 
you truly want to prevent child abuse.
    In every case of child abuse--certainly in my own--there are people 
who had a ``gut feeling'' that something was wrong but didn't do 
anything about it.
    Their attitude was ``I don't want to get involved'', ``It's not my 
problem'', ``He couldn't possibly be doing that'' or ``the authorities 
will take care of it''.
    And that's what pedophiles and predators are counting on. They are 
counting on the public's ignorance or--worse yet--their indifference. 
That's what keeps child abusers in business. And that, Senators, is 
what you have to address.
    From my experience, a child who is being abused has to tell--on 
average--seven people before their story is taken seriously. Seven! 
That is completely unacceptable.
    When my story became public in 1997, there were people who refused 
to believe it. Many were angry that I had exposed an ugly side of their 
beloved sport.
    Fortunately, Hockey Canada responded seriously to my situation and 
made abuse prevention education mandatory for their 70,000 coaches. And 
this is the positive message that I want to leave you with this 
morning.
    Seven years ago, I co-founded Respect Group Inc. in partnership 
with the Canadian Red Cross, internationally recognized experts in the 
prevention of child abuse.
    Together, we launched an on-line training program for sport leaders 
called Respect in Sport. It focuses on educating all adult youth 
leaders on abuse, bullying and harassment prevention including a sound 
understanding of your legal and moral responsibilities.
    Our belief at Respect Group is that we may never fully eliminate 
child abuse, but by empowering the 99 percent of well-intentioned 
adults working with our youth we can greatly reduce it.
    I am proud to say that, through Respect in Sport, we have already 
certified over 150,000 youth leaders which represents a high percentage 
of all Canadian coaches.
    Many sport and youth serving organizations have mandated the 
Respect in Sport program and the list continues to grow; Hockey Canada, 
Gymnastics Canada, the entire Province of Manitoba, School Boards and 
some early adopters here in the United States including USA Triathlon 
and USRowing. In addition, organizations like Hockey Canada and 
Gymnastics Canada have implemented our Respect in Sport program 
designed specifically for parents.
    We are also seeing proactive initiatives by the Canadian Government 
to combat child maltreatment. Not just tougher legislation and minimum 
sentences for perpetrators but a Federal approach to prevention 
education that spans the multiple Ministries that touch our most 
vulnerable, Canadian youth.
    We have learned that social change takes time and has to occur at 
both the grassroots level and from the Government on down. I am pleased 
to say that is exactly what is happening in Canada and I hope it's what 
will happen here too.
    Over the years, through my work at Respect Group, I've learned 
that:

    <bullet> Educating the good people--the 99 percent of our 
population--is our best defense to prevent abuse;
    <bullet> Training must be mandatory to ensure full compliance and 
reduce liability;
    <bullet> The education has to be simple and consistent;
    <bullet> All forms of abuse leave the same emotional scars so 
training has to be comprehensive;
    <bullet> Education is best delivered on-line to ensure consistency, 
safety of the learner, convenience and the greatest reach; and finally,
    <bullet> Training must be ongoing, it's not a one-time thing.

    Too often, society's response to child abuse is to focus on 
punishing the criminal.
    If the teacher, priest or coach is sent to jail for a long time, 
then we feel that we've done our jobs as citizens or as politicians. 
Punishing the bad guys makes us feel good, but it does not fully solve 
the problem.
    Senators, you need to give all adults working with youth and all 
parents, the tools to recognize and respond to abuse when it first 
arises.
    I am under no illusion that such an approach will fully eliminate 
child abuse, but I do know that mandatory education creates a platform 
within all organizations for that conversation to happen.
    Empower the bystanders and you'll be taking an important first step 
in breaking the silence on child abuse!
    Thank you and I would be happy to take your questions.

    Senator Mikulski. Thank you, Mr. Kennedy.
    Miss Collins, let us get the perspective of the Center for 
Missing and Exploited Children.

       STATEMENT OF MICHELLE K. COLLINS, VICE PRESIDENT, 
  EXPLOITED CHILDREN DIVISION AND ASSISTANT TO THE PRESIDENT, 
NATIONAL CENTER FOR MISSING AND EXPLOITED CHILDREN, ALEXANDRIA, 
                               VA

    Ms. Collins. Madam Chairwoman and members of the 
subcommittee, I welcome this opportunity to appear before you 
to talk about the very important issue of child sexual abuse.
    Senator Mikulski, your firsthand experience working these 
types of cases gives you invaluable insight and we appreciate 
your leadership on these issues.
    With your permission, I will abridge my testimony in the 
interest of time.
    As you know, the National Center for Missing and Exploited 
Children, NCMEC, is a not-for-profit corporation authorized by 
Congress, and working in partnership with the Department of 
Justice. We are a private-public partnership and for 27 years, 
we have served as the national resource center and clearing 
house on missing and exploited children.
    One of our key programs is the Cyber Tipline, the national 
clearinghouse for crimes against children on the Internet, and 
it is operated in partnership with the Federal, State, and 
local law enforcement agencies.
    We receive reports in eight categories of crimes against 
children including possession, manufacture, and distribution of 
child pornography, and extra-familial child sexual molestation. 
These reports are made by the public as well as by electronic 
service providers who are required by law to report apparent 
child pornography to law enforcement via the Cyber Tipline. 
These are reviewed by NCMEC analysts and then referred to the 
appropriate law enforcement agency.
    As we all know, recent events have highlighted the problem 
of child sexual abuse, but what are the facts? We have come a 
long way since 1974 when Congress passed CAPTA. The States have 
made significant progress in the reporting, investigation, and 
treatment of these cases. All 50 States have laws requiring 
mandatory reporting of child abuse. Last year, the 560 
accredited child advocacy centers in the United States served 
more than 270,000 abused children.
    But despite this progress, the problem persists. According 
to the Department of Health and Human Services, in 2009 State 
child protective agencies reported 543,000 substantiated 
instances of neglect, 123,000 substantiated instances of 
physical abuse, and 66,000 substantiated incidents of child 
sexual abuse.
    However, the HHS data comes from State child protective 
agencies, and is generally limited to abuse committed by 
caretakers. DOJ data indicates that there are actually many 
more incidents of child sexual abuse and child sexual assault 
each year. A DOJ study estimated that 285,400 children were 
victims of a sexual assault in that year.
    What are we learning about child sexual abuse? We do not 
hear about it, usually, from the child victims. In fact, DOJ 
found that only one-third of these incidents were reported to 
law enforcement. We hear about abuse from those who are 
designated as mandatory reporters under State laws, and other 
concerned adults who report allegations of abuse. These 
mandatory reporters are specified by profession in most States 
including healthcare professionals, law enforcement officers, 
educators, and childcare providers. In addition, 18 States 
require all adults to report abuse.
    We also learn about child sexual abuse through the 
investigations of child pornography on the Internet. Law 
enforcement investigations of crimes against children in the 
online world often lead to the discovery of child victims in 
the offline world. Individuals who possess and distribute child 
pornography, may be sexually abusing a child or they may be 
communicating and trading images of somebody else who is 
sexually abusing a child. And because very few of these child 
victims tell anyone about their abuse, it is only through the 
great work of Federal, State, and local law enforcement that 
these abusers are caught, and the children get the help they 
desperately need.
    Who are abusing these children? The vast majority of child 
victims are victimized by somebody that they know and somebody 
they should be able to trust. According to a DOJ survey, 81 
percent of child sexual assaults were committed by somebody 
with legitimate access to the child. Of the child pornography 
victims that have been identified by law enforcement, 70 
percent were abused by a parent or guardian, a relative, a 
neighbor, a family friend, babysitter, coach, or a guardian's 
partner.
    The good news is that regardless of how the abuse is 
reported, many child victims today are getting the help that 
they need. However, there is room for improvement in our 
reporting system.
    Mandatory reporters should always be required to report 
child sexual abuse directly to law enforcement. Although they 
may be required to report to their supervisors within an 
organization, child sexual abuse is a crime in all States, and 
law enforcement must be involved at the outset. Once a report 
is made, law enforcement will involve the appropriate child 
protection authority.
    Another recommendation is to require training of mandatory 
reporters on how to better recognize the signs of child sexual 
abuse so they'll be better equipped to respond to the warning 
signs.
    And the most important change we can make is to encourage 
all adults to speak up for the child victims of sexual abuse. 
We should teach people what to look for and to build momentum 
for combating child sexual abuse.
    I recognize that many people are afraid of getting 
involved, or of making a mistake in allegation based on mere 
suspicion, but we are the only ones who can act on these 
suspicions and help stop the abuse.
    I am confident that we can work together to better protect 
children.
    Thank you.
    [The prepared statement of Ms. Collins follows:]
                 Prepared Statement of Michelle Collins
    Madame Chairwoman and members of the subcommittee, I welcome this 
opportunity to appear before you to discuss the problem of child sexual 
abuse. Senator Mikulski, your first-hand experience working these cases 
gives you invaluable insight. We appreciate your leadership on these 
issues.
    As you know, the National Center for Missing & Exploited Children 
is a not-for-profit corporation, authorized by Congress and working in 
partnership with the U.S. Department of Justice. NCMEC is a public-
private partnership, funded in part by Congress and in part by the 
private sector. For 27 years NCMEC has operated under congressional 
authority to serve as the national resource center and clearinghouse on 
missing and exploited children. This statutory authorization (see 42 
U.S.C.  5773) includes 19 specific operational functions, among which 
are:

    <bullet> operating a national 24-hour toll-free hotline, 1-800-THE-
LOST (1-800-843-5678), to intake reports of missing children and 
receive leads about ongoing cases;
    <bullet> operating the CyberTipline, the ``9-1-1 for the 
Internet,'' that the public and electronic service providers may use to 
report Internet-related child sexual exploitation;
    <bullet> providing technical assistance and training to individuals 
and law enforcement agencies in the prevention, investigation, 
prosecution, and treatment of cases involving missing and exploited 
children;
    <bullet> tracking the incidence of attempted child abductions;
    <bullet> providing forensic technical assistance to law 
enforcement;
    <bullet> facilitating the deployment of the National Emergency 
Child Locator Center during periods of national disasters;
    <bullet> working with law enforcement and the private sector to 
reduce the distribution of child pornography over the Internet;
    <bullet> operating a child victim identification program to assist 
law enforcement in identifying victims of child pornography;
    <bullet> developing and disseminating programs and information 
about Internet safety and the prevention of child abduction and sexual 
exploitation; and
    <bullet> providing technical assistance and training to law 
enforcement in identifying and locating non-compliant sex offenders.

    Our longest-running program to help prevent the sexual exploitation 
of children is the CyberTipline, the national clearinghouse for leads 
and tips regarding crimes against children on the Internet. It is 
operated in partnership with the Federal Bureau of Investigation 
(``FBI''), the Department of Homeland Security's Bureau of Immigration 
and Customs Enforcement (``ICE''), the U.S. Postal Inspection Service, 
the U.S. Secret Service, the Military Criminal Investigative 
Organizations (``MCIO''), the Internet Crimes Against Children Task 
Forces (``ICAC''), the U.S. Department of Justice's Child Exploitation 
and Obscenity Section, as well as other State and local law 
enforcement. We receive reports in eight categories of crimes against 
children:

    <bullet> possession, manufacture and distribution of child 
pornography;
    <bullet> online enticement of children for sexual acts;
    <bullet> child prostitution;
    <bullet> sex tourism involving children;
    <bullet> extra familial child sexual molestation;
    <bullet> unsolicited obscene material sent to a child;
    <bullet> misleading domain names; and
    <bullet> misleading words or digital images on the Internet.

    These reports are made by both the public and by Electronic Service 
Providers (``ESPs''), who are required by law to report apparent child 
pornography to law enforcement via the CyberTipline (18 U.S.C.  
2258A). The leads are reviewed by NCMEC analysts, who examine and 
evaluate the content, add related information that would be useful to 
law enforcement, use publicly available search tools to determine the 
geographic location of the incident in the report, and provide all 
information to the appropriate law enforcement agency for 
investigation. These reports are triaged continuously to ensure that 
children in imminent danger get first priority.
    The FBI, ICE, Postal Inspection Service and the MCIOs have direct 
and immediate access to all CyberTipline reports, and assign agents and 
analysts to work at NCMEC. In the 13 years since the CyberTipline 
began, NCMEC has received and processed more than 1.2 million reports. 
ESPs have reported to the CyberTipline more than 8 million images/
videos of apparent child pornography. Working in conjunction with law 
enforcement, more than 60 million images and videos have been reviewed 
by the analysts in our Child Victim Identification Program (``CVIP''), 
which assists prosecutors to secure convictions for crimes involving 
identified child victims and helps law enforcement to locate and rescue 
child victims who have not yet been identified.
    As we all know, recent events have highlighted the problem of child 
sexual abuse. A great deal has been written and said about it. But what 
are the facts?
    We've come a long way since Congress initiated the Federal efforts 
to combat child abuse in 1974. Thanks to the Child Abuse Prevention and 
Treatment Act (CAPTA), States have made significant progress in the 
reporting, investigation and treatment of these cases. All 50 States 
have laws requiring mandatory reporting of child abuse under certain 
circumstances. There are now 560 accredited children's advocacy centers 
in the United States, with 290 more working toward accreditation. These 
facilities coordinate investigation and intervention services in a 
child-friendly environment--and last year served more than 270,000 
abused children.
    Despite this progress, the problem persists. According to the U.S. 
Department of Health and Human Services (HHS), in 2009 State child 
protective agencies reported approximately:

    <bullet> 543,000 substantiated incidents of neglect;
    <bullet> 123,000 substantiated incidents of physical abuse, and;
    <bullet> 66,000 substantiated incidents of child sexual abuse.\1\
---------------------------------------------------------------------------
    \1\ U.S. Department of Health & Human Services, Administration for 
Children and Families, Administration on Children, Youth and Families, 
Children's Bureau, Child Maltreatment 2009, pages 46-47. This is the 
most current report.

    However, the HHS data does not accurately depict the scope of child 
sexual abuse.
    Because the HHS data is compiled from reports made by State child 
protective service agencies, it is generally limited to allegations of 
child abuse committed by caretakers. The U.S. Department of Justice 
(DOJ) data indicates that there are actually many more incidents of 
child sexual abuse each year. A DOJ incidence study estimated that, in 
a given year, 285,400 children were victims of a sexual assault.\2\ 
Although it is difficult to know with certainty how many children are 
sexually assaulted each year, we do know that child sexual abuse 
continues to be a serious problem that deserves our immediate 
attention.
---------------------------------------------------------------------------
    \2\ U.S. Department of Justice, Office of Justice Programs, Office 
of Juvenile Justice and Delinquency Prevention, National Incidence 
Studies of Missing, Abducted, Runaway and Thrownaway Children, August 
2008, Page 2.
---------------------------------------------------------------------------
    How are we learning about child sexual abuse? We usually don't hear 
about the abuse from the child victims. DOJ found that, for a variety 
of reasons, only one-third of the estimated incidents of child sexual 
abuse were reported to law enforcement.\3\ Some child victims disclose 
their abuse after becoming adults. For example, many adults came 
forward after highly publicized allegations of abuse by members of the 
clergy. For some adults, the damage resulting from childhood sexual 
abuse becomes more pronounced as they grow older and begins to affect 
many aspects of their lives.
---------------------------------------------------------------------------
    \3\ Ibid, Page 5.
---------------------------------------------------------------------------
    We hear about abuse from those who are designated as mandatory 
reporters under State laws and other concerned adults who report 
allegations of abuse. These mandatory reporters are specified by 
profession in most States--generally professions that involve contact 
with children and an opportunity to see the signs of abuse. These 
usually include health care professionals, law enforcement officers, 
educators, and child care providers. In addition, 18 States require all 
adults to report abuse.
    Finally, we also learn about child sexual abuse through 
investigations of child pornography on the Internet. Law enforcement 
investigations of crimes against children in the online world often 
lead to the discovery of crimes against children in the offline world. 
Individuals who possess and distribute child pornography may be 
sexually abusing a child or may trade images with someone who is 
sexually abusing a child. Because very few child victims tell anyone 
about their abuse, it is only through the great work of Federal, State 
and local law enforcement that these abusers are caught and the 
children can get help.
    Who are abusing these children? The vast majority of child victims 
are victimized by someone they know, someone they should be able to 
trust--someone who is in their lives for a legitimate reason. This is 
true for cases investigated primarily by child protective services and 
for cases investigated primarily by law enforcement. According to a DOJ 
survey, 81 percent of child sexual assaults were committed by someone 
with legitimate access to the child.\4\ Of the child pornography 
victims identified by law enforcement, 70 percent were abused by a 
parent, guardian, relative, neighbor, family friend, babysitter, coach 
or a guardian's partner.\5\
---------------------------------------------------------------------------
    \4\ Ibid, Table 3, Page 7. Identity of perpetrator: Family member, 
10 percent of estimated victims; Acquaintance, 64 percent of estimated 
victims; Person known by sight, 7 percent of estimated victims.
    \5\ Data from Child Victim Identification Program, National Center 
for Missing & Exploited Children, December 2011.
---------------------------------------------------------------------------
    The good news is that, regardless of how the abuse is reported, 
many child victims today are getting the help they need. However, there 
is room for improvement in our reporting system.
    Mandatory reporters should always be required to report child 
sexual abuse directly to law enforcement. Although mandatory reporters 
may also be required to report suspected child sexual abuse to their 
supervisors within an institution or organization, child sexual abuse 
is a crime in all States and law enforcement must be involved at the 
outset. Once a report is made, law enforcement will involve the 
appropriate child protection authorities.
    Another recommendation is to require training of mandatory 
reporters on how to recognize the signs of child sexual abuse, which 
can be both physical and psychological. This will ensure that they are 
better equipped to respond to warning signs.
    The most important change we can make is to encourage all adults to 
speak up for the child victims of sexual abuse. We should teach people 
what to look for and make this information widely available in an 
effort to encourage grassroots momentum for combating child sexual 
abuse. I recognize that many people are afraid of getting involved or 
of making a mistaken allegation based on mere suspicion. But we are the 
only ones who can act on these suspicions and help stop the abuse.
    Recent events have highlighted the gaps in the reporting of child 
sexual abuse. I'm confident that we can work together to better protect 
children.
    Thank you.

    Senator Mikulski. Thank you, Miss Collins.
    Mr. Cervone. Is it Cervone or Cervonee?
    Mr. Cervone. Cervone; Chervone if you want.
    [Laughter.]

   STATEMENT OF FRANK P. CERVONE, ESQ., EXECUTIVE DIRECTOR, 
      SUPPORT CENTER FOR CHILD ADVOCATES, PHILADELPHIA, PA

    Mr. Cervone. Thank you, Chairwoman Mikulski and Ranking 
Member Burr, Senator Casey, and other members of the committee 
for this opportunity to testify today.
    And thank you, Senator Casey, in particular for calling for 
this hearing and for continued leadership in this area. We know 
that you are a great friend for children in healthcare, in 
early education, and childcare. In all the ways, we know we can 
turn to you. Thank you very much.
    The Support Center for Child Advocates is Philadelphia's 
volunteer lawyer program for abused and neglected children. We 
are a big law shop for kids. We represent about 850 children 
each year in court in various types of victimization cases. I 
am assisted today in this presentation by the work of Cathleen 
Palm, and our colleagues in the Protect Our Children Committee, 
which is Pennsylvania's statewide coalition of advocates, and 
physicians, and service providers.
    I would like to put some of the events of recent days and 
weeks into context, reflecting the reality that many more 
children are physically and sexually abused, but they garner 
little attention from policymakers or from the people who 
should be caring for them.
    Sadly, it seems, this is not just a Penn State or Syracuse 
story. Sadly, we needed these scandals. We needed even these 
bad actors to bring this discussion forward.
    We welcome the Speak Up to Protect Every Abused Child Act, 
introduced by Senator Casey. This legislation helps shift child 
protection strategies from one where the children are required, 
essentially, to protect themselves from abuse and 
victimization, and highlights and transfers to adults the 
responsibility to step up for kids. It calls for training, for 
mandated reporters. It calls for better knowledge and data-
informed policies. It represents a solid starting point to a 
critical discussion.
    We know that families sometimes keep secrets. Last week in 
our office, we opened two cases representing child victims in 
the prosecution of their alleged abusers. It is one very 
important aspect of our work to be in the criminal courts on 
behalf of child victims.
    One was an 11-year-old girl. She was sexually abused by her 
father for years, and her mother was not believing her. She 
knew, apparently knew, but failed to believe her.
    The other, a boy of 10, sexually abused by his mother's 
boyfriend, and now the mother is failing to bring the child to 
court for interviews and for prosecution of the abuser.
    For these cases, like the more notable ones we are hearing 
about, we should ask: where were the adults in their lives over 
all the years that the youth were carrying their sad secrets? 
This is what is typical, that for many, we are left wondering, 
``What was missing in their lives?'' In wholesome adults whom 
they might have trusted? In knowledgeable adults who might have 
noticed the warning signs.
    While it is hard to know the extent of underreporting, we 
know that many cases come forward with a long history of 
secrecy and nondisclosure. The days or years that pass suggest 
that someone knew and should have known. And there is another 
theme in the Penn State cases that should not go unnoticed. 
Lives were changed and children were protected because a couple 
of moms listened to and believed their children, and now they 
are standing with them in what will be a gut wrenching court 
process.
    There can be no better child protection tool than insuring 
every child is connected to adults who have pledged to nurture, 
to listen to them, and to speak up for a child.
    Why don't victims of abuse come forward? Well, violations 
of trust are the hardest to endure. The abusers are trusted 
parents, an aunt or an uncle, a pastor, or a parent, or a 
coach, and the violations of that trust are tremendously 
confusing. The child's defenses are compromised, in the 
beginning, by grooming behaviors and in the end, by threats of 
embarrassment and harm.
    In our work, we hear all the time that the child or adult 
felt reluctance to disclose and then suffered the pain of 
keeping the secret.
    Why don't people intervene? Well, this is the question we 
are all asking. It is getting all of this attention. But again, 
the story, the understanding of it belongs to us.
    Why are we adults reluctant to report? Undoubtedly, we have 
all experienced feelings of indifference, of isolation about 
the opportunity to intervene. We say things like, ``It is not 
my job. Someone else will respond.'' Or we think, ``If I step 
in here, it will be worse for the child.'' To which I say, 
``How can it get worse?'' We fool ourselves if we think that 
stopping a crime is not the best solution. And I can tell you, 
I have heard from the kids. They want the abuse to stop.
    Feelings of loyalty to the institution get in the way, 
aversion to scandal, the survival and health of the institution 
is what becomes paramount.
    Finally, people respond in strange ways to cultures of 
power in families and small towns, in big institutions, there 
is often a heavy price to pay for speaking out. We must help 
the victims and the reporters come forward.
    Every State has a mandatory reporting statute. I teach on 
this stuff. I have literally taught it my whole career. It is 
very easy to teach, and yet people are confused about their 
duty to report. A remarkably large number of mandated 
reporters, I am betting a lot of people in this room, people 
who come into contact with children in their work have never 
been trained on the duty to report what the law is in their 
State.
    The Speak Up legislation will require States to mandate the 
reporting of known or suspected incidents. This standard 
articulates the duty that we should all know and feel. We know 
that the mechanics of this mechanism have got to be worked out, 
but what we have is a laboratory, because there are States that 
are doing it both ways, and we should be studying those.
    A word about capacity. Increasing the numbers of reports of 
suspected abuse without increasing the resources of the 
system's capacity to respond may be facially noble, but may be 
dangerous to kids who really need the system's attention. Kids 
get removed in an abundance of caution. That is what we all do. 
We pull them out of the fire, or so we think.
    But removal to foster care is not always beneficial or even 
benign. The child can be traumatized. School can be 
interrupted. The investigation can get it wrong. The findings 
about becoming a child abuser have all sorts of implications 
for future employment of that child's parent. For these 
reasons, we have to get it right. And need we remember that our 
jails are filled with adults who were the kids in this system. 
We are not doing so well at this.
    Finally, a word about intervention. Not every family needs 
a hammer; some of them need the velvet glove. One of the hard 
tasks of child welfare work is to distinguish the cases that 
need the hammer from those that need the helping hand. We call 
this ``differential response.'' But differential response takes 
capacity. It takes science. It takes knowledge about the 
differences, and this is a hard game. We need knowledge and 
research to make this happen.
    Finally, Senator Casey's legislation opens a door of 
understanding, and invites serious discussion about who should 
be considered a perpetrator of child abuse. I have had dozens 
of conversations in recent weeks with knowledgeable 
professionals about which, if any, of the Penn State officials 
were mandated reporters. This ought to be clear to everyone. It 
certainly should be clear to the prosecutors and other 
professionals, and even they are fighting.
    We are at a curious moment. The attention of the Nation is 
finally set upon child protection, as it should be. It seems 
attractive to be as protective of children as we possibly can, 
yet it would be prudent to be aware of unintended consequences.
    We can be a healthier community tomorrow if the victims of 
yesterday and today get help. Sadly, some of today's victims 
will become abusers themselves, not to mention drinkers, angry 
family members, spouses who cannot trust, their harm eating 
away at their ability to be healthy and safe.
    We must get the message out to victims who have not yet 
disclosed. If you have been abused, tell someone. Get help. The 
healing will come. We can change the story of these lives. 
Let's do it right.
    Thank you.
    [The prepared statement of Mr. Cervone follows:]
              Prepared Statement of Frank P. Cervone, Esq.
    Chairwoman Mikulski, Ranking Member Burr, Senator Casey and other 
members of the committee, thank you for this opportunity to testify 
today. Senator Casey, I appreciate you calling for this hearing, and 
for your continued leadership to ensure that children are protected, 
connected to health care, and have access to high-quality childcare and 
education opportunities, in Pennsylvania and across the Nation. Thank 
you, Senator.
    The Support Center for Child Advocates (Child Advocates) is 
Philadelphia's lawyer pro bono program for abused and neglected 
children. For 35 years, we have offered the skills and dedication of 
lawyer-social worker teams, and we represent more than 850 children 
each year. While our direct service work is Philadelphia-focused, we 
work with partners across the Commonwealth of Pennsylvania and the 
Nation on the development of effective policy and practice for 
vulnerable children. We attempt to offer a balanced, candid and 
constructive assessment of what our children need and how we are all 
doing for our kids.
    I am assisted in this presentation by the work of Cathleen Palm and 
our colleagues in the Protect Our Children Committee (POCC), 
Pennsylvania's statewide coalition of advocates, physicians and service 
providers joined together in coordinated strategies to prevent child 
abuse and achieve targeted child welfare reforms that are child-
centered. POCC was co-founded in 2003 by the Pennsylvania Coalition 
Against Rape (PCAR) which is the oldest anti-sexual violence coalition 
in the country.
    At Child Advocates, we work to change the story for children. I 
would like to provide the committee with observations and insights of 
what we have seen in child abuse and child welfare work in Pennsylvania 
and other jurisdictions over the past 20 years. During my testimony I 
will:

    <bullet> Attempt to place recent events into a context, reflecting 
the reality that many more children are physically and sexually abused 
but that they garner little attention from policymakers or from the 
people who should be watching out for them;
    <bullet> Share the experiences of children who have been abused, 
about the reasons they do not come forward, and why caregivers--so-
called ``mandated reporters'' and others--often fail to fulfill their 
legal and moral duties of protection; and
    <bullet> Suggest some changes to current laws relating to child 
abuse reporting, investigation and service, to assist you and other 
lawmakers in this important task of reform that might make our world 
safer for kids.

    The Penn State and Syracuse cases have gathered much attention to 
the world of child abuse, but this is not just a Penn State or Syracuse 
story. Sadly, it seems we needed these scandals, even these bad actors, 
to bring the discussion forward.
    We welcome the Speak Up to Protect Every Abused Child Act (the 
``Speak Up Act'') of 2011 introduced by Senator Casey. This legislation 
helps shift child protection strategies from one where children are 
required to protect themselves from abuse and sexual victimization. It 
highlights and transfers to adults the responsibility to protect 
children. It calls for training of mandated reporters, and information 
for all caregivers. It calls for better knowledge and data-informed 
policies. It represents a solid starting point to a critical debate.
                        child abuse and secrets
    We know that families sometimes keep secrets. Last week in our 
office we opened two cases representing child victims in the 
prosecution of their alleged abusers: one an 11-year-old girl, sexually 
abused by her father for years, and her mother not believing her; the 
other, a boy of 10, sexually abused by his mother's boyfriend, and now 
the mother is failing to bring the child to court for interviews and 
prosecution of the abuser.
    Consider, as well, all the youths reported about in the Penn State 
case, and what is common in the cases: where were the adults in their 
lives, over all the years that the youths were carrying their sad 
secrets? For too many we are left wondering what was missing in their 
lives, in wholesome adults whom they might have trusted, in 
knowledgeable adults who might have noticed the warning signs? Surely 
there were signs, in the behaviors of the kids, perhaps even in the 
behaviors of the adults.
    While it is hard to know the extent of underreporting, we know that 
many cases come forward with a long history of secrecy and non-
disclosure. The days or years that pass suggest that someone knew, that 
someone should have known. For all of the failings of human beings and 
our policies, there is one central theme to this story receiving too 
little attention. Lives were changed, children were protected, because 
a couple of Moms listened to and believed their children and now are 
standing by them in what will be a gut-wrenching court process. There 
can be no better child protection tool than ensuring every child is 
connected to adults who have pledged to nurture, listen to, and speak 
up for a child.
    Why don't victims of abuse come forward?
    Violations of trust are the hardest to endure. The abusers are 
trusted persons, an aunt or uncle, a pastor or parent or coach, and 
violations of that trust are tremendously confusing. The child's 
defenses are compromised, in the beginning by grooming behaviors, and 
in the end by threats of embarrassment and harm. In our work we hear 
all the time, that the child or adult felt reluctance to disclose, and 
then suffered the pain of keeping the secret.
    Why don't people intervene? This is the question we are all asking 
in the cases gaining our attention. But again, the story, and 
understanding it, belongs to all of us.
    Why are we adults reluctant to report?
    Undoubtedly we have all experienced the feelings of indifference or 
isolation about some opportunity to intervene: ``it's not my job'' . . 
. ``someone ELSE will respond''. Or we think: ``If I step in here, 
it'll be worse for the child.'' To which I say: how can it get worse? 
We fool ourselves if we think that stopping a crime is not the best 
solution.
    I once had a 12-year-old client, who was at once so close and loyal 
to her abusive mother that she sometimes hindered our efforts for 
protection, and at the same time deeply concerned about her young 
siblings. One day she sat down next to me on a sidewalk step and said, 
``You have to get us out of here.'' Yes, the kids want the abuse to 
stop.
    Feelings of loyalty to an institution or person also get in the way 
of reporting. Aversion to ``scandal'' becomes the dominant theme. The 
survival and health of the institution becomes paramount.
    Finally, people respond in strange ways to the culture of power. It 
is well known that domestic violence cases are all about power and 
control, so the reluctance of the child or adult victim to report abuse 
in the face of a threat seems easy for us to acknowledge. But one must 
imagine how hard it is to take on the sports stars at a big sports-
dominated university, or the powerful judge before whom you must 
practice, or the Uncle in the family who is everyone's favorite. In 
families, small towns and big institutions, there is often a heavy 
price to pay for speaking out. We must help both victims and reporters 
come forward, making it safe and fruitful to do so.
         accountability and transparency: children's ombudsman
    We recommend that each children and youth agency have its own 
complaint-resolution device, and that each State have a Children's 
Ombudsman. Today about half the States have some form of independent 
complaint-investigation mechanism. We must recognize that children and 
youth agencies live in a landscape that is traditionally unexamined and 
unknown.
    Why is accountability important? One must acknowledge that child 
welfare services are little known and often forgotten to most of the 
public at-large. It is said that ``child abuse lives in the shadows of 
our lives.'' The same can be said of the systems and services that are 
provided to children and families needing them: they live without 
account. Certainly there are systemic oversights, like the regulatory 
schema, the licensure process and the budgeting process. But when the 
child welfare system acts in a manner that is questionable or suspect 
or even abusive, citizens and consumers presently have little recourse 
outside the system that is arguably aggrieving them. Individuals need a 
place to turn. The public at-large needs assurance that this is a 
system worthy of our confidence.
    The authority to investigate is the key: the Children's Ombudsman 
can investigate problems, complaints and other issues that come to its 
attention. This combines the classical individual complaint-resolution 
mechanism of many ombudsman functions, with the important capacity for 
systemic advocacy. Each year, across the land, we hear more than 
occasional reports of problems of county or State child welfare 
agencies not communicating with their local prosecutors, or the 
failures to provide notice to parents when changing a case goal, or 
countless other issues which laws, litigations and tragedies would 
eventually highlight.
    Consider the following real story from a few years back that 
illustrates the need for a Children's Ombudsman. I took the call 
myself:

          I received a phone call from a lawyer, who learned of a 
        sister-of-a-friend with a Children and Youth problem in a small 
        town, in a rural PA county. That prior Saturday night, a mid-
        twenties single mother was house-sitting for a friend. In the 
        middle of the night, her 3-year-old boy whom I will call 
        Richie, left his bed, opened two latched doors, and wandered 
        into the street. Next morning, mother frantically searched for 
        Richie. Thankfully, he had been found by a passing motorist, 
        who called police. But because he was a stranger to this town, 
        he was placed in protective service of foster care. The mother 
        felt pressured to sign a ``Voluntary Placement Agreement'' or 
        lose the child in court; this gave the agency 30 days to act . 
        . . and it planned to use most of them!
          In most communities, this child would have been home the next 
        day. But 10 days later, he was still in care. Only with some 
        outside calls from our office did the child even have one visit 
        in those 10 days with his mother. There were never any signs of 
        child abuse. Neither mother nor child had any prior history 
        with the C&Y agency in her home county. Yet no family members 
        were contacted to serve as placement resources. The worker did 
        not even meet with her supervisor until Thursday to shape a 
        reunification plan.

    Conversations such as occurred between the worker and mother are 
rarely witnessed, so we cannot be certain of all that transpired. I can 
attest that this very upset and entirely innocent mother felt 
railroaded, disregarded and abused. In more than half the States, there 
is no place for Richie's mother to call. And in Pennsylvania, unlike 
Rhode Island or Michigan, the story of the system's failure to protect 
the infant boy would never, COULD NEVER be told. There is no office in 
Pennsylvania to conduct such an investigation and no authority to 
publish such a report.
    In my own experience however, as a professional community, we 
remain uncomfortable with the burdens of accountability and 
transparency. We recommend that the Children's Ombudsman have 
discretion to make public its investigative reports and its annual 
report.
    I served on Mayor John Street's Child Welfare Review Panel 5 years 
ago, which was appointed following publication of some notorious deaths 
of children who had been served by the Philadelphia child and youth 
agency. Consistent with State rules, each fatality had been studied; 
the Panel found the study process to be sound and thorough, their 
recommendations honest and challenging. BUT THEY WENT NOWHERE. These 
were lives unrequited, their deaths unredeemed. Without that leadership 
meltdown and a tremendous investment of public will, the many 
deficiencies in that system would never have seen the light of day. 
That dead-end secrecy is the all-too-common reality of child welfare 
work across the Commonwealth and around the Nation.
    We should note that what gave rise to that crisis was not the child 
deaths per se, tragic as they were, but that their deaths had been 
forgotten. To its credit, the local children and youth agency and city 
government rose to the occasion, creating mechanisms to become self-
corrective. But the response was so large, so thorough, and so well-
funded, that it is unlikely to happen ever again! We should make clear 
that there is much that is good about our system, its people and its 
practice. The Ombudsman will not erode confidence; rather it will build 
confidence that these are systems we can trust, that mandated reporters 
and the public should feel assured will respond appropriately to 
reports of suspected child abuse.
    If you believe that the child welfare system is self-correcting, 
that it is sufficiently safeguarded with regulations and the oversight 
of the licensure process, that its good people are good enough, then 
perhaps there is no need for a Children's Ombudsman. The experiences of 
countless families and children tell a different story. You will hear 
that confidentiality is needed to protect children and families; my 
concern is that secrecy protects bad systems and bad practice.
    Accountability and transparency make for good government; they will 
also make for safer kids and a better system to serve them.
                           the duty to report
    Every State has a mandatory reporting statute. I have been 
lecturing and teaching on the subject for many years. While the laws on 
reporting are relatively straightforward and teachable, many folks find 
them technical and confusing. A remarkably large number of mandated 
reporters--people who come into contact with children in their work--
have never even been to a training program on the requirements of these 
laws.
    Last year, the Protect Our Children Committee conducted a survey of 
mandated reporters in Pennsylvania. There were 1,400 professionals who 
responded, and their comments and questions provided a powerful 
reminder that effective and ongoing training is essential. And yet our 
State, which has required mandatory reporting of child abuse since 1975 
and which permits prosecution for the failure to report, has no 
training requirement for mandated reporters.
    The survey revealed that nearly 40 percent of those responding had 
never been trained or had received a training before significant 
changes in the law took effect in 2007. Often the trainings are not 
connected to professional licensure or continuing education 
requirements. Across the Nation, we should be assured that our 
caregivers and professionals know their duty and the pathway for 
response.
    We recommend that Congress strengthen the mandatory reporting 
provisions in the Child Abuse Prevention and Treatment Act (CAPTA) so 
that States ensure mandated reporters receive training. It might also 
promote the cooperation, not just on investigation, but also reporting 
of abuse. Senate Bill 1877 includes a nice emphasis and designated 
resources to encourage States to execute educational campaigns and 
much-needed training.
    The Speak Up legislation requires a ``study of the efforts of 
States relating to State laws for mandatory reporting.'' We suggest 
that such a research study is needed NOW to determine whether certain 
State approaches have resulted in better protections and outcomes for 
children. The Federal review could also help to determine the floor 
States should meet in, who should report, what must be reported (e.g., 
suspected or known), how such reports are to be made, and penalties for 
failure to report.
    The Speak Up legislation would require States to mandate the 
reporting of ``suspected or known incidents of child abuse and 
neglect'' by every adult, which would require a significant policy 
shift in many States and may not effectively respond to the distinction 
between knowing or witnessing acts of abuse versus having a suspicion 
that abuse may be occurring. I recommend that we learn from the States 
that have such legislation, comparing the rates of reporting and 
substantiation and the sources of the reports. In general we know that 
most reports of suspected abuse today come from mandated reporters, and 
that those reports have higher substantiation rates and thus are at 
least arguably more reliable.
    All States have provision for civil immunity for good faith 
reporting of suspected child abuse. However institutions such as 
hospitals (and probably some individuals) have been sued under Federal 
civil rights provisions for violations of confidentiality rights, for 
making reports of abuse. Legal work to assert the immunity and get a 
person relieved of such suits can be costly and time-consuming. 
Increasing the number of mandated reporters is likely to increase this 
kind of litigation. To fully promote good-faith reporting, the 
provisions for immunity from liability should be iron-clad, and the law 
should provide a pathway for expeditious dismissal of such claims.
    Congress and the States should ensure that penalties for failure to 
report are sufficient to encourage reporting. When the failure to 
report results in a summary offense akin to a traffic citation, the 
penalty falls short of the crime.
    A minority of States, including Pennsylvania, allow reporting up 
the chain of responsibility or chain of command. That is, workers in 
organizations can legitimately tell their superiors, not child welfare 
or law enforcement officials, in order to satisfy the duty to report 
child abuse. These provisions have come under intense scrutiny in the 
wake of the Penn State scandal with many suggesting that this approach 
is fundamentally flawed, but on what basis is that being determined? Is 
it possible that such an approach results in both a cleaner and safer 
approach for children by having a well-identified and more thoroughly 
trained professional make the report, so long as the superior does not 
delay the report or conduct their own investigation?
    For example, instead of the school janitor or teacher's aide making 
the report, an institution might designate the counseling or social 
work department to make reports to authorities when they receive a 
report from a staff member. The duty to report by this designated 
person must then be immediate and followed up with a written form to 
authorities. It might be that the needed change is linked to the 
initial reporter being provided, in writing, assurance that the report 
was, in fact, filed. It might also require that institutional practice 
not deny or penalize the initial employee for notifying both the 
designated internal person and the appropriate authorities directly.
                        the capacity to respond
    Increasing the number of reports of suspected abuse, without 
increasing resources or the system's capacity to respond, may be 
facially noble, but may be dangerous to the kids who really need the 
system's attention. Kids will get removed in an abundance of caution--
that's what we all do. But removal to foster care is not always 
beneficial or even benign. The child can be traumatized. School is 
often interrupted. The investigation can get it wrong. Findings about 
being a child abuser have all sorts of implications for future 
employment of that child's parent. For all these reasons, it is 
incumbent that the system get it right. Need we be reminded that our 
jails are filled with adults who used to be kids in the foster care and 
juvenile justice systems! We are not doing so well by our kids! Part of 
the solution to the problem of child abuse lies in improving the 
capacity of the system to respond well to the cases it now gets.
    Are State hotlines and child welfare systems up to the task?
    In many States, the majority of reports about suspected child 
abuse--regardless the perpetrator of the alleged abuse--are directed to 
the State's child abuse hotline. In Pennsylvania we know it as 
ChildLine.
    On average Pennsylvania's ChildLine receives about 2,300 calls per 
week. In the days immediately following the initial arrest of Mr. 
Sandusky, the hotline answered more than 4,800 calls. The volume of 
calls remains at an elevated level, but not as dramatic as those 
initial post arrest days.
    Last year ChildLine answered more than 121,000 calls, but the 
staffing and technology issues contributed to a nearly 9 percent rate 
of missed calls.
    Raising awareness and the subsequent recognition and reporting of 
child abuse are critical elements of how we protect children. But if 
the calls to report abuse go unanswered, investigations are not 
conducted, service delivery and therapy are delayed or unavailable, we 
will have won the battle but lost the war.
    I want to flag two components of capacity that relate directly to 
services on the street in our work. First, Teresa Huizar of the 
National Children's Alliance will address the need for skillful 
multidisciplinary investigation and forensic interviewing that is 
state-of-the-art in sex abuse investigations. I would add that these 
mechanisms are almost non-existent in physical abuse cases in many 
jurisdictions, including my own, solely because of a lack of resources. 
If prosecutions fail for lack of good evidence that would have been 
available if only we had the tools, know that the perpetrator is likely 
to be at it again.
    Second, we urge Congress to raise the cap now imposed on the 
release of funds held in trust in the Crime Victims Fund, to provide 
needed services and supports to victims of crime and their families. 
These funds were and are collected from criminal defendants, and should 
be used to meet the needs of victims.
    The Victims of Crime Act (VOCA) Program was established by the 
Victims of Crime Act of 1984 and is administered by the Federal Office 
for Victims of Crime. Its purpose is to assist victims of crime to cope 
with the physical, emotional and criminal justice issues associated 
with crime. VOCA-funded victim services agencies provide courtroom 
support, accompaniment to medical appointments, networking and 
referrals for treatment services, and other supportive services to 
victims of crimes. A portion of Federal VOCA funds are also made 
available to State-based victim assistance programs, which provide cash 
payments to victims to pay (or reimburse out-of-pocket) for direct 
costs associated with crimes, such as medical examinations, counseling 
and other treatment costs, travel costs to court, funeral expenses, 
etc. For example, in fiscal year 2010, Pennsylvania's Victim 
Compensation Assistance Program (VCAP) received and disbursed $4.9 
million, or 28 percent of its total revenue, from VOCA trust funds, and 
VOCA trust funds contributed 50 percent of the total State expenditure 
for victim services, or $14 million.
    The Federal Crime Victims Fund is a trust account dedicated solely 
to supporting services for all crime victims. In fact, the VOCA statute 
requires States to give priority to funding services for victims of 
child abuse. The Crime Victims Fund comes from money already collected 
from Federal criminal fines, forfeitures and other penalties and does 
not add to the Nation's debt or deficit. Since 2000, Congress has 
placed a limit or ``cap'' on the amount of money that can be released 
from the Federal Crime Victims Fund on an annual basis. Although (as of 
December 2010) the Fund now has more than $7 billion in it and is 
continuing to grow, for the past several years Congress has capped the 
annual Fund distribution at $705 million. The VOCA cap must be raised 
because these funds are desperately needed now, for services and cash 
support. The economy has forced funding cuts by other funders making it 
impossible to maintain services to victims when they are most needed, 
let alone address the need for increased services. We urge you to 
eliminate the cap or significantly increase the annual distribution to 
the States of these desperately needed funds for direct services to 
victims including children.
    Any solution for this country's children must include a reality 
check about the capacity of the system to respond to the cases it now 
gets. Last week Allegheny County, Pennsylvania's second largest county, 
enacted a 21 percent increase in property taxes to blunt a reduction in 
Federal and State funding that when combined with the loss of local 
funding, would have extracted $22 million from family support centers 
and direct services for abused children. This was a fearsome moment, a 
crisis perhaps only momentarily averted in this age of cost-cutting.
    A word about differential response: when it comes to interventions 
about child abuse and differential responses, we should be clear that 
too little distinction can be problematic: if the only tool you have is 
a hammer, every problem looks like a nail!
    Some families are healthy and safe enough to merit voluntary, 
supportive services. In our work, many families and many children can 
be served just as well, if not better, with services in the home, 
informed by meaningful assessments, and supported by extended-family 
involvement, Family Group Decision-Making, and other preventative 
services. Other children need a far more intensive, even intrusive 
approach. One of the hard tasks of child welfare work is to distinguish 
the case that needs the hammer, from the one that needs the helping 
hand. Differential responses are valuable and needed but they also are 
often only as effective as the assessments that study the risks, and 
the resources that might permit a child to safely remain in the home. 
Unfortunately advocates and pediatricians in Pennsylvania are seeing 
some serious cases of physical abuse go by without intervention. We 
know there is a real pattern, but we do not know whether the problem 
extends beyond our State, or to what degree our particular Pennsylvania 
specific-approach to differential response or how we define child abuse 
is a contributing factor. Pennsylvania is a statistical outlier in the 
investigation and determination of child abuse, i.e., it investigates 
child abuse 8.3 per 1,000 children versus 40.3 per 1,000 children 
nationally, and then determines a child is a victim of child abuse 1.4 
per 1,000 children versus 9.3 per 1,000 nationally. It is a distinction 
that for years has been widely known impacting, to some degree, our 
ability to draw down CAPTA and Children's Justice Act funding, but it 
has never really been fully explored or explained from a research-based 
perspective. The recent reauthorization of CAPTA elevated the 
commitment to differential responses to reports of child abuse. The 
emerging work on evaluating and improving the quality of a differential 
response must be an even greater priority. With study as I have touched 
upon, we can learn from our differences, but we must have the courage 
to ask about them.
    Other children need a far more intensive, even intrusive approach. 
One of the hard tasks of child welfare work is to distinguish the case 
that needs the hammer, from the one that needs the helping hand. This 
is known as ``differential response''. Differential responses are 
valuable and needed but they also are often only as effective as the 
assessments and resources that might permit a child to safely remain in 
the home. Unfortunately advocates and pediatricians in Pennsylvania are 
seeing some serious cases of physical abuse go by without intervention. 
We cannot yet know if this is a real pattern, and we do not know 
whether the problem extends beyond our State.
    The recent reauthorization of CAPTA elevated attention to and 
commitment for differential responses to reports of child abuse. The 
emerging work on evaluating and improving the quality of a differential 
response must be an even greater priority.
                victimization, treatment and prevention
    We must ensure that when reports are filed, victims get the 
protection, therapy, services and support they need. We must be clear 
and resolved, that healing will come. We must also get the message out 
to victims who have not yet disclosed: If you have been abused, tell 
someone . . . get help!
    We should be thinking about PREVENTION in all of our interventions 
and activities: connecting every child to a nurturing and trusted adult 
who guards their safety and well-being, encouraging parents to empower 
children to speak up if they are being hurt, teaching caregivers about 
duty to report and how to recognize signs; and ensuring there are 
comprehensive quality services when victims come forward for treatment 
so that their pain does not turn sour.
    Some of today's victims will become abusers themselves, not to 
mention drinkers, angry family members, spouses who cannot trust, their 
harm eating away at their ability to be healthy and safe. We can be a 
healthier community tomorrow if the victims of yesterday and today get 
help.
    In other words, the adverse experience of child abuse has long-term 
and costly consequences for the child but also all for society. Each of 
us bears and is asked to contribute to these costly consequences, in 
the form of treating addiction, chronic and costly health conditions, 
increased rates of incarceration and school failure.
                          defining child abuse
    Finally, Senator Casey's legislation opens a door of understanding 
and invites serious discussion about who should be considered a 
perpetrator of child abuse.
    The legislation seeks to amend the definition of child abuse to 
include ``any deliberate act, on the part of an individual other than a 
parent or caretaker, that results in death, serious physical or 
emotional harm, or sexual abuse or exploitation, or that presents an 
imminent risk of serious harm to a child.''
    Like many States, under Pennsylvania law there are limitations on 
those persons who can be considered a ``perpetrator'' of child abuse. A 
parent, a paramour of a parent, an individual (over the age of 14) 
living in the same home as the child, or a person responsible for the 
welfare of a child can be considered a perpetrator.
    A baseball coach, member of the clergy, family member not living in 
the child's home are among those who might not be considered a 
perpetrator of child abuse under State law. I have had dozens of 
conversations in recent weeks with knowledgeable professionals, about 
which if any of the Penn State officials were mandated reporters and 
whether Mr. Sandusky is even covered by the law. We need to eliminate 
that kind of confusion. The Speak Up bill will make our laws more clear 
and help us get to the crimes we need to stop.
    In summary, we recommend:

    <bullet> Strengthen the mandatory reporting provisions in CAPTA, so 
that we protect the kids that really need us.
    <bullet> Proceed deliberately, informed by real data and supported 
by genuine resources, to define who should be considered a perpetrator 
of child abuse, how we differentiate cases and services, and how to 
expand the community's obligation to keep its kids safe.
    <bullet> Demand transparency and accountability through creation of 
the independent State-level Child Advocate or Ombudsperson, and get 
reliable data that measures not just numbers but outcomes.
    <bullet> Act with urgency to support services to victims, by 
increasing the availability of forensic interviewing and release of the 
Crime Victims Trust Funds.

    We are at a curious moment: the attention of the Nation is finally 
set upon child protection, as it should be. It seems attractive to be 
as protective of children as we possibly can be, yet it would be 
prudent to be aware of unintended consequences. We can be a healthier 
community tomorrow if the victims of yesterday and today get help. 
Sadly, some of today's victims will become abusers themselves, not to 
mention drinkers, angry family members, spouses who cannot trust, their 
harm eating away at their ability to be healthy and safe. We must get 
the message out to victims who have not yet disclosed: if you have been 
abused, tell someone . . . get help! Healing will come. We CAN change 
the story. Let's do it right.

    Senator Mikulski. Thank you very much.
    We are going to move on now to our questions. I am going to 
take my time at the end of the panel.
    I wanted to acknowledge the presence of two of our 
Republican colleagues, Senator Lamar Alexander and Senator 
Isakson. We would be happy to yield to you if you have to go.
    Senator Alexander. I have to go.
    Senator Mikulski. Alright. Well, I really want to 
acknowledge the roles of Senators Alexander and Isakson. 
Senator Alexander is a very valuable member of this community 
and committee as a former governor in Tennessee, the president 
of a university. He has firsthand knowledge in terms of how do 
you run States and universities to prevent this kind of stuff. 
So we want to thank him.
    Senator Isakson has a longstanding advocacy in this area, 
his work with Senator Boxer, that was noted, in their 
aggressive way. They stepped forward when we knew that our 
Peace Corps volunteers had been abused in countries, and then 
were abused by the Peace Corps for the failure to take action 
to protect them. Sounds familiar.
    We have a good panel here and one of the best is Senator 
Burr. Let me turn to you for your question, then Senator Casey, 
and then Senator Blumenthal, and then I will do the wrap up.
    Senator Burr. Thank you, Chairman.
    Sheldon, very quickly, I am just going to repeat something 
I heard you say, but I want to make sure I am right. If greater 
laws had been in place, that wouldn't have necessarily solved 
your problem would it?
    Mr. Kennedy. Not necessarily greater laws. I look at my 
situation, and I look at all the adults, all the trusted adults 
around that are in the system, and I look at the victims of 
this. And not only are they being victimized by the 
perpetrator, but they are being victimized by the institution, 
by the adults that are around them, the trusted adults because 
they, again, are reminded that it must be their fault if none 
of these adults are standing up for them.
    So what we have learned is that we need to give all adults 
the confidence and the courage through education to recognize 
and respond to these issues.
    Senator Burr. I think all of you touched on education to 
some degree. You were very specific on it.
    Mr. Cervone, my question is pretty simple. We have an 
opportunity as we begin to mold and shape legislation that we 
cast a wide net, where we try to cover potentially everybody, 
or we cast a narrow net, maybe targeted at individuals that 
have the contact with kids, where an intense education program, 
public knowledge of what we are doing might have an impact.
    If you recommended to this committee whether it be a wide 
net to initially start or a narrow net, what would it be?
    Mr. Cervone. Well, you do not even have to guess, 25 States 
are doing the wide net and we should be finding out from them 
how they are doing. We ought to be comparing these two types of 
approaches because we are all about this very confusing 
question. It seems facially attractive to cast a wide net. We 
know that there is a higher degree of reliability from reports 
that come from professionals who are involved with the work. So 
there is something, in a sense, attractive about both 
approaches.
    We are all wondering which is the right approach. Clearly, 
all of us ought to feel the duty to protect our kids. We all 
ought to be informed about how to respond. It is quite unclear 
to me whether the approach is the professionals should report, 
or every person should have this legal duty with some penalty. 
And I think it is a mistake to jump in, to try to answer that 
without asking of the data which is the right approach, which 
is working today?
    Senator Burr. Then let me just say to that, that I was 
specifically talking about where we focus the educational 
component, because I think all three of you said education is 
absolutely crucial.
    I said in my opening statement, I am not sure if there is a 
single piece of legislation that is a magic bullet that solves 
this problem, but education over a generation begins to effect 
change. And clearly we know statistically that many individuals 
that abuse children were, in fact, abused as children 
themselves. So it is a generational attempt that we make.
    Mr. Cervone. We do not now have a federally sponsored 
mandatory reporting framework. We do not have mandatory 
training for those of us who are in the business of caring for 
kids. So where do we approach it from a training perspective or 
education perspective? That targeted approach seems to be very 
compelling.
    We clearly need to inoculate the entire community. In the 
business, we call this primary prevention. You know, bus cards 
and the like, to inoculate the entire community.
    But there is clearly a frontline of folks who we want to be 
particularly well-trained and well-versed on the subject.
    Senator Burr. Ms. Collins, you were very emphatic in your 
recommendations that child sexual reports always go first to 
law enforcement. Have there been instances or issues where 
reports have been made first to places like Child Protective 
Services, and then not being immediately referred to the 
appropriate places?
    Ms. Collins. Across each State, they have different report 
up through the institutional report. CPS reports to law 
enforcement. When the discussion is going, revolving a 
sweeping, all adults are mandated reporters, and then when you 
are dealing, really, in approaching the various types of abuse, 
whether it be neglect, maltreatment, child physical abuse, 
emotional abuse, or sexual abuse. The sexual abuse component 
certainly is a crime in every single State that law enforcement 
would be able to respond, and certainly involve the appropriate 
child protection agencies.
    But we were really trying to narrow it down into one 
specific type of abuse that would, certainly, go to law 
enforcement.
    Senator Burr. Great, great. I thank the Chair.
    Senator Mikulski. Senator Casey, please proceed.
    Senator Casey. Thank you very much.
    I wanted to start with Mr. Cervone. Frank, I wanted to ask 
you about some of your testimony already. If you had the 
opportunity to enact a Federal law today that did three things, 
what are the most important three elements of that legislation 
in terms of what we can do to prevent this from happening 
again?
    Mr. Cervone. As I mentioned, I believe that it is 
essentially mandatory training, federally sponsored mandatory 
training for reporters of abuse, for those of us who 
classically are considered the mandated reporters is essential. 
That we do not yet have that Federal framework in many States, 
quite literally tens of thousands of folks who come into 
contact with kids are not aware of their obligation, and we 
ought to make that clear.
    I am a personal fan, and as you know, we have been working 
on the creation of children's ombudsmen in Pennsylvania that 
each State ought to have a mechanism whereby the person who 
feels like the system is not responding, the victim themselves, 
a caregiver, a professional might have an independent place to 
go. So that, in a sense, a bureaucracy does not victimize them 
as Senator Mikulski had suggested earlier.
    Third, there are services in the system that ought to be 
expanded. The Crime Victims Act collects money that provides 
victim services and Congress caps the release of those dollars. 
Those dollars ought to be released to the street to provide 
services.
    And service, so-called forensic interviewing services, you 
will hear from Miss Huizar later about CAC's and the expertise 
needed to do the investigations. Those services are almost 
nonexistent for physical abuse cases in many communities. We 
would like to see that changed. Let's do it right, as I said.
    Senator Casey. And you made the point in your testimony, I 
will try to get to it in a second, but you made a very strong 
point about the urgency of doing a study now. Could you please 
walk us through that proposal?
    Mr. Cervone. Yes, that is correct. All over the land, I can 
tell you--I have had conversations with legislators in a number 
of States and their staff, and with dozens of people in the 
General Assembly of Pennsylvania--legislators want to act. You 
want to respond. And yet, it would be, in a sense, unwise and 
imprudent to proceed without some information.
    This is an area in which we have knowledge, but we are not 
tapping it. We are not providing, we are not doing, we are not 
funding, we are not cracking the data. Yesterday, the National 
Child Abuse statistics came out. They suggest that child abuse 
is down, thankfully. What do we know about that? What is that 
telling us about the duty to report?
    It would appear that our reporting statutes are working, 
that we are getting at some of this, and I believe that our 
treatment is working. As I said, folks, abused kids grow up to 
be abusers themselves, sadly, for many of them. But if they get 
help, they turn that around. It appears that treatment is 
working. We ought not to turn away from that kind of approach, 
but we do not need to do it blindly. We can study this work and 
we ought to study it now.
    Senator Casey. We will be sending a letter to the 
Department of Health and Human Services to conduct that kind of 
an analysis of the 18 States that have a mandatory reporting 
for all adults to further inform us about how this requirement 
has worked to protect kids. So we can talk more with members of 
the committee about that.
    Finally, I wanted to ask if we have a brief second, I will 
get to two questions for other witnesses. But I did want to 
ask, as well, about this question of training.
    What is the best model for training in terms of not just 
the type of training, but the frequency or the degree to which 
even folks that have some expertise are trained? But even more 
so if they are not people that have personal experience or 
expertise. Can you outline for us what would be the model 
training program, and also the regimen under which it operates?
    Mr. Cervone. Yes. The first is, we should rely on the 
constructs we now have for licensure and certification so that 
we do not have to create a regulatory structure for every 
person in the world. There are tens of thousands of 
professionals who are required to engage in training to keep 
their license.
    If we recognize that part of their profession is to engage 
kids, then it seems to me a small step to say that, ``A 
requirement of your license is that you learn your 
responsibility to care for kids who come before you.'' So we 
should build it into the licensure and certification programs.
    Second, these training programs do not have to be 
expensive. I have been providing these kinds of training for 
years, and we gain a level of knowledge and retention with 
several hours of programming with them.
    Mr. Kennedy suggested we might use online programming. 
Obviously, this is the way that the world is going to make it 
more expansively available, and it makes sense that we use 
distance learning devices where we can.
    Last, the Pennsylvania Coalition Against Rape, I know that 
we are aware that the Commonwealth has a great program that 
focuses on the experiential side. It puts the story in the 
context of the lived experience of these professionals.
    So you have a child. She is in your classroom and she is 
acting out in this particular way. What might you ask of that 
situation? And you engage the professional in the kind of 
dialogue that teaches them to be analytical on their own.
    Senator Casey. Thanks very much.
    Senator Mikulski. I want to turn to Senator Franken, who 
has worked hard on this issue. But before that, Congresswoman 
Bass, I just want to acknowledge that you have been here all 
morning.
    Congresswoman Bass of California is a longstanding, 
aggressive advocate for children. We know that you have a 
parallel bill in the House. We wanted to note the fact that you 
have been here to listen to the testimony. I was going to 
acknowledge you, but I know you have to get to a vote, but we 
welcome your presence here today and working across the Dome 
with you.
    Congresswoman Bass. Thank you.
    Senator Mikulski. So thank you for advocacy, and your 
attendance today. Senator Blumenthal, excuse me, Senator 
Franken.

                      Statement of Senator Franken

    Senator Franken. Thank you, Madam Chair.
    Mr. Cervone, the title of this hearing is, ``Breaking the 
Silence in Child Abuse: Protection, Prevention, Intervention, 
and Deterrence,'' and I know we are talking about a piece of 
legislation on prevention and intervention.
    But you have mentioned a couple of times that a number of 
the abusers were victims themselves. And so I think that 
treatment is obviously, and you have mentioned treatment 
yourself a number of times, is one thing that we need to add to 
this.
    What percentage of abusers were abused themselves? Do we 
have any idea? Anybody?
    Mr. Cervone. We can certainly get that kind of information 
for you.
    Mr. Franken. OK. But I think that we really have to focus 
on treatment of these children who are abused. I think that is 
just vitally important because whether they become abusers or 
not, this is something that will stick with them for the rest 
of their lives unless they get treated. And I think they can go 
other places, as you mentioned. They can turn to drugs, they 
can turn to alcohol, they can become unhappy people who are not 
good parents, etc.
    Mr. Cervone. Our business is using a phrase ``whole child 
representation,'' that however the child comes to you, that you 
recognize that this is a whole package of a human being. And 
that we have to think holistically about what he or she needs.
    And so the child that comes and is going to testify, the 
case is not over that day. Really, in a way, it just began 
because after she is done, and if the abuse occurred and the 
abuser is convicted, now she gets on with her life, and part of 
getting on with her life is to get that healing. Sometimes it 
is hard for her to heal essentially before the trial.
    Senator Franken. Absolutely.
    Mr. Kennedy, you talked about 150,000 youth leaders being 
trained. There are a lot of people around this country who want 
to serve youth and become mentors and volunteers.
    When you have 150,000 of them, you have seen in these high 
profile cases that the numbers of people who are victimizing 
these children are people who have injected themselves into the 
roles of mentors, etc. And as a result we have, in the past, we 
had something called the PROTECT Act, which was authorized in 
2003 as a pilot program for nonprofit youth-serving 
organizations to obtain FBI background checks of potential 
mentors, volunteers, and employees. And I support that program.
    We have renewed it every year, usually by unanimous 
consent. This year it has been different. The program was 
allowed to expire. Do you agree, Mr. Cervone, that background 
checks are a good investment?
    Mr. Cervone. Shortly after that Act was passed, our office 
implemented background check protocol for all of our volunteer 
attorneys. All of the big volunteer programs the mentoring 
programs like Big Brothers, Big Sisters, and others are using 
it. It is absolutely a good investment. It is another of those 
thresholds that we should take advantage of.
    We are collecting this information. We have it out there. 
We should connect the dots.
    Senator Franken. Well this year, unfortunately, it was the 
first year that this has not been reauthorized. And don't you 
think we should do everything we can to equip youth-serving 
organizations with this important tool?
    Mr. Cervone. Absolutely, absolutely.
    Senator Franken. OK. Well, I would underscore that myself 
and this is something that, I think, we need to get done. I 
know that Senator Schumer has proposed a bill to make sure that 
that becomes permanent, and this is something that I am not 
sure has gotten as much attention as it should.
    Because in the past, if you used this service, you know 
that there is like a 6 percent kick out----
    Mr. Cervone. Right.
    Senator Franken. Of people who have the background checks, 
who have something where you are going to say, ``Well, we 
cannot have this person be a mentor, or be a youth advisor.'' 
And unless we are able, unless these organizations, these 
nonprofit organizations are able to use a service, we may not 
be able to have the mentors. We may not be able to do this and 
protect the kids at the same time.
    Mr. Kennedy. If I may, I totally agree with the background 
checks. I think sometimes they give an organization a false 
sense of security. I think that we rely too much on them. I 
think they are a piece.
    I do believe that we need to reach all the members, whether 
they be volunteer based or not, and give them the tools, 
because they may be the best Big Brother or Big Sister that we 
have. We are in a position of power, and we may have all our 
kids coming to us, and disclosing to us what might have 
happened to us because we are in that position.
    So we need to be able to educate ourselves so that, you 
know, what if we do have a disclosure? We need to know how to 
handle that. So I think they go hand-in-hand. Not only the 
background checks, but I think that that educating and 
empowering message at the front end has to happen, and it has 
to happen to every volunteer person out there that works with 
our youth.
    Senator Franken. So you would agree with me. These 
background checks are necessary, but not sufficient?
    Mr. Kennedy. Absolutely.
    Senator Franken. But they are necessary.
    Mr. Kennedy. Absolutely.
    Senator Franken. Thank you.
    Senator Mikulski. Before I go to Senator Blumenthal, 
Senator Franken.
    Senator Franken. Yes.
    Senator Mikulski. Was that bill that you just cited, did it 
have a sunset provision, or is it just not reauthorized?
    Senator Franken. This is the first year it was not 
reauthorized. Usually it is renewed every year, usually by 
unanimous consent.
    Senator Mikulski. Well, let's take a look at it, but again, 
I think if it is not unsettled, then it exists.
    Senator Franken. No, it is authorized every year, and this 
is a real problem. I have had people that run mentoring 
programs say that this has become a problem because they do not 
have the funding to do the background checks, and they have had 
it every year. It is not that much. It is like $20 per check.
    Mr. Cervone. Right.
    Senator Mikulski. But it is still a lot if you are a little 
group.
    Senator Franken. Yes, and it is actually essential, and as 
I say, usually it is renewed every year by unanimous consent, 
but this year. I am quite sure of that.
    Senator Mikulski. All right. Well, let's take a look at it.
    Senator Franken. And Senator Schumer has the bill too.
    Senator Mikulski. Hold your comments until I come to you.
    Senator Franken. Thank you.
    Senator Mikulski. OK, Senator Blumenthal. Senator 
Blumenthal comes to us also as an attorney general. Everybody 
comes to the table not only with their experience and involved 
in being a Senator, but with their background, and your 
insights are being very welcomed here.

                    Statement of Senator Blumenthal

    Senator Blumenthal. Thank you. Thank you, very much, Madam 
Chairwoman and I cannot thank you enough for having this 
hearing, which is not only timely, but to use Senator Casey's 
word ``urgent,'' given the magnitude and the severity of this 
problem in this country. And I come to it with the perspective 
of a law enforcer for 20 years in the State of Connecticut, but 
familiar with the law enforcement systems and criminal laws of 
other States.
    I want to particularly thank Senator Casey because he has 
focused on an area that is critical for law enforcement, which 
is the reporting. You cannot prosecute what you do not know. 
And often, as we have heard from this panel, and we know from 
our own experience, enormous courage and fortitude is required 
for reporting, and training, and services. But I want to focus 
on that law enforcement aspect, because the reporting is 
certainly a lot less meaningful unless there is effective law 
enforcement; that is, punishment or at least a law enforcement 
response of some kind commensurate with the severity and really 
immorality of the crime and it is a crime in most States.
    Miss Collins, do you think that the law enforcement systems 
of most States are really adequately supported financially and 
otherwise to do the job that is required here?
    Ms. Collins. When we are looking at the numbers, the fact 
that not all of these obvious types of crimes are being 
reported, law enforcement is basically swimming in reports 
regarding child sexual exploitation, many of them being 
Internet-related and certainly many of them not.
    Cooperation has been key and most States, by having law 
enforcement officers who are working specifically with child 
abuse--child physical abuse, child sexual abuse--working in 
multidisciplinary teams. If they have a child advocacy center 
in their region to really draw upon law enforcement, medical, 
and the child services to work together, given the short 
resources that are out there, to try to do everything they 
possibly can with the goal of helping the victim, and certainly 
bring forth a successful prosecution. But with resources being 
what they are, law enforcement certainly needs everything they 
can get.
    Senator Blumenthal. So you would agree, I think, that the 
Child Abuse Prevention and Treatment Act, known as CAPTA, 
really should provide more support to State and local law 
enforcement in that regard.
    Ms. Collins. Certainly, and training also, in order to 
respond to these types of crimes.
    Senator Blumenthal. And I am struck by the fact that many 
of these offenses of child abuse really occur across State 
lines. And the difficulty of law enforcement is amplified by 
the fact, for example, that a father in Virginia may be abusing 
a child from a mother who is living in Connecticut. And that 
occurrence, by the way, is not expected of one. Someone met 
with me, literally, this morning about such allegations and 
maybe it is time we have stronger Federal criminal laws like we 
adopted in the wake of the Lindbergh kidnapping and killing 
that applies specifically to kidnapping, crimes across State 
laws. Maybe it is time that kind of law applied to child abuse 
as well, criminalizing it federally, in some respect, to 
provide greater support for law enforcement. Would you agree?
    Ms. Collins. Certainly. On a State and local level, the 
Internet Crimes Against Children Task forces are 61 primary 
task forces of law enforcement that respond to exclusively, 
well, I guess not exclusively, but primarily to Internet 
facilitated crimes against children. With the Internet, of 
course, being just one subset of the tool that could be used in 
the exploitation of children.
    But to your point, Senator, it also can help facilitate 
individuals across State lines who have similar interests in 
sexually abusing a child and facilitating that. There has been 
great cooperation between the Federal law enforcement, the FBI, 
ICE, U.S. Postal Inspection Service to work with these ICAC 
task forces recognizing that depending upon the type of crime, 
the jurisdiction may be more appropriate on the Federal level 
than on the State level. And certainly, room for improvement 
exists.
    Senator Blumenthal. And do you think that the Internet 
and--I think I know the answer to this question because as 
Attorney General, I worked with NCMEC on Internet, child abuse, 
and cyber stalking, and so forth--presents a growing threat to 
children?
    Ms. Collins. It certainly does. The Internet, the more 
children that are online, the more children who have cameras in 
their cell phones, the more individuals who are going online. 
Broadband is certainly giving a great opportunity to many 
people within the United States to have access. But the more 
people online and the more technology tools that are developed, 
certainly there are risks along with great opportunity.
    Senator Blumenthal. I really want to thank this panel for 
its testimony. Thank you, Madam Chairwoman. I hope that we will 
have an opportunity to continue to work together in developing 
support, not only for Senator Casey's proposal, but for other 
kinds of better protection, focusing on deterrence, which is 
one of the subjects here.
    I am also told, Madam Chairwoman, that the PROTECT Act of 
2003 was a pilot program, and it was not brought up for a vote 
this year, which resulted in its expiration. And so, I think it 
was not sun-setted so much as just being a pilot program. And 
so, I think Senator Franken's suggestion and your support is 
very well taken.
    Senator Mikulski. Sure. Let's work together, even if it 
means going across committee lines, and see if we just cannot 
get that aspect done.
    Senator Franken. We are both on judiciary, so.
    Senator Blumenthal. We can work on it.
    Senator Franken. Yes, thank you.
    Senator Mikulski. Miss Collins, first of all, we want to 
thank the Center for Missing and Exploited Children for 
whatever they do.
    Ms. Collins. Thank you.
    Senator Mikulski. That Center was created because Congress 
acted after little Adam Walsh was kidnapped. His father was a 
fierce and unrelenting advocate, and wanted to take his own 
anguish and rage about what happened to his little boy, and do 
something about it. And we started kind of advertising on milk 
cartons about missing children.
    Now we are grown up and it provides a lot of information, 
so let me go to the information. First of all, the Adam Walsh 
incident was the so-called ``danger from a stranger.''
    Ms. Collins. That is right.
    Senator Mikulski. Of the number of children who are 
physically or sexually abused, what percentage of that comes 
from the stranger danger?
    Ms. Collins. That is an excellent question and I think that 
the number would be difficult to put your finger on because we 
do not know how many incidents are not being reported.
    Senator Mikulski. But from those that are, tell us what you 
know.
    Ms. Collins. I actually would have to look that up, and get 
that to your staff, and get that to you later.
    [The information referred to follows:]

          ``According to a survey conducted by the Department 
        of Justice, of the incidents of child sexual abuse that 
        are reported to law enforcement, approximately 34 
        percent of the victims under age 18 were assaulted by a 
        family member; 58 percent were assaulted by an 
        acquaintance; and 7 percent were assaulted by a 
        stranger. This does not include incidents of non-sexual 
        physical abuse.
          The Department of Health and Human Services compiles 
        data regarding allegations of child abuse that are 
        investigated by child welfare agencies. Because this 
        data is collected pursuant to CAPTA, it comprises only 
        those reports involving caretaker abuse as defined by 
        that statute--while this includes physical and sexual 
        abuse it doesn't include incidents involving strangers. 
        However, it is important to recognize the difficulty in 
        defining these relationships: many child victims have 
        ongoing relationships with coaches, teachers and the 
        like, who are not family members but who are also not 
        strangers. This is what offers them a unique 
        opportunity to abuse these children.''

    Senator Mikulski. Well, watching all the shows on cable 
about this, they said 10 percent.
    Ms. Collins. OK.
    Senator Mikulski. But let's get the validation.
    Ms. Collins. Certainly.
    Senator Mikulski. The other, then, goes to this whole issue 
of, and we have discussed in a very poignant way, why don't we 
come forward? Well, it is fear. They are sometimes tied to 
their abuser in some way, a stepfather. And it is just not like 
reporting a crime like, you know, ``I've been mugged.'' Or, 
``My pocket's been picked.'' They know it is going to cause a 
big stir and disruption.
    So it is hard for a child. But when a child then is able to 
do that, and then perhaps, Mr. Kennedy, you could comment on 
this as well. The data that I have heard, and tell me if it is 
so, is that a child often attempts to tell somewhere between 7 
and 10 adults before they are heard and taken seriously. Do you 
have data on that? Miss Collins.
    Ms. Collins. I am very sorry. In terms of the children who 
are not disclosing for many of the reasons that you are saying, 
not believing, certainly that they are going to be believed. In 
other cases, it is the fact that the abuse and the grooming has 
been so subtle, that the child does not necessarily know at 
that point that this was wrong, or that there was somebody who 
is going to listen.
    Senator Mikulski. But when they have actually had an act 
perpetrated upon them, and then desperation, fear, all that. 
Finally, because usually it is not one incident where they will 
go tell an adult, they are often confused about what happened 
to them, and hurt, and ashamed, but then after repeated 
behavior usually from the same predator. Let's use the term 
``predator'' here. It is stalking, predatory activity.
    Then the child gets it together and comes forward, and 
people react in a way that is not helpful to the child. Do we 
have data on that?
    Ms. Collins. I do not have data regarding the number of 
children who come forward, disclose, and are not believed. We 
do know, though, from the Department of Justice study that only 
one-third of children or individuals who indicate that they 
were sexually abused actually reported it.
    Senator Mikulski. Mr. Kennedy, do you have thoughts on that 
because, you see, if we are going to go to mandatory reporting, 
if you see something, say something. If you know of something, 
do something which is kind of the policy position I would like 
to take, but I am just trying to get an on-the-ground reality.
    Mr. Kennedy. Alright. Well, I think that we brought that 
stat in. We can forward that on to your colleagues.
    I think that the kids are telling. There is lots of 
education that is in the schools about bullying, about abuse, 
etc. The kids understand these issues a lot more than we do as 
adults. We have never been given the tools to recognize this 
stuff, but yet when it comes right down to it, we are all 
expected to do the right thing.
    How can we expect our adults in positions of power to 
understand what sexual abuse is? I mean if we went around this 
room and we walked down the streets in Washington, or Penn 
State, we ask the adults that are in the leadership positions, 
``Can you give me the definition of abuse, bullying, and 
harassment and your legal responsibilities around it?'' The 
odds of getting the right answer are not very good. But yet we 
are expecting them to report it.
    So that is why we say that mass education, we have to give 
people the tools so they can report it. These issues carry 
fear, so if we can eliminate that fear and give people 
confidence to act on their gut feeling, we are going to get a 
lot more of these parents, and these coaches, and these 
leaders, and these teachers reporting and listening to our 
kids. Our kids are telling; we are not acting.
    Senator Mikulski. Well, Mr. Kennedy, that then takes me to 
my next question, sir, for your recommendations. Repeatedly, 
the answer as you have said, we need the tools. Hey, I am for 
that. What would those tools be?
    Because consistently, each one of you have talked about 
training and education; two different things, education and 
training. Tell us these tools that you feel so passionate would 
have a big impact.
    Mr. Kennedy. Well, what has worked for us is that the first 
time we started trying to do this, is we started education and 
trying to catch the bad guy. Everybody get their back up 
against the wall, and we are going to figure out who is the 
pedophile or perpetrator in here. It did not work so well.
    What we have learned, when we go into youth-serving 
organizations, all volunteers, every adult that is within 
whether it be schools, the whole national youth football 
association, and so forth. It is no different whether you are a 
college coach or if you are a little league coach. The reality 
is, is you have power over the players.
    Senator Mikulski. What are the tools?
    Mr. Kennedy. What we do is give them broad-based education 
on all sexual abuse, bullying, harassment education, believing 
that they are a good person in a position of power, and we need 
to give them tools to recognize them, and to act on them.
    And when we go into an organization, it is mandatory. First 
and foremost, is we have to create a standard within an 
organization that if you want to be a part of our organization, 
you need to take this program, period. And so forth. We 
database the whole thing, so we know if that individual has 
taken the program. So it really becomes a risk and liability 
tool for the organization on the backbend.
    We are saying that because we are out there, we are 
creating posters. We are creating policies. We are creating 
procedures around all of these issues within all of these 
organizations, and that it stops there.
    Our goal is to deliver on the posters. We are all promoting 
fun, safe. We are going to take care of Johnny. We are going to 
take care of Julie. But the reality is, if you walked around 
those schools and we asked our teachers, ``Can you give me the 
definition of abuse, bullying and harassment and what you need 
to look out for to help these kids that all these parents trust 
you with?'' The odds of getting the answer are not very good.
    Mr. Cervone. Senator, there are reporting tools. There are 
investigative tools. There are treatment tools. As a 
profession, as a discipline, we have skills in each of these 
areas. This community of child-serving professionals knows how 
to do this. We know how to investigate cases, but we are not 
staffing. We are not providing sufficient resources to do it 
right.
    We know how to treat trauma, but across the land, we are 
only beginning to make inroads in getting treatment to be 
trauma-based. And at the front end with reporting, we have 
talked a lot today that the professionals who come in contact 
with kids need to know about it. They need to know what the 
pathway is. We have to make those pathways work. We need to 
give the systems capacity to do it.
    Our hotline in Pennsylvania drops, on average, 9 percent of 
its calls. So as a colleague recently said, ``If you are one of 
the 1 in 10 who calls and makes the report, and your call gets 
dropped, how are you feeling?'' Are you feeling unprotected? 
But, we know how to do this.
    Senator Mikulski. Well, my own time has expired and we want 
to move to panel two. This has been a very, very excellent 
panel. I want to thank each and every one of you for your 
experience, your expertise. Now as you hear us, if you want to 
submit additional recommendations or fine tune and amplify what 
you have said in your testimony, we really will welcome it. And 
we will welcome that from you.
    Mr. Cervone. Thank you.
    Senator Mikulski. So this panel is excused, and we are 
going to move to panel two. Thanks so much.
    We are now going to turn to Erin Sullivan Sutton, the 
Assistant Commissioner for Children and Families from 
Minnesota, who Senator Franken will introduce.
    Dr. Block, the President of the American Academy of 
Pediatrics. And Teresa Huizar, the Executive Director of the 
National Children's Alliance, an excellent advocacy 
organization.
    Senator Franken, do you want to introduce Erin?
    Senator Franken. Yes. Thank you, Madam Chair and thank you, 
Madam Chair, for your leadership for holding this hearing on 
this very important issue.
    It is my pleasure to introduce Erin Sullivan Sutton, the 
Assistant Commissioner for Children and Families at the 
Minnesota Department of Human Services.
    As an attorney, social worker, and instructor, Ms. Sutton 
has dedicated her career to public service. In her position, 
she is responsible for developing policies and administering 
programs that promote child safety. She previously served as 
Minnesota's Director of Child Safety and Permanency where she 
oversaw adoption, foster care, and other children's services. 
She also serves on the executive committee for the National 
Association of Child Welfare Administrators, and is a past 
president of that organization.
    In all, Assistant Commissioner Sutton has spent nearly 30 
years in the child welfare field, and has spent more than 20 
years with the Minnesota Department of Human Services.
    Miss Sutton, thank you for your service and for all that 
you do to keep Minnesota's children safe. I look forward to 
hearing your testimony.
    Thank you, Madam Chair.
    Senator Mikulski. We also want to welcome Dr. Robert Block, 
the current President of the American Academy of Pediatrics, a 
respected organization of 60,000 pediatricians committed to 
improving children's health.
    In addition to his own talent in pediatrics, he has an 
additional specialty in being a child abuse pediatrician. A 
very unique one, board certified in this unique subspecialty.
    And we thought it would help to get a clinical perspective, 
and then from essentially the doctor either in the ER or the 
doctor in the examining room who sometimes first hears the 
story. We could benefit from their experience both in 
prevention, and intervention, and protection, and then also 
perhaps in some of these treatment things that have come up. We 
are so glad to have you.
    And then we want to recognize Teresa Huizar. How do you----
    Ms. Huizar. Huizar.
    Senator Mikulski. Huizar, who is the executive director of 
the National Children's Alliance, which is the accrediting body 
for 700 child advocacy centers. Remember this is where it gives 
child abuse victims comprehensive service from forensic 
interviews, which is different than a medical interview. But it 
does give medical evaluations and mental health treatment. 
These centers coordinate with law enforcement, social service, 
and the courts.
    She comes with a great deal of experience from running two 
of these centers, and is an internationally recognized expert. 
We really think it is great that you could come here, and we 
look forward to your testimony, and we look forward to really 
good advice and recommendations as you hear this hearing 
unfold. Work with us so that we can not, at the end of the day, 
not just feel good that we have listened, but that we do good 
with what we have heard.
    Ms. Sutton, why don't you start, we go to Dr. Block, and 
down.

STATEMENT OF ERIN SULLIVAN SUTTON, J.D., ASSISTANT COMMISSIONER 
FOR CHILDREN AND FAMILY SERVICES, MINNESOTA DEPARTMENT OF HUMAN 
                     SERVICES, ST. PAUL, MN

    Ms. Sutton. Good morning, Chairperson Mikulski, Ranking 
Member Burr, Senator Franken, and members of the subcommittee. 
I am Erin Sullivan Sutton. As was mentioned, I am assistant 
commissioner of Children and Family Services at the Minnesota 
Department of Human Services.
    I am here today representing the American Public Human 
Services Association and its affiliate, the National 
Association of Public Child Welfare Administrators, as well as 
the State of Minnesota.
    We have learned a lot about preventing child abuse neglect 
over the years and what interventions result in positive 
outcomes for children and their families. With your help, we 
can be even better. I am going to spend some time this morning 
talking about some of the work that we have done in Minnesota, 
and the work that we have done to recognize the continuum of 
situations reported to State child protection systems.
    We talked a lot this morning about a crime committed 
against children that comes to the attention of child 
protective services and law enforcement. But we also have 
thousands and thousands of families who are struggling to 
provide adequate care for the children that we have recognized 
we need to have a different response system to help them safely 
care for the children.
    Our recommendations involve three areas: integration of 
services, mandatory reporting requirements, and child welfare 
finance reform.
    The conditions that led to the development of the original 
CAPTA legislation in 1974 have changed significantly over the 
intervening years. The reality of parents or others harming 
children were under recognized 40 years ago. Public systems of 
intervention were not prepared to respond.
    Since then, through your work and the work of States and 
local communities, there have been sustained efforts to educate 
the public and to develop a child protection infrastructure to 
respond quickly to reports of child abuse and neglect.
    And one of the issues that we must address is the capacity 
of States to respond to all of the reports coming to our 
attention, and responding in a way that works for children and 
their families.
    Although CAPTA is the single funding source designed to 
address maltreatment of children, it offers very limited 
support to States to fully carry out our requirement, and does 
not adequately account for the expenditures related to these 
requirements.
    For example in Minnesota, our basic CAPTA received $445,000 
to help us develop an infrastructure for child protection. We 
very much appreciate that, however I think it is important to 
recognize that our State uses approximately $28 million simply 
to conduct assessments of reports of maltreatment.
    In addition to assessments, it is absolutely imperative 
that we have the capacity to provide other services to children 
and their parents, to keep children safe and well cared for. 
Because the total distribution of funds is extremely limited, 
public child welfare agencies often tap into other Federal 
funding sources, State funding, and local resources to provide 
the care in somewhat of a patchwork manner.
    Ninety percent of all Federal funds are used in child 
welfare for foster care or adoption assistance. The remaining 
10 percent support prevention programs. The imbalance in our 
funding structure indicates the need for a stronger Federal 
role in providing adequate resources for preventing and 
treating child abuse neglect.
    In Minnesota over the years in the past decade, we have 
learned that by investing resources earlier and in more 
flexible ways to meet individual needs of families, we were 
able to keep children safer sooner, reduce repeat maltreatment, 
and reduce the need for out of home care.
    Over the past decade, Minnesota has made significant 
changes in how we address child maltreatment. The majority of 
our reports in Minnesota are driven by poverty, mostly child 
maltreatment involving child neglect. And we have learned that 
those situations are more responsive to resources and services 
that help families address basic needs, and provide counseling, 
education, and connections to community support, rather than 
adversarial approaches to families.
    We do need aggressive law enforcement interventions in 
situations involving substantial child endangerment and 
horrific crimes including sexual abuse against children. 
However, we also know that we need prevention and intervention 
efforts in Minnesota that focus on respectful engagement of 
families that are focused on keeping children safely with their 
families whenever possible. Minnesota has been a leader in the 
development of differential response.
    We retain a forensic investigation for reports alleging 
substantial child endangerment, but now in Minnesota, more than 
70 percent of our child maltreatment reports receive an 
alternative family assessment. This approach sets aside the 
investigative fault finding activity and it focuses on insuring 
child safety by engaging the family in the services and 
resources they need to keep the children safe. There are 
structured assessments of safety risks and strengths and these 
are conducted with families in partnership, and those 
assessments form the basis of service delivery and planning.
    A random clinical trial in Minnesota followed outcomes for 
a period of 5 years from 2000 to 2005. And using this approach, 
we were able to demonstrate that children who were made safer 
sooner by quickly engaging parents in constructive 
conversations involving child safety. It resulted in lower 
child maltreatment reporting rates and decreased the need for 
out-of-home placement, which was one outcome we did not expect 
to see.
    We also saw that both families and child welfare workers 
identified this approach as creating greater cooperation and 
greater satisfaction. And we also learned that this approach to 
family assessment services was much more costly in the long 
run.
    Minnesota has used that experience to employ further 
strength-based family collaborative approaches in the 
subsequent years. From 2006 to 2010 by introducing a number of 
programs, we have seen a 10 percent reduction in child 
maltreatment reports in Minnesota as well as a 24 percent 
reduction in the number of children reporting out of home 
placement. I also should mention, in those communities where we 
have both early intervention services as well as the family 
assessment services, we have seen a significant reduction in 
the need for the reports coming in the first instance.
    To assure greater well-being for children, Federal and 
State laws should invest in a variety of prevention and early 
intervention activities to support safe and stable families. 
Early intervention programs by child protection agencies for 
family engagement have proven to be very effective.
    For example, Minnesota's parent support pilot program is a 
project that engages families and provides services for parents 
needing support before there is a need for child protection 
investigation. Families are identified as being at-risk and 
reported to the agency, but on that given day are not yet 
meeting the criteria of maltreatment. If we intervene and 
engage with those families, they avail themselves of services, 
and again, we have made a difference, and have been able to 
prevent maltreatment from occurring.
    Our recommendations is, any improvements to CAPTA should be 
aligned with reform efforts in both Federal and State law to 
use a holistic approach that cuts across historical barriers 
such as departments, congressional committees, or jurisdictions 
to provide an effective, efficient service array that focuses 
on positive outcomes as well as accountability.
    I mentioned earlier the need for finance reform, and the 
imbalance of Federal funding for States to provide child 
welfare services. You have asked for APHSA's recommendations on 
how to better protect, prevent, and intervene to deter child 
abuse moving forward.
    It is critical that Congress and States work together to 
keep kids safer sooner, particularly when we know who many of 
these at-risk kids are, and we see them daily in our community. 
In order to do this, States need flexibility to use Federal 
funds in the manner that best meets the individual needs of 
families coming to our attention. Financing should promote 
flexibility while maintaining an appropriate framework for 
accountability. We need to be accountable for the work that we 
are doing.
    Because maltreatment has many causes, the continuance of 
child welfare services needs to include a broad range of 
community-based interagency programs that support the families, 
that provide treatment for children, and promotes the general 
well-being of children who come to our attention. And most 
importantly, we need to prevent the incidence of maltreatment 
as well as maltreatment and improve the conditions that lead to 
families being involved in the child welfare system.
    We would encourage you as you are looking at changes to 
CAPTA, to also look at Federal finance reform, particularly how 
Federal Title IV-E sponsored care funds are used that are very 
limited and based on income eligibility standards prepared from 
1996. Also, we would encourage you to maintain or increase 
current levels. I am aware that CAPTA is not exempt from the 
sequestration under the Budget Control Act and I am also aware 
of the pressure on Congress to reduce funding.
    It is of paramount concern, however, that this committee do 
all that you can do to help ensure that a sequestration 
occurred that programs such as CAPTA are not reduced to a level 
where we can no longer adequately serve the most vulnerable 
children. Children at risk deserve better than to be placed in 
harm's way by reduction in funding. And these very limited 
resources are critical to our capacity to serve families.
    Thank you.
    [The prepared statement of Ms. Sutton follows:]
            Prepared Statement of Erin Sullivan Sutton, J.D.
                              introduction
    Good morning Chairperson Mikulski and Ranking Member Burr, and 
members of the subcommittee. I am Erin Sullivan Sutton, assistant 
commissioner of Children and Family Services for Child Safety and 
Permanency, Child Support Enforcement, Community Partnerships and Child 
Care Services, Management Operations, Transitional Support Quality 
Services, Office of Enterprise Technology--Transition Support Systems 
and Transition to Economic Stability. I have worked in the field of 
child welfare for 28 years. My testimony today will focus on child 
protection services including child maltreatment prevention and 
intervention, and approaches to securing child safety.
    I am here today representing the American Public Human Services 
Association (APHSA), and its affiliate, the National Association of 
Public Child Welfare Administrators (NAPCWA) as well as the State of 
Minnesota. I serve on the NAPCWA executive committee and am a past 
president of the organization.
    On behalf of all child welfare directors, I would like to thank the 
subcommittee for your interest in the Child Abuse Prevention and 
Treatment Act, also known as CAPTA, which States have used to support 
the delivery of services for children who come to the attention of 
child welfare due to allegations of abuse and neglect or who are at 
risk of abuse or neglect. Minnesota has used CAPTA dollars to fund and 
establish innovative initiatives to support families and keep children 
safe from maltreatment. We appreciate your efforts to hold this hearing 
to bring about greater awareness of this critical issue and your desire 
to examine better ways to improve the child protection system's 
capacity to identify, intervene, and protect at-risk children as well 
as to prevent child maltreatment from ever occurring.
    Our recommendations involve three critical areas: integration of 
services, expanded mandatory reporting requirements, and child welfare 
finance reform. Each of our recommendations--which I will discuss in 
more detail--is designed to make the child welfare program more 
efficient and to give States greater flexibility to determine what 
works best for the families and children they serve.
    States can become more responsive to the needs of at-risk children, 
families, and other community needs by building upon the interagency 
coordination provisions of the 2010 CAPTA reauthorization. By providing 
for a fully integrated system, States can provide a holistic approach 
that cuts across historical barriers to provide an effective, 
efficient, and outcomes-focused service delivery system for children 
and families. In addition, finance reforms that give States the ability 
to prioritize prevention and expand populations of children served are 
needed.
    APHSA believes that the Federal Government must help defray the 
cost of any additional assurances built into CAPTA. Recommendations 
that universal mandatory reporting requirements be included in CAPTA as 
an assurance should be accompanied by additional funding to offset the 
cost of training and public awareness campaigns.
    Finally, APHSA is concerned with CAPTA's future funding levels. In 
particular, the promise of sequestration, as required by the Budget 
Control Act, threatens the long-term viability of the CAPTA program. 
CAPTA funding needs to be sufficient to ensure that the program's core 
mission is met.
CAPTA and Its Impact
    Child maltreatment has a profound impact on our Nation's children, 
families, and social environments and is of particular concern for 
public child welfare. Public child welfare agencies work to reduce 
child abuse and neglect by supporting and responding to families either 
not known to the system (primary prevention); families known, but with 
no open case (early intervention/secondary prevention) and families 
already part of the system (intervention). Child welfare is responsible 
for responding to abuse committed by a family member, caretaker, or 
someone living with the child. Law enforcement is responsible any time 
a child is abused and a crime is committed. Children at risk of 
maltreatment are often from families where the parents or caregiver(s) 
have multiple personal, emotional, and interpersonal stressors that 
interfere with healthy parenting. These stressors include: a history of 
childhood trauma, mental health issues, poverty, domestic violence, 
inaccurate knowledge about child development, social isolation, and the 
absence of appropriate social support networks.\1\
---------------------------------------------------------------------------
    \1\ Goldman, J., Salus, M.K., Wolcott, D., & Kennedy, K.Y. (2003). 
A coordinated response to child abuse and neglect: The foundation for 
practice. DC: U.S. Department of Health and Human Services, 
Administration for Children and Families, Office of Child Abuse and 
Neglect.
---------------------------------------------------------------------------
    The conditions that led to the development of the original CAPTA 
legislation in 1974 have changed significantly over the intervening 
years. Forty years ago the reality of parents harming children was 
under-recognized by the public and systems of intervention were not 
always prepared to respond. Since then there have been sustained 
efforts to educate the public and develop a child protection 
infrastructure to respond quickly to reports of child maltreatment. In 
most instances, both mandated reporters and the general public 
diligently report suspected child maltreatment. Child physical and 
sexual abuse within the family is responded to with a forensic 
investigation coordinated between law enforcement and child protection. 
Child maltreatment in licensed facilities is investigated by the 
licensing agent (generally a State's department of health, education, 
human services, or corrections) and law enforcement addresses crimes 
against children occurring outside the family unit.
    According to the 2009 National Child Abuse and Neglect Data Systems 
(NCANDS) report, in 2009 the child protection system received 3.3 
million referrals alleging the maltreatment of approximately 6 million 
children. Of these referrals 61.9 percent were screened and 
approximately 25 percent were substantiated. Even when alleged 
maltreatment is not substantiated, many families are exposed to child 
maltreatment risks that, left unresolved, are likely to result in child 
maltreatment.
    Expanded public understanding of child physical and sexual abuse, 
coupled with aggressive intervention, has reduced the number of 
incidents of child maltreatment. The recent Fourth National Incidence 
Study (NIS) of Child Abuse and Neglect issued by the U.S. Department of 
Health and Human Services found that both physical abuse and sexual 
abuse have decreased significantly over the past 20 years. Together 
physical, sexual, and emotional abuse have decreased by 26 percent 
between 1993 and 2005 and sexual abuse alone by 38 percent during the 
same time period.
    Although CAPTA is the single Federal funding source designed to 
address maltreatment of children, it offers limited support to States 
to fully carry out its requirements and does not adequately account for 
the expenditures related to these requirements. For example, 
Minnesota's State allocation for a CAPTA State Grant is $445,000 
annually, yet our State uses approximately $28 million for assessment 
and investigation of reports of alleged maltreatment--expenses paid by 
local property tax dollars and limited general fund revenue. In 
addition to assessment, child welfare systems must provide other 
services to children and their parents to keep children safe and well 
cared for.
    Because the total distribution of these funds is extremely limited 
for each State, public child welfare agencies often tap into other 
Federal funding streams such as the Temporary Assistance for Needy 
Families program, Social Services Block Grant, the Stephanie Tubbs 
Jones Child Welfare Services Program, and other State and local funds 
that serve families. Federal resources for prevention are scarce and 
mainly support children placed in out-of-home settings such as foster 
care and adoption. Ninety percent of all Federal dollars are used for 
foster care; only the remaining 10 percent supports prevention 
programs. This imbalance indicates the need for a stronger Federal role 
in providing adequate resources for preventing and treating child abuse 
and neglect. In Minnesota, we have learned that by investing resources 
earlier and in more flexible ways to meet the individual need of 
families, we are able to keep children safer sooner, reduce repeat 
maltreatment, and reduce the need for out-of-home care.
                 child protective services in minnesota
    Over the past decade Minnesota has made significant changes in how 
we address child maltreatment. Driven by poverty, most child 
maltreatment, especially child neglect, is more responsive to resources 
and services that address basic needs and that provide counseling, 
education, and connections to community supports than to adversarial 
investigative practices. We also acknowledge that most families 
reported to the child protection system are struggling but are not 
found to be abusive or neglectful. Aggressive law enforcement efforts 
are not needed for these families and are often counter-productive and 
mismatched to the family's needs. Whenever possible, child maltreatment 
prevention and intervention efforts in Minnesota focus on respectful 
engagement of families concerning child and family safety and well-
being. Our practice model recognizes that most parents want to keep 
their children safe and that families are best served by interventions 
that identify and support parent protective capacities such as parental 
residence, concrete supports, and social and emotional competence.
    Minnesota has been a leader in the development of a differential 
response to child maltreatment. While retaining forensic investigation 
for reports alleging substantial child endangerment, more than 70 
percent of Minnesota child maltreatment reports receive an alternative 
assessment called the Family Assessment Response (FAR). This approach 
sets aside the investigative fault-finding activity and focuses on 
ensuring child safety by engaging the family in the services and 
resources they need to keep their children safe. Structured assessments 
of safety, risk, strengths, and needs are conducted with families and 
inform service planning and delivery.
    A random clinical field trial following outcomes from 2000-2005 
revealed that this approach made children safer sooner by quickly 
engaging parents, resulting in lower child maltreatment re-reporting 
and decreased need for out-of-home placements. Both families and child 
protection workers identified this approach as creating greater 
cooperation between families and child protection agencies and greater 
satisfaction in services and outcomes. Although requiring more funding 
initially, FAR was 35 percent less costly over the 5-year longitudinal 
study.
    Minnesota has extensively employed other strength-based family 
collaborative interventions including engaging extended family in child 
safety and permanency decisions (via Family Group DecisionMaking), 
early intervention with at-risk families (via a Parent Support Outreach 
Program), and use of family and community safety teams assisting 
families to ensure child safety within their own homes (via Signs of 
Safety). From 2006-10, introducing these programs has led to a 10 
percent reduction in child maltreatment reports in Minnesota as well as 
a 24 percent reduction in the number of children requiring out-of-home 
placement.
                            recommendations
Integrated Services
    To assure greater well-being for children, Federal and State laws 
invest in a variety of prevention and early intervention activities 
that support safe and stable families, including in-home training for 
new parents; parent support groups; access to after-school programs; 
interventions for distressed families; and youth mentoring and supports 
to successful adulthood. Child welfare services also provide child 
support services such as timely receipt of court-ordered payments and 
parent engagement activities. Child welfare links to the juvenile 
justice, mental health, and education systems assure interdisciplinary 
efforts toward permanency, including cross-cutting initiatives to 
divert youth from the justice system and secure their successful 
transition to independent adulthood. And when necessary to support 
children's long-term health and stability, our agencies also arrange 
foster and adoptive home placements.
    The 2010 reauthorization of CAPTA included language ``supporting 
and enhancing interagency collaboration among public health agencies, 
agencies in the child protective service system, and agencies carrying 
out private community-based programs.'' The degrees to which States 
have been able to take advantage of this directive vary. For many 
States, the current system of child welfare services are defined by a 
series of Federal programs, under the jurisdiction of different 
congressional committees, administered by different Federal agencies, 
each with their unique administrative protocols. This situation results 
in a siloed organizational structure where public agencies are 
challenged to coordinate services, reduce redundancy where it may 
exist, and close service gaps. It is a system where administrative 
needs, accountability over how funds are used, and competition over 
which programs deserve funding take priority over outcomes. It is a 
system that has been required to give more importance to outputs than 
outcomes. Public health and human service agencies have the expertise 
and knowledge to accomplish the work that must be done--work that could 
move us to a new level of wise investment and positive results--if we 
begin focusing on positive outcomes for children and families.
    Many intervention strategies used by child protection agencies for 
family engagement and delivery of services have proven to be effective. 
For example, Minnesota's Parent Support Program is a pilot project that 
engages families and provides services for parents needing support and 
education to prevent child abuse and neglect; these activities take 
place prior to a report or investigation. These services are often 
directed toward helping families meet their basic needs, for example, 
getting access to health care services, transportation, or job training 
and placement. According to the Institute of Applied Research, 
Minnesota's Parent Support Program evaluation shows that family 
intervention/engagement practices are proven to be effective during the 
prevention or early intervention stage. Consequently, many States are 
using similar models to promote effective prevention strategies in 
their child welfare programs. Expanding the language in CAPTA to 
include other prevention models will support congressional intent for 
States to ``develop, operate, expand, enhance and coordinate 
initiatives, programs, and activities to prevent abuse and neglect and 
support coordination of resources and activities to better strengthen 
and support families,'' hence reducing the likelihood of child abuse 
and neglect.
            Recommendations
    Improvements in CAPTA should be aligned with reform efforts in both 
Federal and State governments to use a wide array of resources 
available to promote child safety. A more holistic approach that cuts 
across historical barriers such as department jurisdictions or 
congressional committee jurisdictions is required to provide an 
effective, efficient, and outcomes-focused service delivery system for 
children and families.
Finance Reform
    The subcommittee asked for APHSA's recommendations on how to better 
protect, prevent, intervene, and deter child abuse going forward. It is 
critical that the Congress and States work together to make children 
safer sooner. In order to do this, States need flexibility to use 
available funds in the manner that best meets their needs, their 
culture, and social/economic environment. Federal, State, and local 
financing should promote flexibility, within a blended assimilation of 
services while maintaining an appropriate framework of accountability. 
State and local child welfare systems differ as a matter of governance, 
tradition, resources, advocacy, and leadership. That said, because 
maltreatment has many causes, the continuum of child welfare services 
ought to include a broad range of community-based, interagency programs 
that support families, promote the general well-being of all children, 
and prevent the incidence of maltreatment or other conditions that lead 
to child welfare service involvement.
    There are three primary goals for Federal finance reform:

    1. Expand covered services by allowing States to use Title IV-E 
funds on services other than foster care. Child welfare agencies need 
the flexibility to work with communities, to identify at-risk families 
and children, and to provide various types of services (such as early 
intervention, family counseling, and substance abuse assistance) as a 
strategy to prevent maltreatment or other conditions that lead to 
children becoming involved in the child welfare system. Our experiences 
tell us that the earlier child welfare is able to work with troubled 
families the less likely it is that the situation will escalate to a 
point where child abuse occurs.
    2. Expand covered populations by delinking IV-E eligibility from 
the (1996) AFDC standard. At the present time, the IV-E program (the 
largest source of Federal child welfare revenue) covers children whose 
families have income (and other resources) at or below the level that 
would have made them eligible for AFDC in 1996. Apart from the fact 
that applying a standard that is now 16 years old makes little sense, 
APHSA and NAPCWA contend that Federal eligibility should not be tied to 
the income of the parents. Instead, Federal support should be available 
to all children regardless of income.
    3. Maintain or increase current funding levels. CAPTA is not exempt 
from sequestration under the provisions of the Budget Control Act. 
Since CAPTA funding is already stretched to the maximum, any additional 
reductions could prove devastating. APHSA understands the current 
budget situation and that Congress must find ways to reduce 
expenditures. However, there are some programs that must be exempt from 
such efforts, and CAPTA is one of those. APHSA realizes that Congress 
is most likely not going to add another program to its list of those 
exempt from sequestration. It is of paramount concern, however, that 
this committee do all it can to help ensure that, if sequestration 
occurs, programs such as CAPTA are not reduced to a level where they 
can no longer adequately serve the most vulnerable populations. 
Children at risk deserve better than to be placed in harm's way by a 
blind reduction in funding.
            Recommendations
    If Congress amends the CAPTA statute, it should also consider 
passing legislation on comprehensive finance reform and increasing 
State flexibility on how to blend funding from different programs. This 
will make it easier for agencies to determine what is in the best 
interest of children without increased concern about available 
resources.
Mandatory Reporting Requirements
    Children have a right to be protected from harm. Bills have been 
introduced and are pending before this committee to require that all 
adults report child abuse and neglect to the appropriate authorities. 
For example, Senator Robert Casey's bill (S. 1877), the ``Speak Up To 
Protect Every Abused Kid Act,'' would require every State to pass a 
universal mandated reporting law. It is understandable why some people 
want to adopt a Federal standard requiring that every individual become 
a mandated reporter if they have reason to believe that a child has 
been harmed or is in danger of being harmed. Under current law, States 
are responsible for determining who is a mandated reporter. This is a 
State issue and should remain a State issue.
    CAPTA establishes a system of child protection for States to 
respond to reports of child maltreatment and children at risk of 
maltreatment. In most States, certain professionals are mandated by law 
to report child maltreatment. Those professionals include social 
workers, teachers and other school professionals, physicians and other 
health care workers, mental health professionals, child care providers, 
medical examiners, clergy, and law enforcement. Some States are 
reviewing their current laws and recommending that their State 
legislature codify certain professionals and expand their definition of 
a mandated reporter. For example, some States are including 
professionals working in institutions of higher learning as mandated 
reporters. Seven States and the District of Columbia include domestic 
violence workers as mandated reporters and nine States include court-
appointed special advocates as mandated reporters. Approximately 18 
States and Puerto Rico have laws that mandate all persons be 
responsible for reporting suspected child abuse and neglect.
    Section 106(a) of CAPTA does allow the use of Federal funds for 
``developing, facilitating the use of, and implementing research-based 
strategies and training protocols for individuals mandated to report 
child abuse and neglect.'' Senator Casey's bill, S. 1877, appropriately 
includes authorization of $5 million in fiscal year 2012 and $10 
million in fiscal years 2013-16 for educational campaigns and training. 
There is no guarantee, however, these funds will be appropriated. APHSA 
would urge that the bill be amended to become effective only if 
authorization levels were fully funded.
    S. 1877 authorization levels for public educational campaigns need 
to be increased. If these campaigns are to be effective, they are, by 
their very nature, expensive. Without a robust and continuing campaign 
on what is a reportable event, universal mandatory reporting could 
unintentionally result in an increase in false reports. Because all 
reports require a preliminary investigation, universal reporting is 
likely to result in a drain on available resources. Not only the child 
welfare system, but State and local law enforcement and judiciary 
agencies will likely be stressed beyond capacity.
    S. 1877 stipulates that for a State to continue receiving CAPTA 
funding, it must enact universal mandated reporting criminal laws. 
Using CAPTA funding as leverage against States for not passing what is 
appropriately a criminal statute is unreasonable. Why would the Federal 
Government threaten to withhold funding and as a result put additional 
children at risk because a State was unable or unwilling to pass a 
universal mandated reporting criminal statute? The safety of children 
should never be used as a leverage to require State action.
            Recommendations
    While APHSA does not believe any additional Federal mandates 
dealing with mandatory reporting requirements are necessary, should the 
Congress decide otherwise, additional funding sufficient to properly 
fund a national on-going public awareness campaign and for additional 
training must be made available to the States before those requirements 
go into effect.
                               conclusion
    CAPTA is a vital element of the larger child welfare system and 
must be viewed within that context. It would appear that Federal 
funding for CAPTA might well be reduced in the future as Congress looks 
for ways to cut the Federal deficit or allow sequestration to take 
place. At the same time, Congress seems intent on adding additional 
unfunded mandates to the program. Protecting children is a Federal and 
State responsibility. We need to work together to ensure that resources 
are available and policies aligned so that we can prevent child abuse 
and neglect, and when it does occur, to intervene in the most effective 
manner possible.
    We recommend that Congress find ways to provide additional 
flexibility for States on how to use not just CAPTA funding, but other 
Federal funding for child welfare services. Funding streams for 
programs that affect children need to be better coordinated and 
integrated to promote healthier and safer children.
    Child welfare administrators across the country are faced with 
multidimensional demands to ensure the safety of all children. APHSA 
encourages Congress to view improvements to CAPTA through this more 
integrated lens.

    Senator Mikulski. Thank you very much for that really 
content-rich testimony, and we will have questions.
    Dr. Block.

 STATEMENT OF ROBERT W. BLOCK, M.D., FAAP, PRESIDENT, AMERICAN 
                ACADEMY OF PEDIATRICS, TULSA, OK

    Dr. Block. Thank you, Chairperson Mikulski and Ranking 
Member Burr, and members of the subcommittee on children and 
families.
    Thank you for inviting me to speak today on behalf of 
myself, and the over 60,000 members of the American Academy of 
Pediatrics. I will abridge my comments and hope you will find 
value in my written testimony.
    One important point: not all children will become adults, 
but it is certainly true that each adult was once a child. The 
experiences and opportunities afforded to each of us in our 
early years have a long-term impact on our health and 
development. They create a substantial imprint on adults that 
we one day become.
    In order to optimize the health and well-being of our 
entire society, we must not view children and their welfare as 
isolated individuals or events. But instead, recognize that 
children's physical and mental health must be addressed as a 
beginning of health across the entire life course.
    For this reason, I became interested in child maltreatment 
during my residency training 40 years ago. Throughout my 
experience evaluating child abuse cases, and testifying in 
court on behalf of abused children, the question I am most 
frequently asked is: how can you do this work? The answer is: 
how can you not?
    We may now recognize that child abuse and neglect not only 
damage an individual's short-term health, but also alter a 
child's neurophysiology and long-term well-being. Children who 
have suffered abuse and neglect may develop a variety of 
behavioral and psychological issues, including conduct 
disorders, decreased cognitive functioning, communication 
impairments, emotional instability, post-traumatic stress 
disorder, and others.
    The landmark Adverse Childhood Experiences or ACE studies 
also demonstrated a relationship between childhood trauma and 
the presence of adult diseases including heart disease, cancer, 
chronic lung disease, and liver disease as well as unintended 
pregnancy, sexually transmitted diseases, and alcoholism. Based 
on this study, childhood trauma may be the leading cause of 
poor health among adults in the United States.
    Pediatricians are in an excellent position to detect and 
prevent abuse because of their unique relationship with 
families and experience in child development. Pediatricians are 
trained to identify injuries and behavioral changes resulting 
from abuse or neglect, and to understand the physician's role 
in treating or reporting abuse. However, there are 
inconsistencies with what is considered suspicious and 
sometimes limited understanding of the child abuse reporting 
process, even within the medical community.
    As president of the American Academy of Pediatrics, I can 
assure you that providing the necessary specialized education 
and training to report abuse and neglect, and serve these 
children appropriately is embraced at the very highest levels 
of leadership within our organization.
    The Academy respectfully submits the following 
recommendations. Every adult has a responsibility to protect 
children and to report maltreatment to the proper authorities. 
Support, as you have heard, for education and training is 
crucial to ensure every adult knows his or her responsibility 
to report and to protect children who may be victims of abuse.
    One common reason mandatory reporters do not report 
suspected abuse is fear of legal retribution. The AAP was 
pleased CAPTA reauthorization did require the Secretary of 
Health and Human Services to recommend potential changes needed 
to address this issue, and the Academy looks forward to that 
report.
    Healthcare financing must provide payment to professionals 
for the more complex and lengthy visits that are typical of and 
very, very necessary for children who have been abused.
    In addition, child welfare workers and mental health 
professionals are crucial to identifying, treating, and 
preventing child abuse.
    It would be important for Congress to take steps to support 
these professions and their training programs. We have a new 
child abuse pediatrics subspecialty which has the potential to 
expand the number of physicians with expertise in this very 
important field. More financial support is necessary to ensure 
every physician with interest and passion to pursue child abuse 
pediatrics is able to do so.
    The AAP has proposed the Health Child Abuse Research, 
Education, and Services or Healthcare's Network that would 
serve as regional consortium centers of excellence to help 
bring the medical profession into full partnership in the 
prevention, diagnosis, treatment, and research around child 
abuse and neglect. Funding and support for this, network is 
needed.
    The Federal Government can create better coordination 
across agencies, and increasing funding for CAPTA, home 
visitation, and other underfunded programs.
    At the State level, as Senator Blumenthal mentioned, child 
abuse definitions, reporting requirements, and exemptions 
differ greatly. A report of suspected or substantiated abuse in 
one State may not follow a child if he or she moves to another 
State, allowing abused or neglected children to slip through 
the cracks. More attention must be paid to interstate reporting 
and investigation.
    So, as a pediatrician, a child abuse specialist, and as a 
father and grandfather, I will remind the committee that early 
experiences matter for the rest of our lives. Every one of us 
in this room has an obligation to ensure every child in America 
has the opportunity to live free from fear of harm so that he 
or she may grow into a productive, happy, and healthy adult.
    It is an honor to be able to provide testimony on behalf of 
myself and the American Academy of Pediatrics. I look forward 
to your questions.
    Thank you.
    [The prepared statement of Dr. Block follows:]
           Prepared Statement of Robert W. Block, M.D., FAAP
    Chairperson Mikulski and Ranking Member Burr, and members of the 
Subcommittee on Children and Families, thank you for inviting me to 
speak today and for your leadership on this important issue. My name is 
Dr. Robert W. Block and I am honored to provide testimony on behalf of 
myself and the over 60,000 primary care pediatricians, pediatric 
medical subspecialists, and pediatric surgical specialists of the 
American Academy of Pediatrics (AAP).
         american academy of pediatrics' work in child welfare
    Recognizing pediatricians' unique role in child welfare, the issue 
of abuse and neglect was first addressed by the AAP in 1962, when the 
AAP's executive board advised the Committee on Infant and Preschool 
Child to address the issue of the battered child syndrome. An official 
Committee on Child Abuse and Neglect (COCAN) was officially established 
in 1990. That same year, the Academy established an education and 
training arm, the Section on Child Abuse and Neglect (SOCAN), which has 
approximately 550 members comprised of child abuse pediatricians, 
general pediatricians and affiliate members (physicians and allied 
health professionals).
    These two entities have supported AAP's ongoing efforts in this 
field, and have since developed 24 policy statements and clinical 
reports; created a residency curriculum and fellowship programs in 
child abuse and neglect; and contributed to the education and training 
of pediatricians and others working in the field of child maltreatment 
through its annual conference, numerous educational manuals, 
publications, and electronic and web-based resources.
    Currently, AAP collaborates with organizations and agencies such as 
the American Academy of Child and Adolescent Psychiatry; the Academy on 
Violence and Abuse; American Medical Association, Futures Without 
Violence, National Association of Children's Hospital and Related 
Institutions (NACHRI), and National Health Collaborative on Violence 
and Abuse. The Academy also works with various Federal agencies such as 
the Agency for Healthcare Research and Quality (AHRQ), Centers for 
Disease Control and Prevention (CDC), Department of Health and Human 
Services Office of Child Abuse and Neglect, and the Department of 
Justice (DOJ). Currently the organization is partnered with the 
Department of Justice to assist pediatricians in identifying children 
who are exposed to sexual violence and connecting them with the 
resources and treatment they need.
    I became interested in child maltreatment during my residency 
training in Philadelphia between 1969 and 1972. I continued to work as 
a general academic pediatrician at the University of Oklahoma, Tulsa 
campus from 1975 onward, specializing in child abuse since 1985. I was 
the founding Chair of the American Board of Pediatrics sub-board on 
child abuse pediatrics, and hold certificate #1, culminating a 37-year 
career in Tulsa. I have personally evaluated over 2,000 individual 
cases, and reviewed and testified in many cases as well. Throughout my 
many years in this field, the question I am most frequently asked is, 
``How can you do this work?'' My answer is, ``how can you not?''
                     child maltreatment in america
    In 2008, U.S. State and local child protective services (CPS) 
received 3.3 million reports of children being abused or neglected. 
Seventy-one percent of the children were classified as victims of child 
neglect; 16 percent as victims of physical abuse; 9 percent as victims 
of sexual abuse; and 7 percent as victims of emotional abuse.\1\ A non 
CPS study indicated that one in five children has been the victim of 
maltreatment.\2\
---------------------------------------------------------------------------
    \1\ U.S. Department of Health and Human Services, Administration on 
Children, Youth and Families. Child Maltreatment 2008 [Washington, DC: 
U.S. Government Printing Office, 2010] available at: http://
www.acf.hhs.gov.
    \2\ Finkelhor D, Turner H, Ormond R, Hamby SL. Violence, abuse, and 
crime exposure in a national sample of children and youth. Pediatrics. 
2009; 124:1411-1423.
---------------------------------------------------------------------------
    Sadly, these numbers are almost certainly only the tip of the 
iceberg. The majority of cases of abuse and neglect go unreported. In 
one major study sponsored by the CDC, 25 percent of adults reported 
having been victims of physical and/or emotional abuse as a child, 28 
percent said they had been physically abused, 21 percent said they had 
been sexually abused, and 11 percent had been psychologically 
abused.\3\
---------------------------------------------------------------------------
    \3\ Centers for Disease Control and Prevention. Adverse Childhood 
Experiences (ACE) study. http://www.cdc.gov/NCCDPHP/ACE/prevalence.htm.
---------------------------------------------------------------------------
                   long-term health effects of abuse
    Not all children will have the opportunity to become adults, but 
every adult was once a child. The experiences and opportunities 
afforded to each of us in our early years, both positive and negative, 
have a long-term impact on our health and development and create a 
substantial imprint on the adults that we one day become. Pediatricians 
today are caring for and protecting the beginning of health for a 
child's entire life span, especially for vulnerable children who are 
victims of abuse or neglect. In order to optimize the health and well-
being of our entire society, we must not view children and their 
welfare as isolated individuals or events, but instead recognize that 
children's physical and mental health must be addressed as the 
beginning of health across the entire life course.
    Children who have suffered abuse or neglect may develop a variety 
of short- or long-term behavioral and functional problems including 
conduct disorders, poor academic performance, decreased cognitive 
functioning, emotional instability, depression, a tendency to be 
aggressive or violent with others, post-traumatic stress disorder 
(PTSD), sleep disturbances, anxiety, oppositional behavior, and 
others.\4\ \5\ These conditions can linger long after the abuse or 
neglect has ceased, even with consistent and attentive parenting by 
foster or adoptive parents or birth parents who have successfully 
changed their own behaviors. In addition, abused or neglected children 
often suffer impairments in their language abilities and cognitive 
skills and one recent study found 36 percent of preschoolers in foster 
care to be developmentally delayed.\6\ These deficiencies almost 
certainly correlate with inadequate parental care during sensitive 
periods of development, providing children with less exposure to 
language and fewer opportunities for cognitive development.
---------------------------------------------------------------------------
    \4\ Holbrook TL, Hoyt DB, Coimbra R, Potenza B, Sise M, Anderson 
JP. Long term trauma persists after major trauma in adolescents: new 
data on risk factors and functional outcome. J Trauma. 2005;58 (4):764-
771.
    \5\ Lansford JE, Dodge KA, Pettit GS, Bates JE, Crozier J, Kaplow 
J. A 12-year prospective study of the long-term effects of early child 
physical maltreatment on psychological, behavioral, and academic 
problems in adolescence. Arch Pediatr Adolesc Med. 2002;156 (8):824-
830.
    \6\ Zimmer MH, Panko LM. Developmental status and service use among 
children in the child welfare system: a national survey. Arch Pediatr 
Adolesc Med. 2006;160 (2):183-188.
---------------------------------------------------------------------------
    Until recently, the medical field did not have a complete 
understanding that child abuse and neglect not only damage an 
individual's short-term health, but also alters a child's neural 
physiology. Pediatricians now understand that the dysfunctional 
behaviors that manifest themselves in children who experience abuse or 
neglect are the result of the brain's physiological adaptations to the 
abnormal world in which the developing child exists.
    Early maltreatment alters the child's neural physiology to adapt 
the brain structurally to its environment, while also significantly 
changing the expected responses to stress and affecting the child's 
ability to learn from experience. When a child suffers an adverse 
experience, the part of the brain that acts in emotional regulation 
(the amygdala) initially becomes more sensitive to stress.\7\ However, 
when a child suffers repeated stressful experiences, the amygdala will 
shrink as a result of chronic exposure to high concentrations of stress 
hormones, thereby becoming less sensitive to stressful experiences over 
time.\8\ The more chronic stress the child experiences, the more 
physiological changes in the brain are likely to take place.
---------------------------------------------------------------------------
    \7\ McEwen BS. Glucocorticoids, depression, and mood disorders: 
structural remodeling in the brain. Metabolism. 2005;54 (5 suppl 1):20-
23.
    \8\ Landfield PW, McEwen BS, Sapolsky RM, Meany MJ. Hippocampal 
cell death. Science. 1996;272 (5266):1249-1251.
---------------------------------------------------------------------------
    By allowing experiences to alter its structure, the brain can grow 
to become the best brain for a child's given surroundings. For example, 
a more visually complex environment may favor a larger visual cortex, 
whereas a child born blind might devote more cortical area to hearing. 
Similarly, a brain grown in a more threatening world may benefit from a 
more highly developed fight-or-flight response than would be necessary 
in a healthier environment.\9\ \10\ These adaptations in the brain, 
although initially useful for managing and surviving in the child's 
stressful environment, do not prepare the child for success in school 
or for lifelong health and productivity. The brain's adaptations will 
also affect the individual's response to stimuli, resulting in an 
altered response to stressful situations across the child's life 
span.\11\ \12\
---------------------------------------------------------------------------
    \9\ Gunnar MR, Donzella B. Social regulation of the cortisol levels 
in early human development. Psychoneuroendocrinology. 2002;27 (1-
2):199-220.
    \10\ De Bellis MD, Chrousos GP, Dorn LD, et al. Hypothalamic-
pituitary-adrenal axis dysregulation in sexually abused girls. J Clin 
Endocrinol Metab. 1994;78 (2):249-255.
    \11\ Pfefferbaum B. Posttraumatic stress disorder in children: a 
review of the past 10 years. J Am Acad Child Adolesc Psychiatry. 
1997;36 (11):1503-1511.
---------------------------------------------------------------------------
                  adverse childhood experiences study
    Child abuse not only alters a child's brain chemistry and 
neurophysiology, but an increasing body of evidence also documents the 
robust relationship between adverse experiences in early childhood and 
a host of other medical complications that manifest throughout an 
individual's life. It was not until the 1980s and 1990s that 
researchers recognized that risk factors for diseases, such as smoking, 
alcohol abuse, and risky sexual behaviors, were not randomly 
distributed in the population. In fact, risk factors for many chronic 
diseases tended to cluster; if an individual had one risk factor, he or 
she was likely to have one or more other risk factors as well. The 
landmark Adverse Childhood Experiences (ACE) study,\13\ sponsored by 
the CDC and Kaiser Permanente and conducted by co-principal 
investigators Vincent J. Felitti, M.D. and Robert F. Anda, M.D. MS, was 
one of the first long-term studies to examine the direct connection 
between risk factors for disease and poor health status in adulthood 
and their antecedents in adverse experiences during childhood.
---------------------------------------------------------------------------
    \12\ Pfefferbaum B. Post-traumatic stress disorder in children: a 
review of the past 10 years. J Am Acad Child Adloesc Psychiatry.
    \13\ Felitti VJ, Anda RF, Nordenberg P, et al. Relationship of 
childhood abuse and household dysfunction to many of the leading causes 
of death in adults. The Adverse Childhood Experiences (ACE) Study. Am J 
Prev Med.  1998;14 (4):245-258.
---------------------------------------------------------------------------
    The ACE study surveyed almost 18,000 middle-class adults insured 
through Kaiser Permanente's Health Maintenance Organization (HMO), 
regarding their childhood experiences involving abuse, neglect, or 
family dysfunction. Specifically, individuals were asked about their 
experiences of psychological, physical or sexual abuse; violence 
against their mother; living in a household with individuals who were 
substance abusers, mentally ill, suicidal, or ever imprisoned; and the 
death of a biological parent, regardless of the cause of death. The 
adverse childhood experiences were then compared to adult risk 
behaviors, disease, and health status. A prospective arm of the study 
continues to follow the cohort to compare childhood experiences against 
current emergency department use, doctor office visits, medication 
costs, hospitalizations, illnesses, and death.
    Of the thousands of responders, more than half reported at least 
one adverse childhood experience and more than 10 percent experienced 
five or more adverse experiences. Among those adults who had 
experienced the highest levels of childhood trauma, those individuals 
were:

    <bullet> Five times more likely to have been alcoholic;
    <bullet> Nine times more likely to have abused illegal drugs;
    <bullet> Three times more likely to be clinically depressed;
    <bullet> Four times more like to smoke;
    <bullet> Seventeen times more likely to have attempted suicide;
    <bullet> Three times more likely to have an unintended pregnancy;
    <bullet> Three times more likely to report more than 50 sexual 
partners;
    <bullet> Two times more likely to develop heart disease; and
    <bullet> Two times more likely to be obese.

    The ACE study demonstrated a graded relationship of adverse 
childhood experiences to the presence of adult diseases, including 
heart disease, cancer, chronic lung disease, and liver disease, as well 
as unintended pregnancy,\14\ sexually transmitted diseases,\15\ and 
alcoholism. Individuals who experienced multiple categories of adverse 
experiences during childhood were likely to have multiple health risk 
factors as adults. Child abuse, neglect, and other circumstances that 
disrupt the parent-child relationship are significantly associated with 
many leading causes of adult death and poor quality of life. Based on 
this study, childhood trauma, including abuse and neglect, may be the 
leading cause of poor health among adults in the United States.
---------------------------------------------------------------------------
    \14\ Dietz PM, Spitz AM, Anda RF, et al. Unintended pregnancy among 
adult women exposed to abuse or household dysfunction during their 
childhood. Journal of the American Medical Association. 1999;282:1359-
1364.
    \15\ Hillis SD, Anda RF, Felitti VJ, Nordenberg D, Marcjbanks PA. 
Adverse childhood experiences and sexually transmitted diseases in men 
and women: a retrospective study. Pediatrics. 2000;106(1):E11
---------------------------------------------------------------------------
          pediatricians' role in child maltreatment detection
    Pediatricians are in an excellent position to detect and prevent 
child abuse because of their unique relationships with families \16\ 
and expertise in child development, and because the youngest children 
represent the highest proportion of victims. Because pediatricians have 
contact with families during challenging and stressful times (e.g., 
when a child is ill), they can become familiar with a family's 
stressors and strengths. Certain elements of normal child development 
are often the triggers for child maltreatment and cause difficulty for 
some parents, specifically excessive crying, awakening at night, 
separation anxiety, normal exploratory behavior, normal negativism, 
normal poor appetite, and toilet-training resistance. Experts suggest 
that pediatricians anticipate these normal developmental stages and 
provide guidance to families about how to best manage potentially 
difficult situations that may trigger physical abuse. For example, 
pediatricians already discuss with parents how much their infant cries 
and can offer strategies for coping. The literature shows that parents 
view pediatricians as respected advisors and counselors.\17\ A majority 
of pediatricians (70 percent) that participated in the study agreed 
that they can help prevent physical abuse by providing this 
anticipatory guidance. In addition to providing guidance during key 
developmental periods, physicians are often connected to community 
resources that have the welfare of the child and family as a priority.
---------------------------------------------------------------------------
    \16\ Flaherty EG, Stirling J, Committee on Child Abuse and Neglect. 
The Pediatrician's Role in Child Maltreatment Prevention. Pediatrics. 
2010;126;833.
    \17\ Flaherty EG, Stirling J, Committee on Child Abuse and Neglect. 
The Pediatrician's Role in Child Maltreatment Prevention. Pediatrics. 
2010;126;833.
---------------------------------------------------------------------------
    Detecting sexual abuse, however, is very different. Because of the 
existing relationship with children and their families, physicians must 
be able to detect emotional and behavioral changes that indicate abuse 
may have occurred. Pediatricians will almost certainly encounter 
sexually abused children in their practices and may be asked by parents 
and other professionals for consultation.
    The diagnosis of sexual abuse and the protection of the child from 
additional harm depend, in part, on the pediatrician's willingness to 
consider abuse as a possibility. Sexually abused children who have not 
disclosed abuse may present to medical settings with a variety of 
symptoms and signs. Because children who are sexually abused are 
generally coerced into secrecy, the clinician may need a high level of 
suspicion and may need to carefully and appropriately question the 
child to detect sexual abuse in these situations. Many pediatricians do 
not feel prepared to conduct such comprehensive medical assessments. In 
such circumstances, pediatricians may refer children to other 
physicians or health care professionals with expertise in the 
evaluation and treatment of sexually abused children.\18\
---------------------------------------------------------------------------
    \18\ Kellogg ND, Committee on Child Abuse and Neglect. Evaluation 
of Sexual Abuse in Children. Pediatrics. 2005;116(2):506-512.
---------------------------------------------------------------------------
    Sexually abused children are seen by pediatricians in a variety of 
circumstances such as: (1) the child or adolescent is taken to the 
pediatrician because he or she has made a statement of abuse or abuse 
has been witnessed; (2) the child is brought to the pediatrician by 
social service or law enforcement professionals for a non-acute medical 
evaluation for possible sexual abuse as part of an investigation; (3) 
the child is brought to an emergency department after a suspected 
episode of acute sexual abuse for a medical evaluation, evidence 
collection, and crisis management; (4) the child is brought to the 
pediatrician or emergency department because a caregiver or other 
individual suspects abuse because of behavioral or physical symptoms; 
or (5) the child is brought to the pediatrician for a routine physical 
examination, and during the course of the examination, behavioral or 
physical signs of sexual abuse are detected. Whether it is physical or 
sexual abuse, pediatricians must be trained to identify injuries and 
behavioral changes, and to understand their role in confronting or 
reporting abuse.
          pediatricians' role in reporting child maltreatment
    Pediatricians, other physicians, teachers, law enforcement 
officials, and others are required by law in every State to report 
suspected as well as known cases of child abuse to the proper 
authorities. In many States, the suspicion of child sexual abuse as a 
possible diagnosis requires a report to both the appropriate law 
enforcement and child protective service agencies. With funding from 
the Agency for Healthcare Research and Quality (AHRQ), the AAP 
Pediatric Research in the Office Setting (PROS) network conducted a 
study on child abuse recognition and reporting behaviors of 
pediatricians and sponsored a multidisciplinary conference in an effort 
to identify strategies to reduce or eliminate barriers to reporting and 
improve the health and well-being of abused children. The study found 
that clinicians reported 6 percent of the 1,683 patients to child 
protective services. Clinicians did not report 27 percent of injuries 
considered likely or very likely caused by child abuse and 76 percent 
of injuries considered possibly caused by child abuse. The data 
indicate that clinicians vary in how they judge the level of suspicion 
at which they should invoke the ``reasonable suspicion'' criterion that 
mandates a report to CPS. These prospective results confirm published 
results of clinician surveys.\19\ A recent study conducted by the 
Academy found that many pediatricians are not reporting all suspected 
cases of child abuse and neglect. The reasons for this included:
---------------------------------------------------------------------------
    \19\ Flaherty EG, Sege RD, et al. From Suspicion of Physical Child 
Abuse to Reporting: Primary Care Clinician Decision-Making. Pediatrics. 
2008;122(3):611-619.

    <bullet> A belief that one had to be certain that abuse or neglect 
had occurred;
    <bullet> Lack of confidence in CPS intervention;
    <bullet> Lack of feedback from CPS in prior cases reported;
    <bullet> Reliance on others to report (e.g. emergency room 
personnel); and
    <bullet> Fear of legal retribution from families.\20\
---------------------------------------------------------------------------
    \20\ Jones R, Flahery EG. Clinicians' Description of Factors 
Influencing Their Reporting of Suspected Child Abuse: Report of the 
Child Abuse Reporting Experience Study Research Group. Pediatrics. 
2008;122(2):259-266.

    Even within the medical community there are inconsistencies with 
what is suspicious and varying degrees of knowledge and understanding 
of what reporting means in terms of a child's safety and well-being. 
What many fail to realize is that a report is NOT an accusation; but 
rather is a request for further investigation. This underscores the 
importance of specialized education and training for pediatricians, as 
well as for all mandated reporters. The Academy is fully committed to 
educating our members and giving them the tools to report all cases of 
abuse and neglect and serve these children appropriately. As president 
of the AAP, I can assure you that this endeavor is embraced at the very 
highest levels of leadership within the organization.
    As mentioned above, one common reason mandatory reporters do not 
report suspected child abuse relates to the fear of legal retribution. 
The Child Abuse Prevention and Treatment Act (CAPTA) requires each 
State to provide immunity from civil or criminal liability for 
individuals who make good faith reports of suspected or known child 
abuse or neglect. ``Good faith'' reports refer to the assumption that 
the reporter, to the best of his or her knowledge, had reason to 
believe the child in question was subjected to abuse or neglect. These 
good faith protections from liability are incredibly important, but 
unfortunately do not go far enough to protect pediatricians and other 
mandatory reporters from frivolous law suits. For instance, these laws 
do not protect physicians or other mandatory reporters who consult, 
cooperate or assist with the filing of a mandatory report. There is 
much anecdotal evidence of a primary care pediatrician who suspects a 
child is the victim of abuse, and requests a child abuse specialist to 
review the case. If the primary care pediatrician then makes a report 
to child services, he or she is protected from suit; the child abuse 
specialist, however, is not protected and often targeted for civil 
liability. Further, I have colleagues in child abuse pediatrics who 
have been sued for violating families' 4th and 14th Amendment rights 
after filing good faith reports of suspected child abuse.
    It is incredibly unfortunate that pediatricians, medical 
specialists, and other mandatory reporters who are striving to protect 
children to the best of their abilities are targeted in this way. In 
addition, it takes incredible amounts of time and financial resources 
to make repeated visits to court, retain legal counsel, and cover other 
legal expenses involved in each individual suit, as well as an intense 
emotional toll. Our time and resources would be much better spent 
caring for the children who need us.
                           inter-state issues
    CAPTA established the Federal definition of child abuse and 
neglect: ``Any recent act or failure to act on the part of a parent or 
caretaker, which results in death, serious physical or emotional harm, 
sexual abuse, or exploitation, or an act or failure to act which 
presents an imminent risk of serious harm.'' Most States, the District 
of Columbia, American Samoa, Guam, the Northern Mariana Islands, U.S. 
Virgin Islands and Puerto Rico, have civil and criminal statutes that 
expand on the CAPTA child abuse definition and further specify 
different types of abuse. Unfortunately, these State laws vary widely, 
providing children with only a patchwork of protection against a 
variety of forms of abuse and neglect. For instance, depending on the 
State in which a child resides, civil and/or criminal statutes may 
protect that child against any combination of the following types of 
abuse: physical abuse, neglect, sexual abuse or sexual exploitation, 
emotional abuse, parental substance abuse and/or abandonment.
    In addition to wide variations in child abuse definitions, State 
laws vary widely and are incredibly inconsistent with regard to who may 
be charged with child maltreatment and when a report of suspected child 
abuse or neglect must be made. Generally, States require a report of 
suspected child abuse to be made when an individual knows or has 
reasonable cause to believe that a child has been subjected to abuse or 
neglect. These standards provide guidance only for mandatory reporters 
of child abuse in deciding whether to make a report to child protective 
services and do not apply to the general public. Further, several State 
statutes define the persons who can be reported to child protective 
services as perpetrators of abuse or neglect, mandating that only 
individuals who have some relationship or regular responsibility for 
the child may be reported to child services. State laws generally 
define this person as parents, guardians, foster parents, relatives, or 
other caregivers responsible for a child. Individuals who may only have 
occasional or rare contact with a child would not be included under 
many States' child abuse reporting laws.
    Many States also provide exceptions in their child abuse laws that 
exempt certain acts from their statutory definitions of child abuse or 
neglect. A number of States specify that financial inability to provide 
for a child is exempted from the definition of neglect. Physical 
discipline is exempted from the definition of abuse in some States, as 
long as the discipline is ``reasonable'' and ``causes no bodily 
injury'' to the child. One of the most common exemptions from child 
abuse and neglect statutes (included in the laws of 31 States, the 
District of Columbia, Guam and Puerto Rico) exempts parents who choose 
not to seek medical care for their children due to religious beliefs. 
Of the 34 States/jurisdictions with such laws, only 16 States and 
Puerto Rico authorize the court to order medical treatment for a child 
when the child's condition requires medical intervention. The American 
Academy of Pediatrics considers refusing medically necessary treatment 
to any child to be medical neglect. Unfortunately, there are far too 
many stories of children who have died as a result of medical neglect 
when readily available medical interventions could have been accessed.
    Child abuse and neglect cases are further complicated when a child 
crosses State boundaries. Every State and county, and most large cities 
in the United States administer their own child welfare systems. Each 
child welfare department may have different statutory requirements with 
regard to child abuse and neglect; the agencies may also collect 
different data, work with law enforcement, and track children and their 
families in different ways. Although every State participates in inter-
state compacts, State agencies differ in response time and in the 
quantity of information shared with other States. Because of these 
inter-state and inter-jurisdictional issues, a report of suspected 
child abuse or a case of substantiated abuse in one State would not 
carry with a child if he or she moves to another State. If an 
investigation of suspected abuse or neglect is underway, a parent or 
caregiver may move across State lines for the intent purpose of 
avoiding child protective services. In these cases, it may be months or 
years before another report is made or substantiated, resulting in 
continued abuse or neglect. Unfortunately, abused or neglected children 
slip through the cracks far too frequently.
                         child abuse pediatrics
    All pediatricians do receive some training in child abuse and 
virtually every physician will encounter and report cases of child 
abuse and neglect during their careers. However, in recognition of the 
strong scientific basis for child abuse pediatrics and the need to 
address the comprehensive medical assessment and diagnosis of child 
maltreatment, the American Board of Pediatrics recently approved a new 
subspecialty of Child Abuse Pediatrics and the first board exam was 
offered in November 2009. Since that time, more than 200 pediatricians 
have become certified in the new field of child abuse pediatrics. This 
small cadre of doctors not only perform exams, but they also serve as 
expert witnesses, see and treat patients, perform research, and teach 
residents and medical students. These pediatricians often work in 
academic settings or with Child Advocacy Centers, and serve as a 
resource to their fellow health care providers, social workers, child 
protective services, law enforcement, the judiciary, and many others. 
As one of these subspecialists, I can attest personally that we are 
spread extremely thin, isolated from one another, and often find it 
difficult to access appropriate funding for the work we do.
moving forward: recommendations for child abuse protection, prevention, 
                      intervention and deterrence
    The AAP has a long-standing commitment to the health and well-being 
of children and is contributing to this field in a number of ways. 
Above all, the American Academy of Pediatrics is committed to the 
health and well-being of all infants, children, adolescents, young 
adults, and their families across the country and with that in mind, 
respectfully submits the following recommendations:

    Support for the Medical Home: Every child should have a medical 
home that is accessible, continuous, comprehensive, family-centered, 
coordinated, compassionate, and culturally effective. The medical home 
can help provide the primary prevention to ensure child abuse does not 
occur. The pediatrician can work with new or struggling parents to 
develop productive parenting and discipline techniques as well as 
identify families that may need further assistance to prevent abuse or 
neglect from taking place.
    If a child is a victim of abuse, a medical home can provide a 
crucial source of stability, continuity of care, and information. 
Although many patients with a significant history of trauma will need 
to be followed by mental health professionals, the pediatrician still 
plays an important role in management and coordination of care among 
specialists. In the United States there is a disturbing shortage of 
appropriately trained child and adolescent psychiatrists and other 
mental health professionals who are trained to work with children. By 
providing a medical home, the pediatrician could work longitudinally 
with caregivers and continue to treat symptoms that are obstructing 
therapy. Pediatricians can also facilitate access to community 
resources, work closely with the child's school to address behavioral 
challenges to learning, and help coordinate care among specialists in 
other disciplines. However, this work is extraordinarily time 
consuming, and many pediatricians are precluded from doing this 
important work due to lack of payment for their time.
    Health Care Financing: Children who have been victims of abuse 
present incredibly complicated cases that require multidisciplinary, 
intensive health care treatments. For instance, one child may require 
immediate care for his or her injuries sustained as a result of abuse, 
followed by psychological therapy by mental health professionals, as 
well as coordination among the child abuse pediatrician, primary care 
physician, law enforcement, child welfare services, and others.
    Each victim of child abuse needs and deserves thorough and 
sustained medical care, but unfortunately, the health care financing 
system does not recognize or acknowledge the time and costs associated 
with each individual child abuse case. Health care financing for these 
vulnerable children should support child welfare goals of health, 
safety, and permanency for all children and adolescents. Health care 
financing should provide payment to health care professionals for the 
more complex and lengthy visits that are typical of and necessary for 
children who have been victims of maltreatment. Financing must also 
cover the cost of the health care management to ensure that this 
medically complex population receives appropriate and timely health 
care services. If a child is found to be a victim of abuse or neglect 
and therefore moved into foster care, it is essential that these 
children receive the benefits of State and Federal entitlement programs 
for which they are eligible without delay.
    Education and Resources for Child Abuse Pediatricians: The new 
Child Abuse Pediatrics subspecialty has the potential to greatly expand 
the knowledge base and number of physicians with expertise in this very 
important area. Unfortunately, unlike other medical subspecialties, 
there is limited funding for pediatricians to enter child abuse 
pediatric training programs and not many fellowships for child abuse 
pediatrics exist. Further, because of limited resources and strained 
budgets at many hospitals, it is difficult for the medical centers to 
create new fellowship programs to support the intensive, 
interdisciplinary and coordinated approach of child abuse pediatrics. 
In addition, the child abuse fellowships and training programs that 
currently exist are generally located as part of large academic medical 
institutions in major metropolitan areas, which results in a poor 
geographic distribution of physicians with the experience, knowledge, 
and education to diagnose and treat serious and complicated child abuse 
or neglect cases. More financial support is necessary to ensure every 
physician with the interest and passion to pursue child abuse 
pediatrics is able to do so.
    Because almost any physician that cares for children is likely to 
encounter a victim of abuse or neglect in his or her career, it is 
absolutely necessary that physicians, especially pediatricians, have 
the resources and training necessary to identify victims of abuse and 
intervene properly. For this reason, the AAP has proposed the Health 
Child Abuse Research, Education, and Services (Health CARES) network. 
The Health CARES network would serve as regional consortia to help 
bring the medical profession into full partnership in the prevention, 
diagnosis, and treatment of child abuse and neglect. Health CARES would 
also provide the infrastructure to collect and coordinate resources for 
services, education, and research on child maltreatment. The network 
would also serve as Centers of Excellence to disseminate best practices 
in abuse diagnosis and prevention, provide further education and 
curricula for all health care providers, and provide resources for 
multidisciplinary research.
    Mental Health and Child Welfare Workforce: In addition to 
increasing opportunities for physicians and pediatricians to expand 
their own knowledge of child abuse pediatrics, it is necessary to also 
provide greater support for the expansion of the mental health 
profession workforce and the child welfare workforce. Today, child 
welfare workers have overwhelming caseloads, work long hours, and are 
generally underpaid for their tireless work. In addition, our Nation 
has a serious lack of child psychiatrists, child psychologists and 
other mental health professionals trained to work with children who are 
victims of maltreatment. These professionals are crucial components of 
the mission to identify, treat and prevent child abuse and neglect, and 
Congress should take steps to support these professions and their 
training programs.
    Prevention: The prevention of child abuse and neglect from ever 
taking place should be the goal of our entire society. We all have a 
moral obligation to protect children from harm, but unfortunately, the 
current child welfare system focuses the vast majority of its resources 
on children after neglect or abuse has occurred and the child has come 
to the attention of child protection agencies. Primary prevention 
programs that provide parents and families with the education and 
resources they need to successfully parent have been shown to reduce 
child abuse and neglect, while also reducing costs to local, State and 
Federal Governments. Primary prevention programs require far less 
funding compared to the costs associated with caring for a victim of 
child abuse while in the foster care system and the health care costs 
required to treat the physical and mental health conditions that result 
from abuse or neglect through the child's life. There are a number of 
model programs for preventing child abuse and neglect, including:

    <bullet> Home visitation: There are many evidence-based primary 
prevention programs in existence around the country focused on family 
development and parent education that have demonstrated decreases in 
child abuse and neglect among targeted populations. In particular, the 
Maternal, Infant, and Early Childhood Home Visitation Program funded 
through the Affordable Care Act and administered through HRSA is an 
excellent example of an evidence-based/evidence-informed grassroots 
level primary prevention program that works directly with at-risk 
families to provide parenting support and guidance to ensure the health 
and well-being of infants, children and their families. The AAP 
encourages Congress to protect this valuable program and maintain its 
funding levels.
    <bullet> Period of Purple Crying: In addition, in many States, 
including my home State of Oklahoma, behavioral researchers and 
advocates have created the Period of Purple Crying Campaign to prevent 
abusive head trauma in infants. This primary prevention program is 
designed to educate all parents about coping with the stressors of 
their baby's first months of life. It is a vital educational program to 
reduce the incidence of abusive head trauma resulting from a child 
being shaken by their caregiver. This program and others that have 
demonstrated impacts on reducing child abuse and neglect should be 
supported.
    <bullet> Stop It Now!: An evidence-informed program to prevent 
child sexual abuse is Stop It Now!, which relies on the public health 
model to create educational materials and social marketing campaigns. 
Using the results of interviews and focus groups with survivors, people 
who have abused children in the past, and family members of both, Stop 
It Now! develops prevention education materials, media messaging, 
training tools and community-based program strategies designed to 
motivate and support adults to step forward, speak up, and take action 
to protect children.

    Education, Support and Protection for Mandatory Reporters: In order 
to provide children with the protection they need and provide mandatory 
reporters with the security and confidence to report suspected child 
abuse and neglect, opportunities for education and training to gain a 
greater understanding of the child welfare system and the child abuse 
investigation process is necessary. In addition, although every State 
has a law protecting mandatory reporters who act in good faith from 
prosecution under State and local laws, most States do not extend these 
protections to other health care providers, investigators, child 
welfare agencies or law enforcement who cooperate or assist with the 
filing of a mandatory report or provide consultation services to health 
care providers. The AAP was pleased the last CAPTA reauthorization 
included a requirement for a report from the Secretary of Health and 
Human Services addressing potential statutory or regulatory changes 
needed to address this issue. However, this is only the first step and 
the AAP recommends Congress take steps to protect all mandatory 
reporters and those who consult or assist with reports of suspected 
child abuse from lawsuits.
    Although most adults are not considered mandatory reporters by law, 
every individual has a responsibility to protect children from harm or 
neglect, as well as report any and all knowledge of maltreatment to the 
proper authorities. Every adult should know his or her responsibility 
and there are significant opportunities to communicate this 
responsibility, as well as the steps independent adults can take to 
protect children who are victims of abuse.
    Better Coordination at the Federal Level: The Federal Government 
has a crucial role to play in preventing child abuse and neglect and 
caring for the victims of abuse. Unfortunately, child abuse prevention, 
treatment, foster care, and child welfare services are fragmented and 
responsibilities are spread across multiple agencies and offices, 
including CDC, HRSA-MCHB, AHRQ, Substance Abuse and Mental Health 
Services Administration (SAMHSA), DOJ and others. Better coordination 
at the Federal level could improve program efficiency and effectiveness 
at the grassroots level across the country.
    CAPTA Funding: CAPTA was originally enacted in 1974 and amended 
numerous times since then, most recently in December 2010. CAPTA 
provides the majority of Federal funding to States in support of child 
abuse and neglect prevention, assessment, investigation, prosecution, 
and treatment activities, and also provides grants to public agencies 
and nonprofit organizations, including Indian Tribes, for demonstration 
projects. Unfortunately, CAPTA is chronically underfunded. The AAP 
strongly recommends Congress increase funding for CAPTA and its 
associated programs to provide States with the resources they need to 
prevent and treat child abuse and properly protect children.
                               conclusion
    Again, it is indeed an honor to provide testimony on behalf of 
myself and the over 60,000 primary care pediatricians, pediatric 
medical subspecialists, and pediatric surgical specialists of the 
American Academy of Pediatrics. I appreciate the opportunity to discuss 
this very important national issue and would be happy to answer your 
questions.

    Senator Mikulski. Thank you, Dr. Block.
    Miss Huizar.

   STATEMENT OF TERESA HUIZAR, EXECUTIVE DIRECTOR, NATIONAL 
              CHILDREN'S ALLIANCE, WASHINGTON, DC

    Ms. Huizar. Thank you. Chairwoman Mikulski, Ranking Member 
Burr, members of the subcommittee, thank you for holding this 
important and substantive hearing in shedding light on the 
problem of child sexual abuse.
    The National Children's Alliance is the national 
association and accrediting body for the Nation's 750 
children's advocacy centers. Those centers serve more than 
267,000 abused children last year. Children's advocacy centers 
coordinate a multidisciplinary team approach to the 
investigation, prosecution, and treatment of child abuse, and 
in so doing, work closely with law enforcement, prosecutors, 
child protective services, victim advocates, medical and mental 
health professionals.
    My colleagues have already eloquently spoken on the need 
for improved reporting mechanisms, and I join them in their 
call for more training for mandated reporters. Recent events 
have many asking, ``Why individuals do not report suspected 
child abuse?'' And we know that while 95 percent of Americans 
express deep concern about abuse, only one-third contacted the 
authorities when actually confronted with abuse. Adults do not 
report because they do not know the signs of abuse, and because 
they worry about what will happen when they do, and because 
they do not know how to report.
    All of these problems can be addressed by widespread 
training and public awareness campaigns to the 240 million 
American adults who should be reporting abuse if they suspect 
it. And that is something that is uniquely the Federal 
Government's role to do given the scale of that task.
    But we cannot forget that perhaps the most important and 
concerning underreporting occurs among the most vulnerable; 
that is, abused children themselves. Research tells us that 
only one-third of adults who say they were abused as children 
ever told anyone. Knowing that children are reluctant to 
report, means that adults must take primary responsibility for 
identifying and reporting abuse and also, that children must be 
trained in body safety information and abuse prevention. 
Children's advocacy centers have been at the forefront of that 
work, training nearly 400,000 school children last year. But 
this work must be extended and expanded to America's 17 million 
children.
    And while barriers to reporting abuse are finally receiving 
well-warranted attention, we do not think these alone will save 
children. Improved child abuse reporting must be paired with 
equally strong intervention in order for abused children to 
receive the hope and health that they so desperately need.
    Children's advocacy centers play a key role in that 
response. This model of comprehensive care has been proven to 
improve investigation and prosecution while insuring that 
abused children receive needed medical and mental healthcare, 
and all the while saving, on average, $1,000 per child abuse 
case.
    Sadly, this effective response is not available to all of 
America's children. There are still more than 1,000 counties in 
the United States in which abused children have no access to 
these services, many of those in counties represented by States 
that serve on this committee.
    We call on Congress to finish the good work it established 
with the creation of the Victims of Child Abuse Act in 1990 by 
expanding these services to all of America's children.
    And lest one think that all improvements to the reporting 
and intervention of child abuse are complicated or difficult to 
achieve in light of these tight budget times, it is important 
to be reminded that many are at little or no cost. Improved 
data collection about the scope of the problem, modifying 
confidentiality laws to encourage information sharing for those 
that investigate and treat child abuse, and the adoption of 
model protocols for civil and criminal case coordination take 
more political will than funds to achieve.
    Finally, child abuse investigations are a gateway to 
services for victims. Research tells us that the best long-term 
predictor of recovery after abuse is not the legal outcome of 
the case. It is whether the child receives treatment and 
support.
    Untreated child sexual abuse has terrible lifelong effects 
and a host of maladies that are the result of the trauma of 
abuse. But fortunately, over the past decade and through the 
work of the National Child Traumatic Stress Network, we now 
know a great deal about successfully treating trauma in 
children. Evidence-supported, trauma-focused, mental health 
treatment is remarkably effective in reducing trauma in child 
victims and in helping them to begin to heal, and every child 
who has been the victim of abuse deserves to have access to it.
    Children who have been abused absolutely depend on proven 
mental health treatments on their path to recovery and healing. 
And certainly, society having failed to protect these children 
from abuse in the first place can certainly work to restore 
them to wholeness after the fact. If we invest in their 
treatment now, we will save ourselves from having to pay for 
the costs of their compromised physical and emotional health 
later.
    It is our collective responsibility to protect children 
from abuse. And when that fails, to report it and to ensure the 
victims receive those services they need to heal and lead 
healthy and productive lives. The health and well-being of our 
great Nation's children depend upon it, and they certainly 
depend upon you, Senators, as well.
    Thank you.
    [The prepared statement of Ms. Huizar follows:]
                  Prepared Statement of Teresa Huizar
    Chairwoman Mikulski, Ranking Member Burr, members of the 
subcommittee, thank you for the opportunity to testify on this 
important matter. It is one I have been involved in for two decades at 
the local, State, and national level, and throughout my tenure as the 
Executive Director of National Children's Alliance.
    National Children's Alliance is the national association and 
accrediting body for, as well as a provider of training and technical 
assistance to, more than 750 Children's Advocacy Centers throughout the 
United States. We empower local communities to respond to child abuse 
by providing grants for the start-up and development of Children's 
Advocacy Centers which coordinate a multidisciplinary team for the 
investigation, prosecution, and treatment of child abuse. These 
Children's Advocacy Centers served more than 267,000 child victims of 
abuse throughout the United States last year alone.
                        the scope of the problem
    To understand the scope of child sexual abuse, one must first 
understand that children of every gender, age, ethnicity, socioeconomic 
status, and family structure are at risk for abuse. However, girls are 
5 times more likely to be abused than boys.\1\ Unfortunately, this does 
not mean that it is rare for boys to be sexually abused. Of the victims 
under the age of 12, 26 percent are male and 8 percent are between the 
ages of 12-17.\2\ And, while children are most likely to be abused 
between the ages of 7 and 13,\3\ more than 20 percent are victimized 
prior to the age of 8.\4\
---------------------------------------------------------------------------
    \1\ Sedlack, A.J., Mettenburg, J., Basena, M., Petta, I., 
McPherson, K., Greene, A., and Li, S. (2010). Fourth National Incidence 
Study of Child Abuse and Neglect (NIS-4): Report to Congress, Executive 
Summary. Washington, DC: U.S. Department of Health and Human Services, 
Administration for Children and Families.
    \2\ Snyder, H.N. (2000). Sexual assault of young children as 
reported to law enforcement: Victim, incident, and offender 
characteristics. Washington, DC: U.S. Department of Justice, Office of 
Justice Programs, Bureau of Justice Statistics. Retrieved January 12, 
2009 from http://www.ojp.usdoj.gov/bjs/pub/pdf/saycrle.pdf.
    \3\ Finkelhor, D. (1994). Current information on the scope and 
nature of child sexual abuse. The Future of Children, Volt. 4, No. 2, 
Sexual Abuse of Children, PP. 31-53.
    \4\ Snyder, 2000.
---------------------------------------------------------------------------
    Most child sexual abuse occurs within the context of the family \5\ 
and nearly all children who are sexually abused are victimized by 
someone they know and trust. Recent media attention has been given to 
those cases involving adults in a position of trust. These cases share 
in common some distinguishing factors including the ways in which the 
alleged perpetrators groom children and ingratiate themselves with the 
victims' family members.\6\
---------------------------------------------------------------------------
    \5\ Elliott, M., Browne, K., and Kilcoyne, J. (1995). Child sexual 
abuse prevention: What offenders tell us. Child Abuse & Neglect, 5, 
579-594.
    \6\ Elliott et al., 1995.
---------------------------------------------------------------------------
    What is universally true in all cases of sexual abuse is the way in 
which perpetrators seek out particularly vulnerable children to prey 
upon: quiet, lonely, particularly trusting, or troubled children.\7\ 
This is one reason that children without either parent, such as 
children in foster care, are 10 times more likely to be sexually abused 
than those who live with both biological parents. And, children who 
live with a single parent with a live-in partner are 20 times more 
likely to be victims of child sexual abuse than children living with 
both biological parents.\8\
---------------------------------------------------------------------------
    \7\ Budin, L.E., & Johnson, C.F. (1989). Sex abuse prevention 
programs: Offenders' attitudes about their efficacy. Child Abuse & 
Neglect, 13, 77-87; Conte, J.R. (1987). Ethical Issues in evaluation of 
prevention programs. Child Abuse & Neglect, 11, 171-172.
    \8\ Sedlack, et al. 2010.
---------------------------------------------------------------------------
    Child sexual abuse is a crime perpetuated by silence and secrecy. 
Isolation, whether within a family or by community, adds significant 
risk for sexual abuse. Children who live in rural areas, for example, 
are almost 2 times more likely to be identified as victims of child 
sexual abuse.\9\ And, of course, it is to the advantage of the 
perpetrator to further isolate the child victim to prevent disclosure.
---------------------------------------------------------------------------
    \9\ Sedlack, et al. 2010.
---------------------------------------------------------------------------
    Understanding the scope of the problem also necessitates 
understanding that child sexual abuse exists on a continuum. This is 
not a continuum of severity in terms of the effect on the victim, as 
some in the public and media have misunderstood it. All child sexual 
abuse causes trauma, even as the symptoms vary by victim. Rather, it is 
a continuum of deviant and harmful behavior by the perpetrator that 
begins on one end with secretive and furtive victimization, slides into 
amateur or professional photo-documentation of that abuse primarily for 
the sexual gratification of the offender, may move toward 
commercialization or public sharing of those images with other 
offenders, and on the far end of that continuum may include 
prostituting or trafficking the child. And, of course, a child may 
experience one, all, or some combination of these forms of child sexual 
abuse.
    Although law enforcement are to be commended for their successes 
with online child sexual exploitation, which have included a 21 percent 
increase in arrests of offenders who solicited youth online for sex 
over the past few years, research indicates that this form of child 
sexual abuse accounts for less than 1 percent of all child sexual 
abuse.\10\ Likewise, child sex trafficking, which has recently received 
significant media interest, is a serious but relatively uncommon form 
of child sexual abuse, as compared to other types of child sexual 
abuse. Research over a little more than a 1-year period yielded 391 
allegations of child sex trafficking from task forces that investigate 
such matters.\11\
---------------------------------------------------------------------------
    \10\ Mitchell, K., Jones, L., Finkelhor, D., & Wolck, J., (2011). 
Internet-facilitated commercial sexual exploitation of children: 
Findings from a nationally representative sample of law enforcement 
agencies in the U.S. Sex Abuse, vol.. 23, no. 1, 43-71.
    \11\ Mitchell et al. 2011.
---------------------------------------------------------------------------
    This does not in any way diminish the importance of combating all 
forms of child sexual abuse. Rather, it points out the necessity of 
having a range of legal and treatment responses available to address 
each form of child sexual abuse on the continuum. And, it allows for 
thoughtful public policy that allocates resources based, in part, upon 
the prevalence of varying forms of child sexual abuse as experienced by 
victims rather than based upon that which most shocks us or is most 
recently in the public spotlight.
               reporting and under-reporting child abuse
    Recent events have shed much-needed light on the state of child 
abuse reporting in the United States. While CAPTA requires that all 
States have mandated reporting requirements, these vary widely by 
State.
    Eighteen States have universal mandated reporting for all adults. 
More commonly, the balance of the States identify a subset of those who 
have direct contact with children (teachers, medical providers, daycare 
providers, etc.) who have a legal duty to report child abuse or face 
certain civil penalties. However, reporting rates vary enormously by 
State, as do substantiation rates of those reports.
    Although all States allow voluntary reporting, how reports are 
made, and to whom they are made, the list of mandated reporters is 
greatly variable: 18 States require all adults to report suspected 
abuse, while the balance provides a list (again, variable across the 
States) of professionals with contact with children who must report.
    With regard to the process of reporting and to whom the report is 
made, there is, once again, great variation among States. In some 
States, reports must be made to Child Protective Services. In others, 
to law enforcement. In some States, to both. And, some States require a 
written report while others only require a verbal report. Additionally, 
not all States clarify whether reporting abuse to one's supervisor 
discharges one's own duty to report. This guessing game regarding the 
process of reporting is a significant barrier to the proper reporting 
of child sexual abuse.
    Because children who are sexually abused are generally victimized 
by those that they trust and love, they are reluctant to disclose that 
abuse. Two out of every three individuals who say that they were abused 
as children never told anyone. Too often, the shame of abuse which 
should belong solely to the offender is felt powerfully by the victim. 
And, no child wants a beloved coach, or youth minister, or family 
friend to get in trouble. Knowing that children are reluctant to report 
abuse makes it incumbent upon us all to both educate children about 
body safety and to assume the primary responsibility for identifying 
abuse. Child sexual abuse is a grown-up problem.
    Understanding that, in order for children to tell about abuse, they 
must first have facts about child sexual abuse and body safety, 
Children's Advocacy Centers have been at the forefront of providing 
this important information. Last year, Children's Advocacy Centers in 
the United States provided child abuse prevention education to more 
than 389,000 children, mostly in a school setting. And a handful of 
innovative States have passed Erin's Law, a law promulgated by an adult 
survivor of child sexual abuse who was treated through a Children's 
Advocacy Center in Illinois, which mandates that schools provide child 
abuse prevention and body safety information to students just as they 
address other childhood safety issues such as fire and tornado drills. 
Congress should mandate that schools receiving Department of Education 
funds contain such information in their student health curricula.
    Perhaps the most common question lately has been ``Why do those who 
suspect or know about abuse fail to report it?'' A recent national poll 
of American adults found that while 95 percent expressed concern about 
abuse:

    <bullet> When actually confronted with suspected abuse, only \1/3\ 
contacted law enforcement, CPS, or other authorities;
    <bullet> Additionally, more than one in four Americans said that 
they had been in situations where they suspected a child had been a 
victim of abuse but did not know what to do.

    When asked WHY they took no action, respondents said that they did 
not know the signs of abuse (or were not confident in their knowledge), 
were uncertain about how to report abuse, and were afraid of the 
consequences or misunderstood what would happen when they reported. 
This ``Bystander Action Gap'' between the 97 percent of Americans that 
say that everyone has a responsibility to prevent child abuse and 
protect children and the 33 percent who say that people are reluctant 
to report suspected cases because they do not want to get involved,\12\ 
is both at the heart of recent events and the greatest barrier to 
protecting children.
---------------------------------------------------------------------------
    \12\ Penn, Schoen, & Berland Associates (2008). Bystanders and 
Child Abuse Survey. Safe Horizon--Hope Shining. http://
www.hopeshining.org/files/Bystanders_and_Child_Abuse.pdf.
---------------------------------------------------------------------------
    Just as the Federal Government has played a vital role in public 
education campaigns on other health issues such as the dangers of 
smoking, or drunk driving, a public education campaign aimed at all 
adults regarding how to prevent abuse and protect children is 
warranted. This does not necessarily mean that all adults must be 
mandated reporters. Rather, it means that all adults must be provided 
with the information needed to recognize signs of abuse, dispel myths 
about abuse and the reporting process, and inform the public about how 
to report.
 responding to child abuse and the role of children's advocacy centers
    In recent weeks, much attention has been drawn to the problems 
within the child abuse reporting system in the United States. However, 
improvements made to the reporting system will not reduce the incidence 
or impact of child abuse and, in fact, may have perverse effects if 
those improvements are not linked to a strengthened child abuse 
intervention system.
    An increase in informed reports of suspected child abuse and 
neglect is desirable only if we have the ability to adequately 
investigate and prosecute the resulting cases, and to provide 
appropriate treatment to the victims. Flooding the system with ill-
informed reports will only result in overwhelming investigators (both 
Child Protective Services and law enforcement) leading to:

    <bullet> delayed investigations while triaging occurs,
    <bullet> poorer quality investigations as each case receives less 
time and attention; and
    <bullet> personnel shortages in coping with the increased volume.

    Changes with reporting requirements and procedures must be paired 
with the resources to manage the resulting flow of reports.
    Children's Advocacy Centers play a key role in this response. 
Children's Advocacy Centers are child-friendly facilities in which a 
multidisciplinary team comprised of law enforcement, child protective 
services, prosecutors, victim advocates, medical practitioners, and 
mental health professionals convenes and coordinate its efforts to 
investigate and prosecute child abuse cases while protecting children 
and providing needed treatment to victims. Across the United States, 
there are currently 750 Children's Advocacy Centers which together 
served more than 267,000 child victims of abuse in 2010 alone.
    The majority of these Children's Advocacy Centers were founded 
after the passage of the Victims of Child Abuse Act in 1990; which was 
an important part of Congress' efforts to improve the investigation, 
prosecution, and treatment of child abuse. Monies appropriated by 
Congress each year since 1990 have improved the response within 
existing Centers, while aiding the development of new Children's 
Advocacy Centers in areas previously underserved. These dollars, much 
appreciated though modest, have been used to leverage State funding, 
private foundations, and local community donors.
    This investment has yielded significant returns. The model of 
comprehensive care for child abuse victims has significant evidence of 
its efficacy. Independent research has found that child abuse cases 
that are coordinated through a Children's Advocacy Center have:

    <bullet> a shortened length of time to disposition;\13\
---------------------------------------------------------------------------
    \13\ Walsh, W.A., Lippert, T., Cross, T.P., Maurice, D.M. & 
Davison, K.S. (2008). How long to prosecute child sexual abuse for 
community using a children's advocacy center and two comparison 
communities? Child Maltreatment, 13(1), 3-13.
---------------------------------------------------------------------------
    <bullet> increased rates of prosecution;\14\
---------------------------------------------------------------------------
    \14\ Smith, D.W., Witte, T.H., & Fricker-Elhai, A.E. (2006). 
Service outcomes in physical and sexual abuse cases: A comparison of 
child advocacy center-based and standard services. Child Maltreatment, 
11(4), 354-60
---------------------------------------------------------------------------
    <bullet> more satisfaction on the part of child victims and their 
non-offending caregivers;\15\
---------------------------------------------------------------------------
    \15\ Lalayants, M., & Epstein, I. (2005). Evaluating 
multidisciplinary child abuse and neglect teams: a research agenda. 
Child Welfare, 84(4), 433-58.
---------------------------------------------------------------------------
    <bullet> higher levels of service provision for medical 
evaluations;
    <bullet> and increased referrals for mental health treatment than 
non-CAC cases.\16\
---------------------------------------------------------------------------
    \16\ Smith et al. 2006.

    In short, the multidisciplinary team approach has shown that it is 
possible to reduce trauma to child victims of abuse while improving the 
legal outcome of cases and holding offenders accountable. And, at a 
time when financial resources are limited at every level of government, 
Children's Advocacy Centers have been demonstrated to save on average 
over $1,000 per child abuse case compared to non-CAC communities.\17\
---------------------------------------------------------------------------
    \17\ Formby, J., Shadoin, A.L., Shao, L, Magnuson, S.N., & Overman, 
L.B. (2006). Cost-benefit Analysis of community responses to child 
maltreatment: A comparison of communities with and without Child 
Advocacy Centers. (Research Report No. 06-3). Huntsville, AL: National 
Children's Advocacy Center.
---------------------------------------------------------------------------
                      federal budget implications
    Sadly, this effective and efficient response is not available to 
every child sexual abuse victim in the United States. Currently, abused 
children in 2,093 counties in the United States have access to the 
services of a Children's Advocacy Center. Meaning that, abused children 
in more than 1,000 counties have no access to this comprehensive care; 
and 347 of those underserved counties are in States with members on 
this subcommittee. Indeed, those areas that are underserved are the 
most rural, most geographically isolated, and the most resource-poor 
parts of our country. But, these children are not simply Maine's 
children, or Texas' children, or Colorado's children: they are 
America's children. And, an accident of geography should not prevent 
them from humane and compassionate care that can alleviate their 
suffering. Moreover, while Federal support continues to aid existing 
Children's Advocacy Centers, fiscal year 2011 will serve as the first 
year since the inception of the Victims of Child Abuse Act in which 
communities with the will and desire to better serve child abuse 
victims through the formation of a Children's Advocacy Center will have 
no Federal support in doing so. In these areas in particular, increased 
reporting will not result in increased protection of children unless 
efforts to improve child abuse reporting are matched with resources to 
ensure a corresponding and proven response.
    Beyond reporting and intervention services, Children's Advocacy 
Centers have a unique role in providing training to their 
multidisciplinary team members. In the first 6 months of 2010, more 
than 20,000 law enforcement officers, child protective services 
workers, mental health providers, prosecutors, victim advocates, and 
mental health professionals received training through or coordinated by 
their local Children's Advocacy Center. Investigating, prosecuting, and 
treating child abuse is complex and specialized work. It requires 
highly trained professionals and ready access to continuing education 
for those professionals. Because 98 percent of child abuse 
investigations and prosecutions occur at the State/local level, 
training resources using Federal funds should likewise be driven down 
to this level. Misalignments between the allocation of Federal funding 
for provision of training and technical assistance resources and the 
proportion of child abuse cases investigated and prosecuted at the 
local, State, and Federal levels should be avoided and corrected where 
they occur.
    The past two Federal budget years have forced increasingly 
difficult choices on Congress and the Administration. However, recent 
substantive cuts to State and local law enforcement will unquestionably 
and significantly impact the ability of those entities to respond to 
child abuse cases. Reports from the States indicate that many law 
enforcement organizations already have hiring freezes, have had 
layoffs, or have disbanded specialized units responding to crimes 
against children.\18\ Additional decreases in Federal support for State 
and local law enforcement would further reduce the ability of those 
strained organizations to effectively investigate and prosecute the 
existing annual caseload of child abuse cases. Such decreases, 
particularly if combined with increased child abuse reporting 
requirements, would create an influx of new cases without adequate 
resources--a perfect storm, if you will, in which children who have 
already been victimized will be cast adrift in the system.
---------------------------------------------------------------------------
    \18\ International Association of Chiefs of Police. (2011). Police 
Chiefs: Budget Cuts, Increased Demands Leave Law Enforcement Struggling 
To Protect Public Safety [Press release]. Retrieved from http://
www.theiacp.org/About/WhatsNew/tabid/459/Default.aspx?id=1434&v=1.
---------------------------------------------------------------------------
  low cost improvements can be made to the child abuse response system
    While constraints on budgets at every governmental level have 
strained the system of response to child abuse, it is important to 
remember that a number of improvements could be made to the system at 
little cost. These improvements center around assessing the scope of 
the problem, modifying confidentiality laws, and the adoption of model 
protocols for child abuse response.
    Currently, it is impossible to fully assess the scope of child 
abuse in the United States generally, and child sexual abuse, 
specifically given the current reporting system. States, through their 
Child Protective Services agencies, are required to report to the 
Federal Government using the National Child Abuse and Neglect Data 
System (``NCANDS''). However, NCANDS is a voluntary system. 
Unsurprisingly, given the voluntary nature of it, compliance has been 
uneven. Since 2001, 24 States did not report child abuse and neglect 
numbers for at least one of the years, and some did not report at all. 
Moreover, definitions of child abuse and neglect are not standardized 
making comparisons among and between States unnecessarily difficult. 
The Department of Health and Human Services should standardize 
definitions and methodologies used to collect this data and compliance 
should be mandatory to receive Federal funds.
    Even more problematic is the fact that, NCANDS data does not 
include law enforcement data. Because third-party child abuse (that of 
unrelated individuals, those in a position of trust such as coaches, 
teachers, ministers) is in many States reported exclusively to and 
investigated exclusively by law enforcement, our understanding of the 
extent and nature of third-party abuse is incomplete. And, within the 
information that is collected, our access to statistics pertaining 
specifically to child sexual abuse is limited. National Uniform Crime 
Statistics, required to be reported by local and State law enforcement 
and collated by the FBI, does not break out crimes against children. 
This means that child sexual abuse that does not fit within the 
category of forcible rape is not captured at all and that any child 
abuse that is included cannot be segregated out for further study. The 
National Uniform Crime Statistics reporting form should be modified to 
capture child sexual abuse separately from adult sexual assault and 
rape, and State and local law enforcement should be rapidly 
transitioned to the new form. Without a clear understanding of all 
forms of child sexual abuse, both intra-familial and extra-familial, it 
will remain challenging to devise effective prevention and intervention 
strategies.
    For policymakers to better understand child sexual abuse, we will 
also need to re-examine and modify existing laws governing 
confidentiality. CAPTA contains provisions \19\ for information-sharing 
between law enforcement and Child Protective Services during the course 
of child abuse investigations. However, implementation of this 
provision has been uneven, sporadic, and in some cases, non-existent. 
Moreover, best practices models clearly indicate that the improvement 
of child abuse investigations requires sharing of information not only 
between law enforcement and Child Protective Services but also between 
and among all members of the multidisciplinary team. CAPTA should be 
modified to clarify that all members of the multidisciplinary team 
involved in a child abuse investigation may share information to 
further the investigation, protect the child, and provide appropriate 
treatment to the child. Moreover, while HIPAA contains a child abuse 
investigation exemption to restrictions on the sharing of medical 
information, it is unclear as to whether this extends to ongoing 
treatment. Congress should modify HIPAA to ensure that child victims of 
abuse receive appropriate medical and mental health care that is 
informed by all the expertise of the multidisciplinary team.
---------------------------------------------------------------------------
    \19\ Child Abuse Prevention and Treatment Act, Section 106.
---------------------------------------------------------------------------
    Every jurisdiction with a Children's Advocacy Center contains one 
or more multidisciplinary teams working under a protocol that ensures 
close coordination between members of the multidisciplinary team and 
civil and criminal legal proceedings. However, those jurisdictions 
without access to a Children's Advocacy Center rarely operate under 
such a written and signed protocol, leading to disjointed 
investigations and counterproductive interventions. The Federal 
Government, led by the Departments of Justice and Health and Human 
Services, and in cooperation with States, should adopt a model protocol 
for assuring that civil and criminal legal proceedings are closely 
coordinated between child protection and law enforcement agencies, 
formally recognizing existing protocols in areas that already have them 
and requiring the institution of such protocols in areas that do not.
            mental health treatment for child abuse victims
    While investigation of child abuse is important to the safety of 
victims and the accountability of offenders, it also serves as a 
gateway to services for victims. Research indicates that the best long-
term predictor of child well-being following child sexual abuse isn't 
the outcome of the legal case, but rather the support and treatment 
that the victim receives. Whether any non-offending caregivers are 
supportive and whether successful trauma-focused mental health 
treatment is provided, are far more determinative of outcome than are 
legal rulings.
    Child sexual abuse has well-documented life-long effects. Victims 
of child sexual abuse are more likely than their non-abused 
counterparts to become pregnant as teens, to drop out of high school, 
to abuse substances such as alcohol and drugs, to engage in self-
destructive and risk-taking behavior, and to experience anxiety and 
depression. As adults, these individuals have increased morbidity and 
mortality, suffering from a host of physical and mental ailments at 
higher rates than their non-abused peers.\20\ Moreover, their own 
children are more likely to suffer sexual abuse during the course of 
their lifetimes than other children. This is truly the saddest possible 
cycle of abuse.\21\
---------------------------------------------------------------------------
    \20\ Dube, S.R., Anda, R.F., Whitfield, C.L., Brown, D.W., Felitti, 
V.J., Dong, M., Giles, W.H. (2005). Long-term consequences of childhood 
sexual abuse by gender of victim. American Journal of Preventive 
Medicine, 28 (5), PP. 430-438.
    \21\ Penelope K. Trickett, Jennie G. Noll and Frank W. Putnam 
(2011). The impact of sexual abuse on female development: Lessons from 
a multigenerational, longitudinal research study. Development and 
Psychopathology, 23 , PP. 453-476 doi:10.1017/S0954579411000174.
---------------------------------------------------------------------------
    This host of maladies is the result of the trauma caused by abuse. 
Child abuse victims experience rates of trauma symptoms (hyper-arousal, 
fear, sleep disturbances, anxiety, depression) at rates verging on 
those experienced by war veterans. Because the nature of child sexual 
abuse is such that it often involves repeated episodes, sustained over 
a long period of time, and is often coupled with other forms of abuse, 
these child victims sustain complex trauma symptoms. Child victims of 
abuse, and others who suffer from complex trauma symptoms, are more 
likely to perform poorly in school, have behavior problems at home, and 
have poor mental and physical health.
    Fortunately, much has been learned over the past 15 years about 
successfully treating trauma in children. Congress established the 
National Child Traumatic Stress Network in 2001 to collect data about, 
create and test treatments for, and disseminate training and tools for 
successful treatment of, children who had been traumatized. As a 
result, we now know that some treatments formerly thought to be 
effective with this population are, in fact, not. And, more 
importantly, we also know about evidence-supported mental health 
treatments that are effective. Evidence-supported, trauma-focused 
mental health treatment has been shown to be remarkably effective in 
reducing trauma symptoms in child victims and helping them begin to 
heal. Randomized controlled trials, the ``gold standard'' for clinical 
testing, has shown that children who complete a course of trauma-
focused, evidence-supported mental health treatment show marked 
reduction in trauma symptoms, increased ability to cope with trauma 
reminders, and significantly improved functioning at home and school. 
Every child who has been the victim of abuse deserves to be assessed to 
see if they would benefit from such treatment, and if so, to have it 
provided to them promptly.
    Abused children served within Children's Advocacy Centers have 
access to such trauma-focused, evidence-supported mental health 
treatment. National Children's Alliance and the National Child 
Traumatic Stress Network have partnered to disseminate training and 
resources to directors of Children's Advocacy Centers and to the 
clinicians to whom they refer. For the 267,000 children served within 
Children's Advocacy Centers last year there is no doubt that the care 
they received was improved and suffering they experienced was reduced 
for having had access to such treatment. However, the future of 
training for such treatment, as well as resource development, is 
threatened. Appropriations are yet to be finalized for this critical 
network for fiscal year 2012. And while the Senate has recommended 
level funding in order to maintain this critical work on behalf of 
children who have suffered trauma, the House has recommended a 
reduction so dramatic it would virtually eliminate the network 
altogether. Children who have been abused depend on proven mental 
health treatments on their path to recovery and healing. From a social 
responsibility standpoint, if we have failed collectively to protect 
these children from harm, the least we can do is to help restore them 
to wholeness. From a purely economic standpoint, if we invest in their 
treatment now, we will save ourselves from having to pay for the costs 
of their compromised physical and emotional health later. We call on 
Congress to assist child victims of abuse by continuing to provide 
access to such treatment, and trained clinicians, through this vital 
network.
                               in summary
    Child sexual abuse is a far too common experience for America's 
children. In 2010, 9 percent of substantiated child abuse cases were 
sexual abuse. However, it is difficult to know the full scope of the 
problem. NCANDS data regarding substantiated child sexual abuse cases 
only contains data collected from Child Protective Services. In many 
States, extra-familial and third-party abuse cases are investigated 
solely by law enforcement. Their data is not captured by NCANDS nor by 
the Uniform Crime Statistics Report. So, cases involving adults in a 
position of trust are rarely captured in these official reports making 
it difficult to create effective prevention and intervention 
strategies. Moreover, all such data collection efforts undercount child 
sexual abuse because studies have consistently shown that \2/3\ of 
individuals who report they were abused as children never told anyone 
during their childhood. This not only impacts the accuracy of 
prevalence data and our understanding of the scope of the problem, but 
also points to the importance of prevention activities.
    And, child sexual abuse is preventable. More than 2 decades of 
research reflects the effectiveness of child sexual abuse prevention 
and body safety information for children. Last year alone, Children's 
Advocacy Centers, provided such information to more than 389,000 
children. However, all school-aged U.S. children should have access to 
this information. Ultimately, though, the responsibility for preventing 
child sexual abuse falls not on children to protect themselves but on 
adults to protect them from harm.
    When adults suspect abuse, or when children disclose abuse, there 
are often barriers to reporting that abuse. While CAPTA requires that 
all States have reporting processes and procedures, these vary widely. 
Who must make a report, how that report is made, and to whom varies by 
State. Lack of certainty about the signs of abuse, how to make a 
report, and what will happen once a report is made are the leading 
causes of inaction or failure to report in cases of suspected or known 
abuse. However, a public education campaign to educate all adults on 
the signs of abuse and how to report could greatly reduce confusion and 
enhance public safety. More and better training for mandated reporters 
is essential to better protecting children.
    However, increased public education campaigns and mandated reporter 
training will result in an increased number of informed child abuse 
reports. To avoid flooding the system with reports that exceed the 
ability of investigating agencies to respond, resources available to 
law enforcement and Child Protective Services must be commensurate to 
the increased volume of reports. One of the most effective response 
systems is available through Children's Advocacy Centers. There are 
more than 750 such centers throughout the United States that have been 
proven to be cost-efficient in coordinating the investigation, 
prosecution, and protection of children while ensuring that child 
victims of abuse receive effective treatment. However, there are still 
more than 1,000 counties in the United States that lack access to this 
response. Moreover, while investigation and prosecution of child abuse 
cases is important in holding offenders accountable and enhancing 
community safety, this alone is not sufficient to help victims heal. 
Victims require trauma-focused, evidence-supported mental health 
treatment in order to heal. Those child victims that complete treatment 
experience a significant reduction in trauma symptoms, have fewer 
behavior problems at school and home, and experience less depression 
and anxiety than those without such treatment.
    It is our collective social responsibility to protect children from 
abuse. And, when that fails, to report it and ensure that victims 
receive the services they need to heal and lead healthy and productive 
lives. The health and well-being of our Nation's children depend upon 
it.
    Thank you.

    Senator Mikulski. Senator Burr.
    Senator Burr. Ms. Huizar, let me follow up, if I can, to 
devise an effective prevention and intervention strategy, and 
to know how best to direct resources, it is important that we 
know the full scope of the problem of sexual abuse in children.
    What is needed to improve the current data collection and 
reporting across child protective services and law enforcement, 
for us to glean the data that we need to make the right 
decisions?
    Ms. Huizar. I am so glad you asked that, Senator Burr, 
because I think this is really at the heart of understanding 
the problem of child sexual abuse.
    Currently, the data that is turned in by State child 
protective services, we call NCAN's data, and that does not 
include information from law enforcement. And in many States, 
law enforcement are the only individuals that investigate third 
party abuse. That is, abuse that occurs by individuals outside 
the family in and of itself. And so this absence of information 
does not allow us to really understand the scope of the 
problem.
    Secondarily, the uniform crime statistics forum also, which 
is data that law enforcement turn into the FBI, does not 
segregate out abuse against children or any crimes against 
children. So it is swept into these large, broad categories 
making it impossible to study.
    One low-cost solution to this problem, from my estimation, 
is asking law enforcement to break apart the data about crimes 
against children versus the same crimes against adults, and to 
add that to the CPS collected data, so that we have a fuller, 
richer understanding of the problem.
    Senator Burr. Thank you for that.
    Miss Sutton, on the ground and working with kids who have 
been abused, can you talk more about the confidentiality 
restrictions that CAPTA and HIPAA both cause children victims 
not to get the best of or maybe the most informed assistance 
that they need? Or do we have restrictions in CAPTA and in 
HIPAA that do not allow that information sharing that we need?
    Ms. Sutton. Senator Burr, the confidentiality statutes in 
CAPTA are, of course as you know, intended to protect the 
identity of people who are abused and neglected. Although there 
is provision that allows States to authorize disclosure to 
other entities that may need the information in order to do 
this work with children. I am not sure how many States have 
actually gone so far as to pass that.
    Where we also see issues is with respect to HIPAA and 
sharing information back and forth between child protective 
service agencies, healthcare agencies.
    Another Federal confidentiality statute I would direct your 
attention to is the Federal Education, FERPA, the Federal 
Education Confidentiality statute because we often hear of the 
difficulty trying to get information between education systems 
and child protection and other service providers. And we 
absolutely need to be talking together because when we do have 
kids in care, it is our responsibility to make sure that they 
have good education outcomes as well.
    Senator Burr. I want to thank the Chairman for designing 
the hearing the way she did, where we talked about the 
detection of abuses and now the treatments that are necessary.
    I hope everybody heard exactly what was said, because we 
have some stovepipes; stovepipes between law enforcement and 
child protective services. Stovepipes within that, limit our 
ability to share the vital medical information with those who 
are making decisions about intervention. And I would suggest 
that all of those contribute to maybe not the best decisions 
about prevention.
    So I hope that the Chair will work with me. I know she will 
as with other members, and help where we can modify those 
possibly, and not wait for all the States to figure out how 
they can waiver those current requirements.
    I thank the Chair.
    Senator Mikulski. Excellent comments.
    Senator Casey.
    Senator Casey. Thank you, Madam Chair.
    Doctor, I would like to start with you and ask you a couple 
of questions, one that relates directly to your testimony.
    First with regard to education and training, you made that 
a central part of your written testimony as well as your 
presentation. You also talked about the chronic underfunding of 
the Child Abuse Prevention and Treatment Act, so called CAPTA.
    I wanted to go back to your written testimony about 
prevention. You go into some length in providing some examples 
of strategies to implement a stronger prevention program. Can 
you walk through some of those strategies?
    Dr. Block. Yes, Senator. Thank you.
    I think that prevention is still an area that we are 
learning about as we go, sometimes by trial and error. It is 
very difficult to collect evidence across broad populations to 
really demonstrate that a certain program works.
    I think in the area of child sexual abuse, which has been a 
central focus of the hearing, we are trying to do two things. 
And by ``we,'' I mean everyone involved, not just the 
physicians.
    What we are doing is trying to educate children about the 
privacy of their minds and bodies. But more importantly, since 
relying on them to protect themselves is not the way to go. We 
are trying to teach adults in two ways. No. 1, to make them 
aware that this problem exists. One of our big problems is 
nobody wants to talk about child abuse. Nobody wants to admit 
that this society allows this to happen at the rate at which it 
is happening.
    So we have to continue open hearings such as this in order 
to emphasize the fact that leaders recognize that this is an 
issue, not only for our children but as I mentioned, for the 
adults they will become later on.
    We need to train adults to recognize what might be abuse, 
and that requires some pretty careful education because we also 
need them to understand what is not abuse.
    As an example, I remember now that at the end of every day, 
my third grade teachers, Miss Passino bless her heart, gave 
each of us a hug as we left the classroom. That would be held 
in question today, and yet her hug was in no way predatory or 
abusive. It was a signal and a bodily touch that we know is 
part of communicating between adults and other adults, as well 
as adults and children. So we need to define these kinds of 
things so we do not end up by making mandatory reporters 
reporting things that are not abuse.
    How do we then reach people to educate them about that is a 
major question, and there are programs that are around the 
country aimed at anybody who will come to some sessions to 
understand how they, as adults, can protect children just by 
some common sense things.
    For example, if you are the last teacher to leave the 
school in the afternoon after perhaps some teacher conferences 
or a meeting, and there is, I do not want to pick on one 
person, so a janitor or a coach or another teacher, who is 
still in the building and there is a little girl sitting on the 
steps waiting for her late parent to pick her up. It is 
probably a good idea not to leave the building. You perhaps sit 
down next to her and wait an extra 5 minutes or help her call 
for assistance.
    That does not mean that you are suspecting everyone around 
you as abusive. It just means it is a good idea to be alert to 
possible situations. So it is a longwinded answer, Senator, but 
I think that when we are talking about prevention efforts, we 
look for some things that work.
    In physical abuse, one of our biggest problems is abusive 
head trauma, the shaken baby syndrome. And we know through the 
period of purple crying program and some other programs, that 
if we can educate parents to the normalcy of their infant 
crying, to the fact that they are not bad parents if their 
infant does not quiet when they ask them to, that we protect 
those babies from people losing their temper and inflicting 
harm on their children.
    So that might be a couple of examples.
    Senator Casey. And then finally with regard to training, 
you focused in particular on mandated reporters. Can you talk a 
little bit about that, the best approach there? One of the 
problems we have is not just the debate about who is the 
mandated reporter, but that the definition should be broadened. 
I think it should. But even mandated reporters, not having 
enough training and experience, people that we ascribe 
experience and knowledge to, and expertise to, that may not 
have the proper training.
    Dr. Block. I come from a State, Oklahoma, that does have 
mandatory reporting for everyone way at the end of the law, 
which does mention teachers, and health professionals, and 
others as mandatory reporters, but also says, ``and every other 
citizen.'' I think that is a good idea.
    On the other hand, it is important for us to acknowledge 
that even among my fellow physicians, we do not always report 
abuse the way it should be reported. And some of the reasons 
for that are unique to us, particularly in medical liability 
issues, and now that has expanded into civil rights litigation. 
So we definitely need protection for reporters, not only for 
making a report, but then perhaps participating in the process 
later on if a case goes on to prosecution or some other 
adjudication.
    We need to, as I mentioned, help people understand: what is 
child abuse? What does it look like? What does it sound like? 
What do you do when you suspect it is happening? And how can 
you work through our various disciplines to create an 
interdisciplinary approach because when I talk to physicians, 
one of the leading reasons that if they have a suspicious case, 
they are not quick to report is that they have concerns about 
the system. What will happen in their particular locale with 
children's protective services availability in working the 
case? What will happen with prosecution? And what will happen 
to them in terms of their time that will be taken, not only in 
making the report, but in the follow up?
    We can take care of that within the medical profession if 
we can continue to create the talent wherein our subspecialty 
can be available to medical schools and to communities that 
help teach about that. And we need to learn how to work 
together across disciplines. We are doing a good job of that.
    I think right now that children's advocacy centers are 
playing a leading role in that, but we can do better. We need 
to be able to have more opportunity to teach each other about 
what our disciplines are all about, and we need to learn to 
hold each other accountable for our piece of the puzzle.
    Senator Casey. Thank you.
    Senator Mikulski. First, I want to thank all three of you 
for your testimony, and the organizations you represent, and 
the professionals that you represent.
    I have about four questions, but the first one is about 
deterrence. And I just need a short answer on this and because 
the others will be longer policy questions.
    There is this whole belief that mandatory reporting acts as 
a deterrent to people who are predators, that if they fear 
discovery through others who would turn them in or report them, 
that that acts as a deterrent or a chilling effect on abusive 
behavior.
    I wonder if you believe or if the data demonstrates that 
mandatory reporting, which I happen to be an advocate of, 
actually is a deterrence. Let us go down the line. Miss Sutton, 
what do you think?
    Ms. Sutton. To be honest, I never thought of it in that 
perspective as a deterrence. I think all too often the 
predatory offenders that we are talking about are not thinking 
about mandated reporting.
    I do think that mandated reporting, over the years, has 
provided a tremendous amount of education across our country 
since CAPTA was first passed in 1974. And in that respect, it 
has made us all much more aware of abuse and neglect, and 
hopefully that has resulted in the prevention as well.
    Senator Mikulski. Dr. Block.
    Dr. Block. I think mandatory reporting itself is not a 
primary deterrent, but it is a secondary deterrent because if 
we have people reporting what they suspect, then we are going 
to avoid the second, third, fourth, tenth, twentieth episode. 
Particularly in sexual abuse, predators do not limit themselves 
to one victim, unless it is within the family and they only 
have access to one victim.
    So I think it is the yes and no. No, it is not a primary 
deterrent, but yes, it is very important to getting things 
stopped before it gets even more out of hand.
    Ms. Huizar. And I would completely concur with what Dr. 
Block's opinion is about that.
    Senator Mikulski. So now the question is: who should 
report? We have kind of a consensus on the so-called mandated 
reporter reporting, but then what is the next circle out, all 
the way to anybody who sees something, do something. See 
something, say something. We are contemplating in our 
legislative work here expanding reporting to everybody and 
asking States, then, to develop legislation to implement that.
    Do you think we should keep it limited and do concentrated 
training? Do you think we should expand it to everybody? Do you 
think we should include everybody but do extensive education 
and training to those who need certification and licensing 
because of their access to a child the way Mr. Cervone did and 
at least, we have a core group of people? Miss Sutton, what do 
you think?
    Ms. Sutton. Senator.
    Senator Mikulski. Who do you think we should require to 
report?
    Ms. Sutton. I think I would tend to agree with testimony by 
Mr. Cervone with respect to research. I would like to know more 
about those States where everyone is required to report. In 
Minnesota, we require certain professionals, but encourage 
everyone to report.
    I am concerned about seeing an increase in false reports as 
well as what the impact may be on the system, and our capacity 
to respond. Without an increase in the ability to respond to 
more reports, I would be concerned that we would----
    Senator Mikulski. And could flood the system and not get to 
the kids that really need it the most and could be in danger.
    Ms. Sutton. Absolutely.
    Senator Mikulski. Dr. Block.
    Dr. Block. Yes, Senator, I agree with her comments and with 
yours as well. We have a system already in child welfare that 
is totally overburdened.
    Full disclosure. I have a daughter who survived 4 years as 
a permanency placement worker working with children in foster 
care, with a caseload that should have been 24 children, it was 
53.
    Senator Mikulski. Right.
    Senator Block. With an on-call that was constant, including 
a call as she was on the turnpike from Oklahoma City to Tulsa 
on the night of her wedding rehearsal dinner, but that she 
needed to respond to.
    We have to support these programs. We have, at any given 
time, 50, 60, 70 percent of workers in the field who are in 
their first year of experience. So even though we invest in 
training them, if they cannot survive the system, then we have 
not gotten a good return on our investment.
    So yes, I do think we can encourage everyone to be 
reporters, but we have to shore up the system first and then we 
need to educate them, to minimize reports that really are 
minimal kinds of observations that we are concerned about.
    Senator Mikulski. So there is the required excellent 
language which requires a certain body or population, but then 
encourage the rest of the population on what to do.
    I think Dr. Block, you just made an important point which 
is if you are going to do this work, and those who are child 
protective workers who are in subspecialties such as yours, 
sir, they themselves need not only education and training, but 
ongoing support because of what they see and experience to 
prevent burnout and the excessive burden.
    The fear, I just recall from myself, I bet you did too, 
that if you goofed in your assessments somebody could die, or 
be so damaged as to be permanently disabled all of their life. 
I mean, fear of screwing up among professionals doing this 
service is pretty significant.
    Miss Huizar, I think you oversee that, so tell me who you 
think should report? Do you agree with this kind of support 
that needs to go to those who are charged with these 
responsibilities?
    Ms. Huizar. Certainly. I think that all adults should, of 
course, know the signs of abuse and be encouraged to report, 
and know how to go about doing that. And I think that anyone 
that has professional contact with children should be legally 
required to do so. And I think that it is important to start 
with training and then move onto expansion of reporting 
requirements as opposed to the other way around.
    In other words, if we spread the word about these things to 
the largest body of individuals first, then you can phase in, 
based on research that you do, other groups that you might like 
to additionally be legally required to report. But in the 
absence of that research and in the absence of training, I 
think those would be problematic.
    I also think that any increase in expanding the circle of 
those that are legally required to report absolutely has to be 
paired with increased resources. Increased resources for State 
and local law enforcement since most of these are not going to 
be prosecuted or investigated. Federally increase resources in 
terms of treatment, in terms of both medical treatment and 
mental health treatment, and the services of children's 
advocacy centers.
    Senator Mikulski. Now that takes me to who should 
investigate? You know, if you are going to report, all of the 
things that emerge from reporting is the hesitancy of people to 
report because, first, they either do not know where they go. 
Second, they do not want to be mixed up, or they think, ``I 
really don't want to go to the cops about this.'' And I do not 
use that--I use that in the best sense of the word.
    And I think you, as professionals, would agree the 
investigation that a child protective service worker does, the 
inquiry that a physician or a nurse practitioner does, etc, is 
very different than law enforcement that is gathering evidence 
for the commission of a crime, where you are trying to gather 
information for the protection of the child; two different 
things.
    So my question goes that if we have mandatory requirements 
knowing that child abuse is a crime. I do not minimize that. 
But should the first line of reporting be child protective 
services, or should we go directly to the cops and the cops get 
the children to protective services?
    Miss Sutton, you run a pretty big agency.
    Ms. Sutton. In Minnesota, our law requires that there be 
cross reporting within 24 hours.
    Senator Mikulski. Cross reporting.
    Ms. Sutton. Cross reporting.
    Senator Mikulski. Could you say what that is, ma'am?
    Ms. Sutton. Yes, a person can choose to report to law 
enforcement or to child protection. They are required to report 
to each other within 24 hours. And then if the allegation 
involves a violation of a criminal statute, then generally what 
would happen, there would be a joint investigation by law 
enforcement and the agency; the cops doing their role and the 
agency doing their fact gathering to look at service plans and 
delivery.
    In certain circumstances, law enforcement may ask child 
protection not to do an assessment if there would be something 
that could have interfered with the law enforcement 
investigation. But they do try to go hand-in-hand.
    Senator Mikulski. But if you are going to report, you get 
to choose which one you do.
    Ms. Sutton. Yes.
    Senator Mikulski. But you feel comfortable that you know 
about it, but then they talk to each other.
    Ms. Sutton. Yes.
    Senator Mikulski. And because they are highly trained, 
which is bucks and people.
    Ms. Sutton. Right.
    Senator Mikulski. We cannot forget that there is no cost to 
what we are talking about here.
    Ms. Sutton. Right.
    Senator Mikulski. And then they get training on what is the 
best way to proceed in the interest of the child. Is that the 
foremost question in their mind?
    Ms. Sutton. Yes.
    Senator Mikulski. The interest of the child or the interest 
in the case? It is a different thing than something called 
``the case''.
    Ms. Sutton. I think the interest is first in assuring 
whether a child is safe, and then, once we can assure that a 
child is safe, doing the investigation or assessment of what 
has occurred.
    Also for us, it was really distinguishing between those 
situations that may involve criminal actions toward children 
and those situations where families are just struggling to take 
care of their children. And having that appear to the 
investigative approach was not serving those families well. So 
we needed to develop a balance of both so that we could respond 
most appropriately given the particular situation that came to 
our attention.
    Senator Mikulski. Dr. Block.
    Dr. Block. In our center, we have all the disciplines 
housed under one roof including medicine and all the other 
components. So we are able to----
    Senator Mikulski. But is that rare, or is that usual and 
customary?
    Dr. Block. I think within child advocacy centers, it is 
becoming more and more customary.
    Senator Mikulski. Within the child advocacy centers.
    Dr. Block. Right.
    Senator Mikulski. But they are limited in number, true?
    Dr. Block. Very true, because the example I want to give 
is, I think an optimal way to approach that because regardless 
of who has received the report, that report comes to the 
multidisciplinary team. It is quickly discussed in order to 
figure out who should be doing what, including which children 
need more extensive medical evaluations, which children need 
law enforcement investigation, and what have you.
    I think that the interdisciplinary--by supporting 
interdisciplinary centers, interdisciplinary teams, whether 
they be housed in communities, or at children's hospitals, or 
wherever it might be a solution.
    Senator Mikulski. Right. Miss Huizar.
    Ms. Huizar. I certainly agree that every single child 
sexual abuse case should be investigated by a multidisciplinary 
team. I think each brings unique aspects to that investigation, 
weighing in on what is going on criminally with that, as well 
as what is going to go on to protect the child, and insuring 
that simultaneously they are getting treatment.
    I think that Tennessee has a nice example in which the way 
that child abuse reports come in. When they come in through CPS 
and also there is cross reporting, so they are immediately 
going to law enforcement. They also pop up for all the 
children's advocacy centers in the State in NCA track which is 
case tracking database which ensures that the case does not 
fall through the cracks.
    So if the children's advocacy centers gets one of these 
reports, and they do not see that kid within a day or two, it 
gives them the ability to call law enforcement or child 
protective services and say, ``Whatever happened to John Smith? 
I saw his case come in and it is one that should have been 
screened in to the children's advocacy center, and we have not 
seen that child yet.''
    I think there are some States who are doing some innovative 
things about that, and if we could broaden that sort of 
response, it would be very helpful.
    Senator Mikulski. Thank you. We also have to sort out here 
legislatively. Are we talking about mandatory reporting, 
encouraging reporting for child maltreatment? Because, 
literally, we talk about different categories, one is neglect.
    Now, back in my day and from what I understand from 
discussing it with child protective agencies, the data says 
that the majority of people who come to the attention of child 
protective services are those who are not showing up in school. 
They do not seem like they have had a good meal. Do they need 
to see a dentist? Like we had a little, etc. But that is 
different than a battered child.
    Then there is a whole other where there is physical abuse, 
often that shows up either in the classroom, the battered child 
Dr. Block spoke about, the purple crying, the shaking, etc. But 
then there is, I will call it, we called it, the ``B'' words, 
the battered, bruised, burned, broken. That usually comes into 
medicine in some way.
    One is that reporting, and then the third often is 
psychological. The child locked in a closet. There is no 
evidence of physical abuse or just other kinds of horrific 
things I do not want to elaborate on, but you could give 
examples. Then there is sexual abuse.
    Now those are different things, and they do not all happen 
to the same child. The neglected child might have loving 
parents, who is a single mother who is living out of a car, and 
needs other kinds of intervention. The battered child is 
obviously in physical and immediate and constant danger. The 
sexual abuse is a different issue.
    Do you think we should have one-size-fits-all mandatory 
reporting? Do you think it should be targeted in-home or in 
particular areas? Or are we just creating too much law that 
will create too much bureaucracy and, once again, our fear for 
the child that could fall between the cracks where a cry for 
help will not be attended to?
    Miss Sutton.
    Ms. Sutton. Senator, I would suggest that making the 
reporting itself as simple as possible so people know what to 
report and where to report it and that they----
    Senator Mikulski. They will parse it.
    Ms. Sutton. And they will parcel it out, but make sure 
people know that they should report child neglect, physical 
abuse, sexual abuse, emotional injury, and threatened injury 
which is what CAPTA historically has covered. And then give the 
flexibility and the ability of the systems working together--
and I mean that across systems, the medical community, child 
advocacy, as well as child protective services--to look at what 
is the most appropriate intervention based on the assessment of 
those individual circumstances.
    I think that is one of the hardest lessons that we learned 
in Minnesota was one-size-did-not-fit-all. We were creating 
more damage and trauma by trying to do that, so that we needed 
to be much more individualized.
    Senator Mikulski. Doctor.
    Dr. Block. One of the things that pediatricians believe 
very strongly in is the patient or family centered medical 
home. In that medical home, not only the physician but other 
professionals working as a healthcare team are going to be able 
to see aberrations in development or in physical appearance, in 
nutrition, whether it is over or under ideal weight.
    So we have places like the medical home, where we can do a 
lot of prevention and a lot of intervention before neglect, 
emotional abuse, and poor parenting--due to lack of 
understanding child development--can occur. Unfortunately, not 
every child has access to those homes, particularly if they are 
supported by Medicaid or if they are not insured whatsoever.
    But I think places like that, places where children come 
regularly. Schools, for example, can be targets of training to 
identify behavioral issues that are not translated into, ``This 
is a bad child.'' But rather translated into, ``Perhaps we 
should look at what is happening in this child's early life.'' 
Those would help us.
    Senator Mikulski. Excellent.
    Ms. Huizar. I do not believe that we can ask mandated 
reporters to be expert screeners or assessors of all the 
responses that should happen after they make a report.
    I am in agreement that keeping that reporting duty simple 
and how they go about that simple is the best way to do that. 
And I think that what happens after that, in terms of 
differential response or other things is critically important.
    For example, we know that while differential response has 
been enormously beneficial in neglect cases and in physical 
abuse cases, it is simply not appropriate in sexual abuse 
cases. So that is not something we should expect a mandated 
reporter to know. That is something that our job as child abuse 
professionals should know.
    Senator Mikulski. Excellent.
    I could sit here and talk all day with you, as you can see. 
I really want to thank each and every one of you for being with 
us today.
    The work that you actually do each and every day to 
prevent, protect, and deter child abuse--we look forward to 
working with you as well as members of the subcommittee, in the 
House and in the Senate, and those who are on the judiciary 
committee--to develop a bipartisan legislative framework to 
address the problems we discussed today.
    There were so many people who wanted to submit testimony. I 
am going to ask for unanimous consent that nine pieces of 
written testimony be submitted to the record.
    [The information referred to may be found in Additional 
Material.]
    Senator Mikulski. I particularly, again, want to thank 
Lauren Book, who was here all day and her advocacy is every 
day, and her testimony will be duly noted.
    Secretary Sebelius sent us testimony. The Baltimore Child 
Abuse Center, the American Psychological Association, the 
Committee for Children, Parents Anonymous, Stop It Now!, 
Darkness to Light, and the Child Welfare League have all 
submitted their testimony.
    We are going to leave the record open for 10 business days 
until December 28 for questions. The Congress, I hope, will be 
recessing. But upon our return, we will be examining all of the 
proposals to see how we move forward.
    Listening to all four of you takes me back so many years 
ago to my own work. And Dr. Block, you and I began in this 
field just about the same time, and the body of knowledge that 
has been developed, and the professional expertise, and all of 
the policy treatment insights has really been stunning.
    I feel that in the audience today were four women who 
believed in me, and helped me get the training I needed to be a 
good social worker. And yet, they were pioneers for their time, 
and they would be so pleased to hear where we have come to 
really protect our children.
    Esther Lazarus, who ran the agency; Mazie Rappaport, who 
was a pioneer in cutting across the red tape; Lisa Benjamin, 
who pioneered new thinking in the protection of children, focus 
on the children, not the bureaucracy; and Melinda Shoemaker, 
who was my trainer, who trained me and encouraged me to go to 
graduate school.
    Those women and all over America, everybody out there that 
are sweating the details, sweating how to do a good job, and 
sweating how they can make sure that our children are safe and 
secure. So we have, now, got to put our sweat equity to the 
wheel and come up with the right policy.
    We look forward to ongoing conversation with you. We thank 
you and we say God bless you for what you do. God bless our 
children and protect them. And God bless America.
    This meeting is adjourned.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

                  Prepared Statement of Senator Bennet

    I want to thank the Chairman and Ranking Member for holding 
this hearing. And I would like to express my deep gratitude to 
the people here, and those who could not be here, who have 
dedicated their lives to protecting children from abuse. You 
have taken child abuse from what was too often a private, 
silent issue towards a broad consensus about our collective 
responsibility to end these tragedies.
    I would especially like to recognize Teresa Huizar's work. 
She is here today as the executive director of National 
Children's Alliance. The Alliance runs Children's Advocacy 
Centers across the United States. Prior to that, Teresa worked 
in Colorado, spending 15 years working on behalf of the 
children there and across our region. She conducted school-
based child abuse prevention programs for over 10,000 students 
during her time there and I would like to welcome her here 
today. She has a wealth of knowledge and expertise to share 
with us.
    There is much work to do to protect children from abuse. 
Too many children still suffer alone with the secret of abuse. 
It is critical that adults have the training and education 
necessary to report suspected abuse, and that there is no 
tolerance for letting it go unaddressed.
    But reporting alone will not solve this problem. Child 
protection services systems are already overwhelmed and under 
resourced. Even substantiated cases too often do not get the 
response and interventions they require. As many of you point 
out in your testimony, we can't raise the incidents of 
reporting without building the capacity of the system to 
respond to the cases.
    Equally important is prevention. Treatment for victims that 
focuses on the trauma they encounter can help break the 
concentric cycles that continue suffering from generation to 
generation. And there are other methods of prevention--home 
visits and education for parents, fingerprinting and background 
checks for individuals who will be working with children, and 
support for families at risk that can prevent incidents before 
they happen. Too often, resources only arrive on the back end, 
addressing the horrible consequences of abuse and neglect after 
the fact.
    I want to thank each of you for being here today and thank 
you for your dedication to keeping our children safe.
 Prepared Statement of Bryan Samuels, Commissioner, Administration on 
  Children, Youth and families, Youth and Families Administration for 
 Children and Families, U.S. Department of Health and Human Services, 
                             Washington, DC
    Chairwoman Mikulski, Ranking Member Burr, and members of the 
subcommittee, thank you for accepting my written testimony for your 
hearing on the issue of child abuse. Recent events have brought much 
attention to this issue, and the Department of Health and Human 
Services (HHS) welcomes this opportunity to address the Federal role of 
HHS in preventing child abuse and neglect, protecting its victims, and 
treating its effects on children and families.
    In my position as Commissioner of the Administration on Children, 
Youth and Families, I am well acquainted with the national scope of 
abuse and neglect and our Nation's response. Prior to joining the 
Administration, I served as the Director of the Illinois Department of 
Children and Family Services from 2003 to 2007, and subsequently as the 
Chief of Staff of the Chicago Public Schools. In these positions, I 
gained a comprehensive understanding of the State role in the 
prevention of maltreatment, the protection of children, and the 
treatment of the impacts of abuse and neglect. In my statement, I will 
provide an overview of a key piece of Federal legislation addressing 
child abuse, the Child Abuse Prevention and Treatment Act (CAPTA), and 
the roles of Federal and State Government in implementing the Act. 
Although there are other statutes related to child abuse and neglect, 
my statement will be restricted to a discussion of CAPTA.
    The Child Abuse Prevention and Treatment Act is a fundamental 
component of Federal legislation related to the prevention of and 
response to child maltreatment perpetrated by caregivers. The Act, 
originally passed in 1974, has been reauthorized and amended several 
times, most recently in December 2010. When enacted, CAPTA was the 
original legislation mandating that States have in place systems for 
reporting, investigating, and responding to abuse.
    As summarized in an overview of the legislation's history produced 
by HHS, ``CAPTA provides Federal funding to States in support of 
prevention, assessment, investigation, prosecution, and treatment 
activities and also provides grants to public agencies and nonprofit 
organizations, including Indian Tribes and Tribal organizations, for 
demonstration programs and projects. Additionally, CAPTA identifies the 
Federal role in supporting research, evaluation, technical assistance, 
and data collection activities; established the Office on Child Abuse 
and Neglect [located in the Children's Bureau in the U.S. Department of 
Health and Human Services]; and mandates [the] Child Welfare 
Information Gateway,'' \1\ a clearinghouse of information about child 
welfare practice.
---------------------------------------------------------------------------
    \1\ Child Welfare Information Gateway (2011). About CAPTA: A 
legislative history. Washington, DC: U.S. Department of Health and 
Human Services, Children's Bureau.
---------------------------------------------------------------------------
    The Act includes a minimum definition of abuse and neglect as 
follows: ``the term `child abuse and neglect' means, at a minimum, any 
recent act or failure to act on the part of a parent or caretaker, 
which results in death, serious physical or emotional harm, sexual 
abuse or exploitation, or an act or failure to act which presents an 
imminent risk of serious harm.'' \2\ States may choose to put forth an 
expanded definition of child abuse and neglect that builds on that 
provided by CAPTA, and the Act's implementation is highly State-
specific. Most States recognize four major types of maltreatment; 
physical abuse; sexual abuse; and emotional abuse or neglect. Other 
types of maltreatment, such as educational or medical neglect, are 
codified in some States. In certain States, exceptions to definitions 
of abuse and neglect are provided to ensure that religious beliefs, 
cultural practices, and financial insecurity in and of themselves do 
not constitute maltreatment.
---------------------------------------------------------------------------
    \2\ The Child Abuse and Treatment Act as amended by P.L. 111-320, 
the CAPTA Reauthorization Act of 2010. Section 3.
---------------------------------------------------------------------------
    According to the basic definition, CAPTA applies specifically to 
cases of child abuse and neglect at the hands of persons with some 
relationship or regular responsibility for a child. States may indicate 
in statute which persons can be reported to child protective services 
as perpetrators of maltreatment.\3\ This generally includes parents, 
guardians, foster parents, relatives, or other caregivers responsible 
for the child's welfare. State definitions range from broad (as in 
Oregon, where ``Responsible person may include any person.'' \4\ to 
narrow (as in Connecticut, where ``Responsible persons include the 
child's parent or guardian.'' \5\ In most States, cases of maltreatment 
perpetrated by strangers, acquaintances, or others not defined in 
statute as persons responsible for the child are classified as assault 
and fall under the jurisdiction of the criminal justice system. For the 
remainder of my testimony, I will address the issue of maltreatment as 
defined by CAPTA.
---------------------------------------------------------------------------
    \3\ The terms ``maltreatment'' and ``abuse and neglect'' are used 
interchangeably throughout this document.
    \4\ Oregon Rev. Stat.  419B.005
    \5\ Connecticut Gen. Stat.  46b-120.
---------------------------------------------------------------------------
    Data reported in this testimony come from the National Child Abuse 
and Neglect Data System (NCANDS), a database to which States 
voluntarily submit information about reported cases of maltreatment on 
an annual basis. Statistics reflected below are drawn from the most 
recent report of this data, Child Maltreatment 2010, released on 
December 8, 2011, which reflects submissions from all 50 States, the 
District of Columbia, and the Commonwealth of Puerto Rico.
                              maltreatment
    In addition to providing information about reports, investigations, 
and services in cases of suspected maltreatment, States furnish data to 
the Federal Government about confirmed instances of abuse and neglect. 
The following table illustrates the most common types of maltreatment 
and the relationship of the perpetrators to the children in question.

           Table 1.--Maltreatment Types and Perpetrators, 2010
------------------------------------------------------------------------
                                               Percent of      No. of
                                              maltreatment  maltreatment
                                                cases \6\       cases
------------------------------------------------------------------------
Type of Maltreatment:
  Neglect...................................          78.3       538,557
  Physical Abuse............................          17.6       121,380
  Sexual Abuse..............................           9.2        63,527
  Psychological Maltreatment................           8.1        55,405
  Medical Neglect...........................           2.4        16,209
  Other/Unknown.............................          10.6        72,910
Perpetrator of Maltreatment:
  Parent \7\................................          81.3       578,821
  Nonparent \8\.............................          13.4        95,757
  Unknown...................................           5.3        37,928
------------------------------------------------------------------------
Data Source: U.S. Department of Health and Human Services,
  Administration for Children and Families, Administration on Children,
  Youth and Families, Children's Bureau. (2011). Child Maltreatment
  2010.

                               reporting
    In order to receive CAPTA funds, States must meet certain 
requirements including the establishment and maintenance of systems for 
the reporting of abuse and neglect. Most States have hotlines that can 
be called to report suspected maltreatment. When a call is made, a 
hotline operator asks the caller a series of questions, according to 
the protocol of the State or jurisdiction, in order to establish the 
details of the referral and determine whether the criteria for an 
investigation have been met. According to the Child Welfare Information 
Gateway, ``In approximately 27 States, cases in which the suspected 
abuse is caused by someone other than a family member, or in which the 
abuse involves sexual abuse or severe injury to the child, are 
considered crimes and must be cross-reported to law enforcement 
agencies for investigation.'' \9\
---------------------------------------------------------------------------
    \6\ A single report may result in the substantiation of multiple, 
co-occurring types of maltreatment.
    \7\ Includes the following categories: Father, father and other, 
mother, mother and other, mother and father.
    \8\ Includes the following categories: Child daycare provider, 
foster parent (female relative), foster parent (male relative), foster 
parent (non-relative), foster parent (unknown relationship), friend and 
neighbor, legal guardian (female), legal guardian (male), more than one 
non-parental perpetrator, other professional, partner of parent 
(female), partner of parent (male), relative (female), relative (male), 
group home staff, other.
    \9\ U.S. Department of Health and Human Services, Administration 
for Children and Families, Administration on Children, Youth and 
Families, Children's Bureau, Child Welfare Information Gateway (2010). 
Cross-Reporting among Responders to Child Abuse and Neglect: Summary of 
State Laws. Available at: www.childwelfare.gov/systemwide/
laws_policies/statutes/xreporting.cfm.
---------------------------------------------------------------------------
    In 2010, approximately 3.3 million referrals of suspected abuse 
pertaining to 6 million children were made in the United States.\10\ 
While many referrals are made by individuals acting purely out of 
concern for a child, the majority are made by people who are required 
by State law to report any suspected maltreatment. As of April 2010, 
mandated reporters in almost all States included those who regularly 
encounter and work with children, such as teachers, child care 
providers, and doctors. Of all referrals received in 2010, 57 percent 
were made by professionals such as teachers, law enforcement and legal 
personnel, and social services staff.\11\ Anonymous sources, other 
relatives, parents, friends and neighbors made the remainder of 
referrals.
---------------------------------------------------------------------------
    \10\ U.S. Department of Health and Human Services, Administration 
for Children and Families, Administration on Children, Youth and 
Families, Children's Bureau. (2011). Child Maltreatment 2010.
    \11\ Ibid.
---------------------------------------------------------------------------
                             investigations
    When a hotline call is received, an operator will determinate 
whether there is a reasonable suspicion of harm to a child by a 
caretaker to warrant an investigation by the child protective services 
agency. This decision is generally made according to specific criteria 
defined by the State or jurisdiction in which the referral is made. If 
the reporter is unable to provide sufficient evidence of abuse or 
neglect, usually because these necessary details are unknown or the 
screening criteria for maltreatment were not met, the referral will be 
screened out and no further action will be taken. When referrals are 
screened in, they become known as reports. Of the 3.3 million referrals 
received in 2010, 1.8 million pertaining to 3 million children were 
screened in as reports warranting a response.\12\
---------------------------------------------------------------------------
    \12\ Unique count.
---------------------------------------------------------------------------
    Approximately 9 percent of the reports in 2010 were categorized as 
``Alternative Response,'' \13\ meaning that an alternative approach to 
usual child welfare investigative response was used. In these cases, 
maltreatment may or may not have occurred. According to Child 
Maltreatment 2010, ``Cases assigned this response often include early 
determinations that the children have a low-risk of maltreatment. This 
response usually includes the voluntary acceptance of Child Protective 
Services and the mutual agreement of family needs.'' \14\ This is in 
contrast to the investigative response, in which assessment and 
services are generally mandated following a caseworker's independent 
determination that the family has needs requiring intervention. In 5 
percent of referrals resulting in an alternative response, a child 
welfare worker determined that maltreatment had in fact occurred.\15\ 
\16\
---------------------------------------------------------------------------
    \13\ The remainder of investigated reports fall into the following 
categories: Intentionally false, closed with no finding, unknown, and 
other.
    \14\ U.S. Department of Health and Human Services, Administration 
for Children and Families, Administration on Children, Youth and 
Families, Children's Bureau. (2011). Child Maltreatment 2010.
    \15\ For children categorized in NCANDS as ``alternative response 
nonvictim'' there was no determination that any child in the report was 
a victim of maltreatment.
    \16\ Ibid.
---------------------------------------------------------------------------
    When an investigation does take place, the child welfare worker 
assessing the report determines whether or not there is evidence of 
maltreatment. Again, most States require that certain criteria be met 
before such a determination is made. If these criteria are not met, the 
investigator will deem the report ``unsubstantiated.'' However, if 
evidence of maltreatment is apparent, the case will be 
``substantiated.'' In some States, there is a third category for cases 
in which there is insufficient evidence to confirm maltreatment, but 
there is reason to believe that a child faces significant risk in the 
current setting. Such cases are deemed ``indicated.'' In 2010, 19 
percent of reports were substantiated, 63 percent were unsubstantiated, 
and 1 percent was indicated.\17\ Including the children who had been 
maltreated and received an alternative response, approximately 695,000 
children were the victims of maltreatment in 2010. Thus, the national 
rate of maltreatment in 2010 was about 9.2 victims per 1,000 
children.\18\
---------------------------------------------------------------------------
    \17\ U.S. Department of Health and Human Services, Administration 
for Children and Families, Administration on Children, Youth and 
Families, Children's Bureau. (2011). Child Maltreatment 2010.
    \18\ Unique counts.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                services
    Following an investigation of a report of maltreatment, the 
determination made either by the investigator or a child welfare 
caseworker influences whether or not a formal case will be opened for 
services. While most children and families receiving services from the 
child welfare system have been the subject of substantiated or 
indicated reports of maltreatment, services are sometimes delivered to 
families with unsubstantiated reports. In these cases, typically the 
investigator or caseworker has determined that, while there is no 
evidence of maltreatment, the family could benefit from preventive 
services to keep abuse or neglect from happening. In 2010, 
approximately 425,000 (61 percent) of victims and 552,000 (24 percent) 
of non-victims received post-investigation services.\19\
---------------------------------------------------------------------------
    \19\ U.S. Department of Health and Human Services, Administration 
for Children and Families, Administration on Children, Youth and 
Families, Children's Bureau. (2011). Child Maltreatment 2010.
---------------------------------------------------------------------------
    Services delivered fall into two categories: in-home services and 
out-of-home services. In-home services are delivered to intact families 
where the child or children have not been removed. Out-of-home services 
include foster care and other services for children who have been 
removed from their homes and taken into State custody. According to 
NCANDS calculations, of the 6 million children who were the subject of 
hotline reports in 2010, approximately 229,000 children were placed in 
foster care as a result of reported maltreatment (see Appendix A).\20\
---------------------------------------------------------------------------
    \20\ U.S. Department of Health and Human Services, Administration 
for Children and Families, Administration on Children, Youth and 
Families, Children's Bureau. (2011). Child Maltreatment 2010.
---------------------------------------------------------------------------
                           federal activities
    In accordance with CAPTA, the Children's Bureau in the U.S. 
Department of Health and Human Services provides funds to States to 
support activities including:

    <bullet> Intake, assessment, screening, and investigation of child 
abuse and neglect reports; risk and safety assessment protocols;
    <bullet> Training for child protective services workers and 
mandated reporters;
    <bullet> Programs and procedures for the identification, 
prevention, and treatment of child abuse and neglect;
    <bullet> Development and implementation of procedures for 
collaboration among child protection services, domestic violence, and 
other agencies;
    <bullet> Services to disabled infants with life-threatening 
conditions and their families;
    <bullet> Addressing the needs of infants born with prenatal drug 
exposure;
    <bullet> Referring children not at risk of imminent harm to 
community services;
    <bullet> Implementing criminal record checks for prospective foster 
and adoptive parents and other adults in their homes; and
    <bullet> Protecting the legal rights of families and alleged 
perpetrators, and supporting Citizen Review Panels.

    In fiscal year 2011, $26,482,000 in CAPTA State grants were awarded 
to all 50 States, the District of Columbia and five territories. Grants 
are based on an initial allocation of $50,000 per State with additional 
funds distributed in proportion to the State's population of children 
under the age of 18. Grant amounts ranged from $55,608 to the Northern 
Mariana Islands to about $3 million to California.
    Additionally, in fiscal year 2011, $41,606,000 in Community-Based 
Child Abuse Prevention (CBCAP) grants were provided to a lead State 
agency to disburse funds for community-based child abuse and neglect 
prevention activities. Funds are used to develop, operate, expand and 
enhance community-based efforts to strengthen and support families to:

    <bullet> Prevent child abuse and neglect;
    <bullet> Foster the development of a continuum of preventive 
services through State and community-based public private partnerships; 
and
    <bullet> Finance public information activities focusing on the 
healthy and positive development of families and child abuse and 
neglect prevention activities.

    Voluntary home visiting programs are a core local service, as are 
programs that focus on prevention services to families that include 
children or parents with disabilities. Grant amounts ranged from 
$200,000 to several of the territories to about $3.6 million to 
California.
    In fiscal year 2011, $25,793,000 was awarded to State, Tribal, 
agency, and university grantees for Child Abuse Discretionary 
Activities through CAPTA. These funds support a number of research and 
demonstration grants and contracts that seek to expand the evidence 
base for child welfare programs with the goal of improving child 
outcomes as lessons learned are adopted by communities across the 
country.
    The program funds research on the causes, prevention, 
identification and treatment of child abuse and neglect, and 
investigative, administrative and judicial procedures. It also funds 
projects to compile, publish and disseminate training materials; 
provide technical assistance; demonstrate and evaluate methods and 
procedures to prevent and treat child abuse and neglect; and develop or 
expand effective collaboration between child protective services and 
domestic violence agencies. In addition, the program funds a national 
resource center on issues relating to child maltreatment and a national 
clearinghouse, the Child Welfare Information Gateway, which gathers and 
disseminates information on promising programs of prevention and 
treatment and on the incidence of child abuse and neglect.
    Research and demonstration grants are awarded competitively to 
public and private agencies, including State and local government 
agencies, universities, and voluntary and faith-based organizations. 
Contracts may be awarded to public, nonprofit and proprietary 
organizations. Two Quality Improvement Centers are funded through this 
program:

    1. The National Quality Improvement Center on Early Childhood works 
to improve the social, physical, behavioral, cognitive, and emotional 
well-being of children 0 to 5 years old, and their families, who are at 
risk of abuse and neglect. The Center fosters collaborative research 
and demonstration projects across the child abuse prevention, child 
welfare, early childhood, and other health, education, and social 
service systems.
    2. The National Quality Improvement Center on Differential Response 
in Child Protective Services works to generate knowledge about 
effective models of differential response in child welfare. The Center 
also supports the capacity building at the State and local levels to 
improve child welfare outcomes for children and their families who come 
to the attention of the child welfare system.
                               conclusion
    In summary, while CAPTA establishes minimum standards, States 
determine many of the specific rules related to what constitutes abuse 
and neglect, who must report that abuse and neglect, and when abuse and 
neglect is handled through the child welfare system and when it is 
handled through law enforcement. Through CAPTA, the Federal Government 
supports State activities that prevent, assess, investigate, prosecute, 
and treat the effects of child maltreatment. CAPTA also includes 
provisions for tracking maltreatment and testing new approaches to 
addressing abuse and neglect. CAPTA serves as an important Federal tool 
for protecting children from abuse and neglect.
Appendix A.--Fiscal Year 2010 Flow of Children through Child Protective 
                                Services



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



 Prepared Statement of Lauren Book, Founder, Lauren's Kids Foundation, 
                               Miami, FL
    Madam Chair, Ranking Member Burr and members of the committee, I 
would like to thank you for the opportunity to tell you my story and 
share the perspective I have gained as a victim of childhood sexual 
abuse for 5 years. I am proud to say that I have grown beyond being 
just a victim to being an advocate and an educator, because I believe 
those are the two main ways we will end the epidemic that is childhood 
sexual abuse.
    I was sexually, physically and emotionally abused daily at the 
hands of our family's live-in nanny from age 11 to age 17. I was 
groomed and manipulated by a predator who took advantage of the fact 
that my mother struggled with mental illness and was largely 
emotionally absent, my father worked and traveled a lot and was largely 
physically absent, and I was an obedient child who wanted to please 
adults and ultimately protect my younger siblings. My story illustrates 
that sexual abuse knows no bounds. It happens to children of privilege 
and poverty. It happens in every religion, ethnic group and income 
level. It is epidemic. And I am committed to changing that.
    My advocacy in Florida has been instrumental in changing many laws 
to better protect children and victims of sexual abuse. I would value 
the chance to influence Federal law as well because the mission of the 
Lauren's Kids Foundation that I founded is to create a world where 
sexual abuse and exploitation of children is not tolerated and where 
children know it's always OK to tell.
    The Penn State and Syracuse tragedies are either a national wake up 
call and teaching moment or a lost opportunity. How we respond as a 
society, as a government and as individuals will demonstrate whether we 
truly value children or are willing to let them continue to be a 
commodity to be exploited. The work this committee is doing is a great 
start.
    I think the recent Penn State, Syracuse and Citadel cases 
underscore what I have known for some time--that our society has a very 
high tolerance for childhood sexual abuse. In each of these cases, 
preserving the reputation of the institution was placed above 
protecting the interests of the children--children who were subject to 
unspeakable abuse and manipulation by people the institution placed in 
positions of trust and power. Unfortunately, this is a situation that 
has become all too familiar in our society--a problem that cries out 
for your attention and action.
    Our recommendations relate to four main areas that I will outline 
briefly:

    <bullet> First, extending the statute of limitations to bring a 
civil lawsuit if the victim is under age 16 when the abuse is 
committed. Our preference would be to eliminate the statute of 
limitation entirely, since, I can tell you there is no statute of 
limitations on how long it takes a victim to heal. It's a lifelong 
process.
    Alternatively, at a minimum, we would like to see Congress increase 
the statute of limitations to 6 years after a victim reaches the age of 
majority or 6 years after a victim remembers repressed memories of 
abuse. This ``delayed discovery'' doctrine is recognized by courts in 
many jurisdictions and should be codified in the statute to ensure it 
is applied uniformly to all cases of child sexual abuse.
    Clearly, the current 6-year statute of limitations is inadequate 
because a child may not even have reached adulthood by the time it 
tolls. Since 85-90 percent of childhood sexual abuse goes unreported 
entirely or for many years, the current law is highly inadequate.
    <bullet> Second, we'd like to see Congress use the leverage of 
Federal funding to impose a reporting obligation on those universities 
that accept Federal funds. This obligation would relate to childhood 
sexual abuse that occurs on campus or at university-sanctioned off-
campus events. It also ensures the possibility of public scrutiny of 
these reports by making clear that these reports cannot be shielded 
under a State public records exemption. And we recommend imposing 
administrative, civil and criminal penalties, on both individual 
institutional personnel and institutions that fail to report child 
abuse. Penalties should include fines and up to 2 years imprisonment 
for individuals who willfully fail to report or who prevent someone 
else from reporting, or who conspire to violate this reporting 
requirement.
    Even more important, penalties should include the threat of 
termination of all Federal funding for a university that fails to 
report. We believe this institutional sanction is an important hammer 
that will counter the tendency to put protection of a university's 
reputation over the interests of children. As the Penn State case 
demonstrated, unless the penalties for failing to report exceed the 
pressure to protect the institution, children will be left at risk.
    <bullet> Third, we would like to see Congress expand Federal 
criminal jurisdiction to prosecute crimes that occur on university 
campuses or at university-sponsored or sanctioned events. I think it's 
clear that campus sexual assaults in general often don't get properly 
prosecuted because of overly cozy relationships between universities 
and campus police departments or even local law enforcement agencies in 
a college town.
    We recommend allowing for Federal prosecution of sexual crimes 
committed on university grounds or at university-sanctioned events, 
again using the leverage of Federal funding. This provides another 
route to justice, if campus or local law enforcement authorities fail 
to act.
    <bullet> Finally, we'd like to see childhood sexual abuse added to 
the list of crimes that must be reported in the crime statistics 
collected under the Clery Act. While the Clery Act is less impactful 
than the other changes we've recommended, we do think this is a 
loophole that should be closed. And, again, it must be made clear that 
universities cannot hide behind State public records exemptions to 
shield this information, as the Penn State officials were able to do. 
The Clery Act's disclosure requirements should pre-empt any contrary 
State public records exemption. Only the identifying information about 
victims of sexual assault, domestic and dating violence, stalking, and 
child abuse should be shielded from public disclosure under Clery.

    Perhaps most important, Congress should make it a national 
imperative to educate children about how to avoid the traps predators 
set for them. In Florida, beginning in January, every kindergarten 
class in the State will receive a new abuse prevention curriculum 
developed by my foundation, Lauren's Kids. We hope this will give every 
kindergarten student in our State the radar to recognize unsafe 
situations, and a language and tactics to deal with them. The 
curriculum manages to empower children without scaring them and to 
thwart sexual predators without dealing with the topic overtly or 
explicitly.
    If Congress is serious about ending the scourge that is childhood 
sexual abuse and exploitation, arming children with knowledge is the 
key to protection.
    I deeply appreciate the speed, commitment and seriousness with 
which this committee and its members have shown in addressing the issue 
of protecting our children from sexual abuse by those who would abuse 
their positions of trust within institutions of higher learning to prey 
on young children. I look forward to working with you and your 
colleagues on these and other reforms that will help to end sexual 
abuse and exploitation. Thank you again for extending me the 
opportunity to share my views.
   Prepared Statement of the Child Welfare League of America (CWLA), 
                             Washington, DC
                              introduction
    Chairwoman Mikulski, Ranking Member Burr, and members of the 
subcommittee, the Child Welfare League of America (CWLA) appreciates 
the subcommittee's attention to and consideration of this critical 
issue. According to a recent Government Accountability Office (GAO) 
report, more than five children die every day as a result of child 
abuse, with the majority of victims (80 percent) age 4 or younger. In 
light of recent events surrounding alleged acts of sexual abuse on 
children, we applaud the committee and the Congress for considering 
steps to address the need to improve the safety and well-being of all 
children by introducing legislation and calling for a hearing with the 
intent of improving child abuse reporting laws.
    CWLA represents hundreds of State and local direct service 
organizations including both public and private, and faith-based 
agencies. Our members provide a range of child welfare services from 
prevention to placement services including adoptions, foster care, 
kinship placements, and services provided in a residential setting. 
CWLA believes that keeping children safe from child abuse and neglect 
should always be the first goal of any child protective services 
response. The best ways to ensure that children are safe from all forms 
of maltreatment are comprehensive, community-based approaches to 
protect children and support and strengthen families. As collective, 
public and private agencies, in collaboration with individual citizens 
and community entities, we can prevent and remedy child maltreatment, 
achieve child safety and promote child and family well-being.
                               statistics
    In 2009, approximately 3.3 million allegations of child abuse and 
neglect, representing 6 million children, were made to child protective 
services agencies, resulting in 2.6 million reports for investigation. 
An estimated 710,000 children were determined to be victims of abuse or 
neglect. Of these victims, 78.3 percent were neglected, 17.8 percent 
were physically abused, and 9.5 percent were sexually abused. Almost 
one-sixth (17.6 percent) of children substantiated as abused or 
neglected were placed in foster care as a result of an investigation. 
Approximately 40 percent of children substantiated as abused or neglect 
never received follow-up services.
    It is important to note that neglect, the most common form of 
maltreatment, can be just as serious as those victims of sexual or 
physical abuse. In fact, such alarming rates of neglect tell us that we 
are not doing enough to prevent these children from coming into care or 
being brought to the attention of the Child Protective Services (CPS) 
system. Furthermore, such a high and consistent percentage of families 
going without follow-up help, means that services are not being 
adequately provided at the front end of the child welfare system.
                  federal child abuse prevention laws
    Since the initial passage of the Child Abuse Prevention and 
Treatment Act (CAPTA) in 1974, Congress has amended the Act several 
times with the most recent reauthorization in December 2010. CAPTA, the 
key Federal legislation addressing child abuse and neglect, is the only 
Federal legislation exclusively targeting prevention, assessment, 
identification, and treatment of child abuse and neglect. While States 
must comply with specific Federal requirements and guidelines in order 
to be eligible for Federal funding, the primary responsibility for 
child welfare services rests with the States, and each State has its 
own legal and administrative structures and programs that address the 
needs of children and families.
    In addition to CAPTA, the Jeanne Clery Disclosure of Campus 
Security Policy and Campus Crime Statistics Act is a Federal law that 
requires colleges and universities to disclose certain timely and 
annual information about campus crime and security policies.
    Federal law does not identify categories of mandatory reporters of 
abuse or neglect or direct State-identified mandated reporters to any 
specific person or agency. Furthermore, less than 20 States require 
that any person who witnesses child abuse report it, while the majority 
of States only require certain professionals report abuse.
                               state laws
    Currently, 48 States and the District of Columbia designate 
professions whose members are mandated by law to report child 
maltreatment. These individuals, commonly referred to as mandatory 
reporters, typically have frequent contact with children and may 
include social workers, teachers and other school personnel, physicians 
and other health-care workers, child care providers, and law 
enforcement officers. In approximately 18 States any person who 
suspects child abuse or neglect is required to report. Of these States, 
16 specify certain professionals who must report but also require all 
persons to report suspected abuse or neglect, regardless of profession.
    Additionally, 18 States require mandatory reporters to provide 
their names and contact information, either at the time of the initial 
oral report or as part of a written report. However, all jurisdictions 
have provisions in statute to maintain the confidentiality of abuse and 
neglect records, and 39 States protect the identity of the reporter 
from being disclosed to the alleged perpetrator.
                recommendations for future improvements
    The failure to report incidents of abuse and neglect can 
undoubtedly lead to the continued abuse and further compromise the 
health and well-being of children and CWLA believes more can be done to 
keep our children safe. Combating abuse and neglect is fundamental to 
the well-being of all children. We believe that highlighting the 
importance of reporting child abuse and neglect is an important first 
step. Therefore, we support Federal and State efforts to combat this 
problem by strengthening reporting requirements at both the State and 
local levels.
    With the introduction of Senator Bob Casey's Speak Up to Protect 
Every Abused Kid Act of 2011, it is our hope that Congress will work to 
pass this legislation. The Speak Up Act of 2011, would require all 
States to pass and enforce laws requiring all adults to report 
instances of known or suspected child abuse. The Speak Up Act will also 
provide a baseline definition of abuse or neglect, support to States to 
carry out educational campaigns and training to inform individuals 
about what constitutes child abuse and neglect, and funding for testing 
innovative approaches that may improve the reporting of incidents of 
child abuse and neglect. Finally, it requires a report to Congress 
assessing the implementation of the amendments made by the Speak Up 
Act, as well as an update on States efforts to improve reporting on and 
responding to reports of child abuse or neglect.
    Currently, failure to report child abuse is a misdemeanor in 39 
States and a felony in three. Unlike similar legislative proposals that 
seek to impose criminal and otherwise punitive penalties for 
individuals who witness abuse but do not make reports, Casey's bill 
seeks to focus more on creating uniformity of child abuse reporting 
laws at the Federal level. Rather than mandating jail time for failure 
to report, or prohibiting States from accessing the very services 
intended to help prevent and combat child abuse and neglect, the Speak 
Up Act will require HHS to work with States to disseminate guidance and 
information on best practices regarding educating the public on abuse 
and neglect as well as the responsibilities of all adults to report 
suspected and known incidents of child abuse or neglect. We think it is 
imperative that Congress continue to work towards implementing statutes 
that better assist States and child protection agencies in meeting the 
needs of vulnerable children and families, instead of focusing on 
punitive measures that have little if any effect on increasing 
reporting, and are counterproductive to the overall goal of protecting 
children.
    While the committee's decision to take action on this issue was 
largely prompted by sexual abuse allegations, we are pleased that the 
Chairwoman and others are committed to going beyond sexual abuse, which 
accounts for less than 10 percent of all substantiated cases of abuse 
and neglect, to examine how well children are being protected from all 
forms of abuse and neglect. We believe that the provisions laid out in 
the Speak Up Act are an important first step towards addressing abuse 
and neglect in this country. In addition, the bill places equal 
significance on combating all forms of abuse and neglect. It is our 
hope that Casey and others on the committee will look for ways to 
strengthen this bill by including more emphasis on preventing child 
abuse and neglect, and investing in workforce improvements that will 
help agencies investigate reports of abuse and neglect, and 
subsequently provide services to the 40 percent of families who are 
currently not receiving follow-up services.
    In closing, CWLA supports Congress' efforts to raise awareness 
regarding the reporting of child abuse and neglect and will continue to 
monitor their efforts. We hope that this hearing lays the groundwork 
for further work on strengthening Federal laws to better protect all 
children from abuse and neglect. We thank you for your continued 
leadership on this and other issues involving children, youth, and 
families and look forward to working with you in the future.
     Prepared Statement of Joan Cole Duffell, Executive Director, 
                  Committee for Children, Seattle, WA
    Atrocities at Penn State--not only the alleged abuse but the overt 
cover up--makes us all sit up and wonder: ``How could this have 
happened? Haven't we learned by now how to respond if a child is being 
abused?'' The sad fact is yes, we know quite well how--but too often 
mere knowledge isn't enough. And as we are being reminded, not all 
State laws requiring the reporting of suspected child abuse are created 
equal. It's by now a tragically familiar story: entrusted adults turn a 
blind eye when the perceived cost--either to themselves or to the 
venerable institutions they protect--seems just too high. How many more 
instances of institutional protectionism--at the expense of protecting 
children--will it take for us to realize that we must require those 
whom we entrust to keep our kids safe to be trained to identify and 
report known or suspected sexual abuse?
    The best way to protect our kids is to educate children, parents, 
teachers and other adults to recognize, resist and report sexual abuse. 
Committee for Children has a long history of advocacy around this 
issue--our research-based Talking About Touching program is the most 
widely respected and popularly implemented sexual abuse prevention 
program in the United States. Over the past decade our organization has 
been deeply involved in assisting Catholic dioceses and the U.S. 
Bishops' Conference in effecting needed changes in their systems in the 
wake of the sexual abuse crisis in the Church.
    We know that child sexual abuse is preventable, and that there are 
concrete steps we can take.
    For all adults:

    <bullet> Know common red flags and offenders' grooming tactics, and 
question inappropriate behavior, criminal or not.
    <bullet> Understand the significant and devastating personal, 
family and social consequences of child sexual abuse.
    <bullet> Understand that most abuse is perpetrated by a family 
member, friend or acquaintance (including adults who work with 
children).
    <bullet> Be trained in indicators of abuse.
    <bullet> Know how and when to report.
    <bullet> Understand that you only need reasonable suspicion--it is 
not your job to investigate.
    <bullet> Listen carefully to children and believe them when they 
disclose abuse.

    In addition, for teachers:

    <bullet> Teach children to recognize and report sexual abuse, 
starting in preschool.

    In addition for families:

    <bullet> Listen carefully to your children when they do not want to 
spend time with an adult.
    <bullet> Teach family safety rules about touching and re-visit them 
as frequently as you teach other safety rules (such as using a seat 
belt or bike helmet).

    Keeping our kids safe does not come without a price tag. The amount 
a typical State budget allocates for child sexual abuse programs in a 
given year, compared to their annual university athletic budget, would 
fit like a tiny toddler's frame inside a beefy offensive lineman's 
shoulder pads. Even worse, in most States, drastic cuts to sexual 
assault funds are being proposed. This is just plain wrong. The Federal 
Government needs to help States fully fund these important programs.
    Shame on us if we do not heed the tragic failures at Penn State, 
Syracuse, and other institutions as a clarion call to educate parents, 
teachers, coaches, school leaders and kids about sexual abuse 
prevention and to re-energize and fully fund abuse prevention education 
in our communities. This is not the time, nor will it ever be the time, 
to cut back on these vitally important services, even though times are 
hard. Protecting children cannot be a fad that comes in and out of 
favor. We should not let our kids, especially the most vulnerable ones, 
down.
    Our institutions must promote the protection of children over 
money, reputation and politics. Each one of us has a role in preventing 
and reporting child sexual abuse.
   Prepared Statement of Jolie Logan, President and Chief Executive 
               Officer, Darkness to Light, Charleston, SC
    Chairwoman Mikulski and members of the subcommittee, I am pleased 
to have this opportunity to submit this testimony today with regard to 
the important issue of child sexual abuse (CSA) and what non-offending 
adults can be doing to prevent this tragedy that is affecting our 
children and their long-term emotional and physical health--in addition 
to costing our country over $37 billion per year. Darkness to Light's 
solution to addressing child sexual abuse is to train non-offending 
adults to prevent, recognize and react responsibly to child sexual 
abuse. Adults interacting with children--the ``front line'' of child 
protection--must be properly informed about how to prevent abuse, 
recognize the signs of abuse and react responsibly when abuse is 
suspected.
                    background on darkness to light
    Darkness to Light (D2L) is a national non-profit organization whose 
mission is to empower people to prevent child sexual abuse. D2L seeks 
to accomplish its mission by increasing public awareness of the issue, 
educating adults to prevent, recognize and react responsibly to CSA, 
and engaging communities in building and sustaining CSA prevention 
initiatives.
    We believe that adults should shoulder the responsibility of 
preventing CSA. School-based programs that teach children to say ``no'' 
are valuable, but they are not a substitute for adult responsibility. 
Darkness to Light has developed and distributes highly respected 
prevention training and educational products for adults throughout the 
Nation who are associated with youth-serving organizations, care for 
children or simply want to become more responsible members of their 
community. We have also developed a model for community engagement that 
provides the tools for building and sustaining community-wide CSA 
prevention initiatives.
    Our signature prevention-training program, Stewards of Children, is 
an adult-
focused child sexual abuse prevention program that has been rigorously 
evaluated and has been shown to increase knowledge, improve attitudes 
and change the child-protective behaviors of adults over the long-term. 
The program has been evaluated through a CDC grant by the National 
Crime Victims Center at the Medical University of South Carolina, the 
University of South Carolina and the College of Charleston, and is 
nationally available. In addition, the 2.5 hour Stewards of Children 
program is available in English and Spanish, in both a facilitator-led 
and online format.
    More than 300,000 adults have completed the ``Stewards of 
Children'' program, and there are currently 4,254 facilitators of this 
program in 49 States and the District of Columbia, in addition to 15 
countries around the world.
                  the incidence of child sexual abuse
    If child sexual abuse left life-long visible scars on children of 
the same magnitude as the actual emotional and behavioral scars, there 
would be a massive outcry for something to be done. By anyone's 
measure, child sexual abuse is a significant problem that has enormous 
and lifelong impact on victims and society. Retrospective research has 
found that one in four women and one in six men have been sexually 
abused as children. At least 1 in 10 children is sexually abused.  Most 
people are not aware of the magnitude of the problem because the 
majority of children do not disclose their abuse to anyone.
    Many adults believe they are protecting their children from sexual 
abuse by teaching their children to stay away from strangers. The 
public is thus often surprised to learn that 90 percent of all victims 
know and trust their perpetrators, and more than 35 percent of 
perpetrators are family members.
            the impact of child sexual abuse on our society
    The effects of child sexual abuse can be severe and devastating to 
an individual's psychological, emotional, and physical well-being. 
Child sexual abuse increases the risk for alcohol and drug abuse 
lasting into adulthood; post-traumatic stress, depression and anxiety; 
delinquent behaviors and dropping out of school; suicide attempts; 
physical aggression and hyperactivity; sexual risk behaviors; and 
problems with friendships, family relationships and intimate 
relationships.
    Further, immediate consequences to child victims can result in 
long-term, life-
altering consequences as the victim matures into adulthood. Child 
sexual abuse is a root cause of many expensive societal problems. Many 
experts believe that, with appropriate education, adults who are 
responsible for children (e.g., parents, teachers, coaches, and 
mentors) can reduce child sexual abuse and improve outcomes for 
children who are abused. However, research suggests that adults 
currently do an inadequate job of preventing abuse. Youth-serving 
organizations are particularly vulnerable to child sexual abuse 
incidents because pedophiles seek organizations and situations that 
lend themselves to adult-child interaction.
        the federal role in better protecting children from csa
    In concert with the National Coalition to Prevent Child Abuse and 
Exploitation's guiding values, D2L is working in conjunction with Stop 
It Now! and Prevent Child Abuse America to advocate for a new national 
standard for CSA prevention and intervention. Our three organizations 
are urging Federal agencies to find ways to integrate child sexual 
abuse and exploitation prevention policies and practices into schools, 
child/youth-serving organizations, law enforcement agencies and other 
federally funded programs. With established policies and procedures in 
place for addressing CSA, all adult staff within an organization--from 
the janitorial staff and bus drivers to the CEO--would know what steps 
must be taken to prevent, recognize, respond, and report abuse.
    The Federal Government can play a significant role in the 
prevention of CSA. The solution is inexpensive and currently available: 
training adults how to prevent, recognize, and react responsibly to 
incidents or allegations of abuse. Further, evidenced-based programs 
currently exist to help organizations establish internal policies and 
procedures for dealing with reports and incidents of CSA. Because the 
Federal Government annually supports numerous youth-serving 
organizations through millions of dollars in programmatic funding, we 
believe the Federal Government can serve as a role model in advancing 
policies that better protect children from CSA.
    I urge Congress to be pro-active in supporting policies that would 
require Federal grant recipients_for those grants involving youth_to 
train all adults involved in the grant program in effective CSA 
prevention. This requirement should be a special condition for all 
Federal grants that involve children and youth programming and 
services. Requiring such prevention training would have a huge impact 
on protecting millions of children across the Nation. Working together, 
adults across the country can take simple but effective steps to better 
protect children from child sexual abuse.
    Thank you again for your time and attention to this important 
matter.
 Prepared Statement of Anthony P. Mannarino, Ph.D., Professor and Vice 
  Chair, Department of Psychiatry, Allegheny General Hospital, Drexel 
  University College of Medicine; Presented on behalf of the American 
               Psychological Association, Washington, DC
    Chairwoman Mikulski, Ranking Member Burr, and members of the 
subcommittee, I very much appreciate the opportunity to provide written 
testimony on behalf of the 152,000 members and affiliates of the 
American Psychological Association (APA) on the subject of protecting 
children from abuse and neglect. Although some child maltreatment cases 
receive extensive media attention, many children who are abused or 
neglected are never identified. Of further concern, most of these 
children do not receive needed mental health treatment and other 
services that can help them heal from these experiences.
    There are several types of child maltreatment, including physical, 
sexual, and emotional abuse, as well as neglect. State and national 
statistics strongly indicate that the most common type of child 
maltreatment is neglect, which involves a pervasive pattern of a 
child's physical, emotional, and/or health needs not being addressed. 
Child abuse and neglect may occur for many reasons but are more common 
among families in which there are other significant stressors, such as 
poverty and discrimination. Sexual abuse differs from other forms of 
child abuse in that it is just as likely to be perpetrated by 
individuals in or outside of the child's family. However, almost all 
perpetrators of sexual abuse are known by the child. Some perpetrators 
of sexual abuse are pedophiles who seek vulnerable children to 
``groom'' prior to engaging them in inappropriate sexual experiences. 
By the age of 18, about 25 percent of girls and 10-12 percent of boys 
will have experienced some form of sexual abuse.
    There are both short- and long-term adverse effects for children 
who have been abused. Federal investments in research at the National 
Institute of Mental Health and the National Institute of Child Health 
and Human Development have led to advances in understanding the impact 
of abuse on development, as well as the risk for mental and emotional 
disorders. Victims of physical abuse are more likely to exhibit 
significant behavioral difficulties, aggression, peer problems, and 
poor school performance. Some research has suggested that severe 
physical abuse can cause changes in children's brain development and 
result in intellectual delays. Children who have been sexually abused 
are at increased risk for anxiety, depression, and behavioral problems. 
They also commonly feel intense shame associated with their sexual 
victimization and a sense of betrayal because sexual abuse is typically 
perpetrated by someone whom the child trusts.
    Victims of either sexual or physical abuse may develop 
posttraumatic stress disorder (PTSD). Undiagnosed and untreated PTSD 
can contribute to drug and/or alcohol problems during adolescence, as 
teenagers may self-medicate to manage flashbacks and increased arousal 
that are often part of PTSD. In addition, victims of abuse are more 
likely to be re-victimized during childhood and as adults. Entry into 
the child welfare system, which is intended to protect abused and 
neglected children, may result in ``secondary adversities.'' These 
children may experience the loss of their family of origin, frequent 
changes in foster care placement, and disruption in their parental 
attachments, which can be highly traumatic for them.
    There are other significant long-term negative effects of child 
abuse. Adults victimized as children are at much higher risk for a 
variety of psychological problems, including depression, anxiety, PTSD, 
suicide attempts, personality disorders, and drug and alcohol problems. 
Moreover, they are much more likely to be psychiatrically hospitalized 
and have more extensive utilization of health services than adults 
without a history of child abuse. Not surprisingly, having lived so 
long with the shame and often the secrecy of their childhood 
victimization, many victims of child abuse make choices in their adult 
relationships that reinforce their damaged sense of self-esteem and 
further exacerbate feelings of inadequacy and worthlessness.
    Mandated reporting refers to the requirement to report child abuse, 
including sexual abuse, to a local child protective service (CPS) 
organization, appropriate State agency, or the police. All 50 States 
have mandated reporting laws and healthcare professionals in all 
jurisdictions are subject to these laws. Mandated reporting laws vary 
from jurisdiction to jurisdiction in important ways. In most 
jurisdictions, suspicion of abuse or reason to believe that abuse has 
occurred is the threshold criterion for a mandated report. Some States 
require mandatory reports only when a reporter is acting in his or her 
professional capacity, for example as a psychologist treating patients. 
In other jurisdictions, a reporter is mandated to report in any 
circumstance that a reasonable suspicion of child abuse arises, for 
example if on a weekend the psychologist sees a child being abused on a 
playground or in a park.
    Given the differences from jurisdiction to jurisdiction in how 
child abuse is defined and mandated reporting requirements, healthcare 
professionals and other mandated reporters must become familiar with 
mandatory reporting statutes in their individual jurisdictions. This 
can be challenging, particularly if individuals live near the border 
of, for example, adjacent States with different child abuse reporting 
statutes. Moreover, jurisdictions vary tremendously in their ability to 
investigate alleged child abuse, primarily related to the amount of 
resources that are allocated to child welfare agencies.
    Media reports sometimes suggest that child abuse victims are 
destined for lifelong struggles with mental health problems, drug and 
alcohol problems, and other serious difficulties. This is simply not 
true. Fortunately, if victimized children can be identified early and 
provided with appropriate clinical treatment and other services, they 
can recover and lead productive lives. In the past 10 to 15 years, 
there have been numerous clinical trials of mental health treatments 
for abused children that have been demonstrated to be significantly 
effective. These treatments markedly reduce anxiety, depression, PTSD, 
behavioral problems, and shame in this vulnerable population of 
children, and these gains appear to be long lasting. Moreover, when 
parents are involved in these treatments, they also experience 
decreases in their own emotional distress and depression and become 
more effective in managing their children's behavior problems.
    These evidence-based treatments for victims of child abuse are now 
being widely disseminated across the country and even around the world. 
A congressional initiative has played a significant role in this 
dissemination. The National Child Traumatic Stress Network (NCTSN) was 
authorized by the Congress in 2000 as part of the Children's Health 
Act. The NCTSN's mission is to increase the quality and access to 
services for children and families exposed to traumatic life events. 
Through the efforts of the NCTSN and other national, regional, and 
State organizations, hundreds of thousands of abused children are now 
receiving the best available treatments to help them recover and lead 
healthy, productive lives.
    Congress can take a number of critical actions to protect children 
from abuse and neglect. First, increased Federal investment in research 
is essential to build the evidence base for effective prevention and 
treatment. Second, Congress should support the development and 
dissemination of evidence-based interventions that have been shown to 
prevent child abuse and neglect. And third, continued support for the 
NCTSN is critical to providing evidence-based treatments to help 
children and families recover from the trauma of abuse.
    APA and the psychology community look forward to continuing to work 
with Congress and the executive branch to develop and promote 
initiatives to prevent child abuse and neglect, to intervene early when 
instances become known, and to provide effective mental health and 
related treatment to children and their families. Such efforts will 
help to ensure that all children and families receive the services and 
supports that they need and deserve.
     Prepared Statement of Lisa Pion-Berlin, President and CEO of 
                 Parents Anonymous Inc., Claremont, CA
    We want to thank Chairwoman Mikulski and Ranking Member Senator 
Burr and all members of the HELP Subcommittee on Children and Families 
for convening a hearing on the critical issue of the prevention and 
intervention of child maltreatment in the United States.
    Research establishes that child abuse and neglect is a contributing 
factor to many chronic diseases and psychological problems.\1\ Parents 
Anonymous Inc. has implemented a strengths-based model of child abuse 
and neglect prevention for over four decades. Our programs and 
strategies have effectively served millions of parents and caregivers 
and children of all ages in diverse communities worldwide impacting 
this social problem. Safe, stable, and nurturing relationships have 
been established as essential to childhood development and a central 
edict to the public health approach to preventing child 
maltreatment.\2\ Furthermore, protective factors act as buffers by 
helping families defend against negative influences from their 
surroundings.
---------------------------------------------------------------------------
    \1\ CDC, Centers for Disease Control and Prevention. (2008). 
Strategic direction for child maltreatment prevention: Preventing child 
maltreatment through the promotion of safe, stable, and nurturing 
relationships between children and caregivers. Atlanta, GA: Author. 
www.cdc.gov/ViolencePrevention/overview/strategicdirections.html.
    \2\ Middlebrooks, JS, & Audage, NC. (2008). The effects of 
childhood stress on health across the life-span. Atlanta, GA: Centers 
for Disease Control and Prevention, National Center for Injury 
Prevention and Control.
---------------------------------------------------------------------------
    In examining solutions, we ask that the subcommittee consider 
evidence-based Parents Anonymous groups and the new National Parent 
Help-
line. Parents Anonymous operates weekly, evidence-based \3\ support 
groups for parents and caregivers and their children and youth all 
around the world to strengthen families to prevent and treat child 
abuse and neglect. The National Outcome Study \4\ \5\ \6\ (published in 
peer-reviewed Journals) demonstrated three important results for the 
national sample: the significant reduction of risk factors (life 
stress, emotional domestic violence, and alcohol and drug use) the 
increase of protective factors (quality of life, social support, 
parenting sense of competence, family functioning and nonviolent 
discipline) and significant reduction of child maltreatment outcomes 
(parenting distress, parenting rigidity and use of psychological 
aggression towards children) and a 83 percent decrease in physical 
aggression towards children by the 40 parents who reported using 
physical aggression before attending Parents Anonymous groups.
---------------------------------------------------------------------------
    \3\ http://www.cebc4cw.org/program/parents-anonymous/, California 
Evidence-Based Clearinghouse.
    \4\ NCCD (National Council on Crime and Delinquency). (July 30, 
2007). Outcome evaluation of Parents Anonymous. Report submitted to 
the Office of Juvenile Justice and Delinquency Prevention, Office of 
Justice Programs, U.S. Department of Justice. www.nccd-crc.org.
    \5\ Polinsky, M., Pion-Berlin, L., Williams, S., Long, T. & Wolf, 
A. (2010). Preventing Child Abuse and Neglect: A National Evaluation of 
Parents Anonymous Groups. Child Welfare, 89 (6), 43-62.
    \6\ Polinsky, M., Pion-Berlin, L., & Wolf, A. (2011). Parents 
Anonymous Outcome Evaluation: Promising Findings for Child Maltreatment 
Reduction. OJJDP Journal of Juvenile Justice, 1 (1), 33-47.
---------------------------------------------------------------------------
    This new National Parent Helpline launched on February 1, 2011 
confirms our commitment to stand with families to ensure the future of 
our country. Being a parent is a critically important job, 24 hours a 
day, every day of the year. All parents and caregivers benefit from 
support at some time in order to provide safe and nurturing homes for 
their children. Parents and caregivers face many challenges--economic 
insecurity, community safety, the education of their children, 
nurturing positive child development and the prevention of child abuse 
and juvenile delinquency--just to name a few. Where can a parent turn 
to get emotional support and assistance to develop solutions to the 
issues they face raising their children? The answer is the landmark 
National Parent Helpline available Monday through Friday at 10:00 AM 
to 7:00 Pacific Standard Time.
    Recently, Penn State parents of some victims stated they had 
nowhere to turn and when they tried to reach out to their school no one 
believed them.
    With one telephone call or computer mouse click parents and 
caregivers become empowered to resolve their issues and receive 
referrals to services when appropriate. The National Parent Helpline 
Web site, http://www.nationalparenthelpline
.org, with linkages to Facebook, Twitter and YouTube includes 
comprehensive online parenting resources and a bulletin board for 
parents and caregivers to share their National Parent Helpline 
experiences to build community and help others. This vital new national 
resource will assist parents with a wide range of issues such as 
parenting and positive discipline techniques, effective communication 
strategies, stress reduction, personal care and safety, and provide 
referrals to community-based prevention programs, shelters, substance 
abuse programs, respite care, and child care. When parents feel 
empowered they utilize and expand their own social support networks and 
build on their resiliency to strengthen their families, reach out to 
others in their communities and create long-term societal change that 
benefits everyone.
              lasting benefits to families and communities
    By building on the strengths of parents and caregivers and their 
children, Parents Anonymous groups and the National Parent Helpline 
provide immediate help and emotional support, research confirmed 
results for prevention and treatment of child abuse and neglect, and 
the next generation of families to reach out and support others in 
local communities nationwide. Parents Anonymous give back in so many 
ways: as leaders they help others every day. With 149 million parents 
in this country, we need to offer immediate assistance through a 
National Parent Helpline and weekly Parents Anonymous groups for 
parents and their children and caregivers who can seek help, get 
support, build their strengths and create hope for the future!
    Prepared Statement of Deborah Donovan Rice, Executive Director, 
                     Stop It Now!, Springfield, MA
    My name is Deborah Donovan Rice and I serve as Executive Director 
of Stop It Now!, a national child sexual abuse prevention organization 
founded nearly 20 years ago.
    Since 1992, Stop It Now! has been helping adults, families and 
communities speak up and have difficult conversations with one another 
about the sexual abuse of children. In its simplest form, our approach 
to prevention is about engaging adults in a dialogue; getting people to 
talk openly about their concerns and providing them with the tools and 
support necessary to protect children before they are harmed.
    For nearly 20 years, we have pioneered shifting responsibility for 
child sexual abuse from children to adults by providing education, 
training, and advocacy to parents, professionals, and community 
leaders. Our community responsibility model teaches adults how to 
intervene safely and effectively when they see early warning signs of 
an adult or youth behaving inappropriately with a child. Our focus is 
on preventing child sexual abuse before children are harmed.
                              introduction
    Stop It Now! operates the only telephone and e-mail help line 
dedicated to preventing child sexual abuse. For nearly 20 years, we 
have been talking with adults who contact us about their concerns that 
a child may have been or is at risk to be sexually abused. Every day, 
we hear from people who are worried about the safety of a child and who 
need balanced information, support, and practical resources for taking 
action in daily life to keep children safe from sexual abuse.
    I want to thank you for holding this hearing today. Breaking the 
Silence on Child Sexual Abuse is a cause very near to my heart. One of 
the first ads Stop It Now! created for its work in Vermont nearly 20 
years ago said ``Silence Shatters Lives.'' We know that when we don't 
know what to look for, when we don't speak up, when we don't consider 
the possibility, when we worry more about offending an adult than 
protecting a child, when we don't report--we let children down.
  the speak up to protect every abused kid act can be strengthened by 
               adding proactive prevention of child abuse
    As one of the Nation's leading advocates for the prevention of 
child sexual abuse, we support Senate bill 1877, the Speak Up to 
Protect Every Abused Kid Act. We also offer our expertise in the belief 
that this bill can be strengthened to include proactive prevention of 
child sexual abuse.
    mandatory reporting comes too late to prevent child sexual abuse
    Mandatory reporting focuses on abuse that has already happened. By 
expanding the responsibility of adults to report suspected and known 
incidents of abuse, S. 1877 may have a positive impact by potentially 
shortening the length of time a child experiences abuse or preventing 
one abuser from abusing another child.
    This is very important, but is it enough? I don't want to tell a 
child or tell a parent that we ``caught'' it earlier and that it could 
have been much worse. I want to be able to tell all children who have 
ever experienced sexual abuse that as adults we are doing everything we 
can to ensure that no other child ever experiences the sexual abuse 
that they have lived through.
    We are concerned that an overemphasis on mandatory reporting 
signals that as a society, we do not believe in preventing harm in the 
first place and that we accept the inevitability that children will be 
harmed.
to protect children, we need to address the reality that most children 
                  don't tell anyone about their abuse
    Stop It Now!'s research mirrors national statistics that indicate 
nearly 88 percent of sexual assault is never reported to authorities. 
Almost a quarter (23 percent) of residents disclosed experiencing 
sexually abusive behavior by an adult or older child while they were 
children. Of these, nearly 7 in 10 (65 percent) did not tell an adult 
about the incident while still a child. Of those who did tell an adult, 
only 3 in 10 (31 percent) recall that their abuse was reported to 
authorities.
    Our colleagues at Darkness to Light cite similar statistics:

    <bullet> Of child victims, 73 percent do not tell anyone about the 
abuse for at least a year. Forty-five percent of victims do not tell 
anyone for at least 5 years (Smith et al., 2000; Broman-Fulks et al., 
2007).
    <bullet> Of victims that do disclose, 40 percent tell a close 
friend, rather than an adult or authority figure (Broman-Fulks et al., 
2007). These ``friend-to-friend'' disclosures do not always result in 
reports to the authorities. As a result, the vast majority of child 
sexual abuse incidents are never reported.

    To protect children, we need to address the reality that most 
children don't tell anyone about their abuse. Research and anecdotal 
evidence shows that many reasons impact a child's lack of disclosure: 
threats, confusion, fear that someone they love will get in trouble, 
that they'll be blamed, etc. Even when asked directly, many children 
deny experiencing abuse even when their abuse had been witnessed by 
others.
    Adults need to be more knowledgeable about who sexually abuses, how 
they access children, and how adults need to set proactive boundaries 
with the adults who spend time with their children.
 requiring all adults to be mandatory reporters will not prevent child 
                              sexual abuse
    Mandatory reporting is not a cure-all. We can't rely exclusively on 
mandatory reporting to protect our children. Given the challenges faced 
by already overburdened systems, reporting is not always effective for 
children and families in crisis. Through our Help Services, we hear 
from people who have reported their concerns to authorities but no case 
is opened or it falls to the wayside because there is a lack of 
evidence.
    We hear from callers who are scared and frustrated because after 
their child disclosed abuse to them and they reported it, the child, 
scared by the whole process, recanted in the investigation or the 
subsequent forensic interview (usually at a local Child Advocacy 
Center). The case was then closed and no further investigation or 
proceedings could happen. This allows the adult who the child said was 
sexually abusing them to have unsupervised contact with the child.
    Mandatory reporting is necessary, but by itself will not prevent 
the vast majority of child sexual abuse cases. Strategies to prevent 
child sexual abuse over the long-term must change societal norms so 
that society can talk more productively about the issue, while making 
appropriate help, support and accountability readily available to those 
who have been victimized, to those who have harmed children, and to the 
families of both.
   prevention education and training can reduce barriers to reporting
    From surveys, focus groups and the Helpline, we know that adults 
face the following barriers to taking action to prevent child sexual 
abuse:

    <bullet> Not knowing or recognizing ``warning sign'' behaviors that 
should elicit concern and prompt more questions.
    <bullet> Fear of being wrong about suspicions or acting on concerns 
that are ultimately unfounded.
    <bullet> Fear of making things worse for the child.
    <bullet> Perceiving only two options for action which are both 
unsatisfactory: to stay uninvolved or to report the situation to 
authorities.
    <bullet> Not knowing where to turn for credible information or to 
safely explore options.

    We urge the committee to expand the training requirements in Senate 
Bill 1877 beyond mandatory reporting training to supporting more 
comprehensive training that educates adults on recognizing and 
intervening at the first sign of inappropriate behavior or boundaries 
rather than waiting until children have been sexually abused.
         adults need help to overcome barriers to taking action
    Our survey findings show that the adult public is ready to do more 
to fulfill their responsibility to protect children through prevention 
action. U.S. adults are aware and looking for help, and appear open to 
pragmatic solutions. But adults need guidance, support, and reassurance 
that there are effective actions to take. They need to know that it is 
OK to speak out about a concern without fear of punishment.
    Stop It Now! and others have shown that providing adults and 
communities with accurate information and access to the non-judgmental 
support and guidance of professionals can produce preventive actions. 
By offering a confidential place to first talk about observations and 
concerns, adults are able to map out action steps to keep children 
safe.
      to change behavior we need more than an educational campaign
    As one of the Nation's leading advocates for the prevention of 
child sexual abuse, Stop It Now! has nearly 20 years of experience 
educating adults about how to take action to prevent the sexual abuse 
of children. Between 1995 and 2007, Stop It Now! and its local program 
affiliates commissioned 10 telephone surveys to gauge adult knowledge 
and attitudes. Our report, What Do U.S. Adults Think about Child Sexual 
Abuse? Measures of Knowledge and Attitudes Among Six States 
(attached),\1\ summarizes key findings and program implications from an 
analysis of a new, statistically valid, national data set of over 5,000 
U.S. adults. This research confirms what our local market research told 
us: while awareness of child sexual abuse is high, there is a 
disconnect between individual awareness and action to prevent it.
---------------------------------------------------------------------------
    \1\ The report referred to may be found at http://
www.stopitnow.org/rdd_survey_report_
briefing_sheet.
---------------------------------------------------------------------------
  adults need help to recognize and report inappropriate behavior in 
                        people we know and like
    Most adults indicated that they would take action if they were 
concerned about the sexual safety of a child, but many appear not to 
recognize abuse or do not do anything if they do. Fear of the negative 
consequences that people can face if they raise questions about child 
sexual abuse within their families or social circles helps explain why 
more adults do not recognize abuse or act on their concerns.
    A fundamental barrier is the inability to connect a person someone 
knows and cares for with the stereotype of the ``predator'' or 
``monster'' who abuses children. It is often difficult to recognize and 
acknowledge abusive behavior involving individuals we know and trust, 
especially family members. Help Services give adults language to talk 
about what they are observing, what their gut tells them, and how to 
talk to adults whose behavior concerns them.
    In our surveys, there is a clear difference in how respondents said 
that they would deal with family versus non-family members. It is clear 
that when abuse is considered definite, or when it is from outside the 
respondents' family, the course of action is to report to authorities. 
If the abuse or suspected abuse takes place within the family, 
respondents are most likely to say they would talk to or confront the 
suspected offender.
    Barriers to reporting are even higher within families. People fear 
loss of family relationships, loss of financial support, threats of 
additional violence, loss of child custody, and a wide range of other 
negative impacts on the child and family due to public disclosure.
           adults need a safe place to discuss their concerns
    At Stop It Now!, we've learned that when people have accurate and 
balanced information, practical resources, and access to support they 
do take action to keep children safe. Here's what Helpline callers say 
\2\:
---------------------------------------------------------------------------
    \2\ (Anonymous comments, used with permission).

    <bullet> ``Stop It Now! has helped me to not only find the 
information I needed, but has also helped me with how to use it--how to 
talk with my family and how to approach this in a positive way.''
    <bullet> ``After talking to you I feel like I have some control 
over a situation that before felt completely out of control. This 
conversation has helped me make some decisions.''
  it is a better investment of federal resources to fund programs and 
  resources that educate adults about the ways they can prevent child 
                           abuse and neglect
    Senate Bill 1877 includes provisions for educating adults about the 
ways they can respond to help children and families without reporting 
in situations where the child or family needs assistance to prevent 
such circumstances from deteriorating so as to constitute child abuse 
or neglect. We support this as essential to preventing children from 
being sexually abused.
    In addition to supporting training on State laws for mandatory 
reporting, we ask the committee to support Prevention Education and 
Training such as those offered by Darkness to Light and Stop It Now! 
Both organizations have developed and maintain extensive Web sites that 
provide free information for anyone who wants to learn what they can do 
to keep children safe from sexual abuse. This information ranges from 
reproducible tip sheets on prevention topics to on-line training about 
how to recognize and react responsibly to prevent sexual abuse.
 education can reduce the disconnect between awareness of child sexual 
                     abuse and action to prevent it
    Our research shows adults are aware that the vast majority of 
children are sexually abused by someone they know, that people who 
sexually abuse children live in their communities and how to recognize 
signs of a child who has been sexually abused. Adults don't know how to 
recognize someone who is at risk to abuse and are unclear about what 
action to take to keep children safe.
    When asked a hypothetical question about what they would do if they 
were in a situation where they thought a child was being sexually 
abused, the vast majority (91 percent) said they would intervene. A 
small proportion (8 percent) of residents surveyed had the experience 
of knowing an adult they were concerned may have been sexually abusing 
a child. When asked what action they actually took, 65 percent said 
that they took action--and 22 percent stated that they did nothing. 
None of us wants to think we're a person who does nothing and yet, too 
many of us, when faced with a situation in our own lives, are paralyzed 
and don't know what to say or do, especially when we don't have ``proof 
'' that someone has already harmed a child.
requiring a report without providing adults with access to accurate and 
balanced information, practical resources, and access to support is not 
            likely to significantly improve reporting rates
    In the first 2 weeks after the sexual abuse allegations at Penn 
State, our Help Services experienced a 130 percent increase in 
contacts. Many of these were survivors or their friends and family, who 
were reaching out for help for the first time. We heard from parents 
with questions about the behaviors of adults in their children's 
schools, churches and neighborhoods. Adults called with concerns about 
behaviors between children. Extended family members wanted to know how 
to talk with other family members about their concerns about 
interactions between children and adults. We also heard from parents 
who have reported child sexual abuse and feel stuck in the criminal 
justice system, struggling to find help to keep their children safe, 
even after there's been a disclosure.
    Our Helpline is the primary referral resource for other 
organizations including Child help, RAINN, Darkness to Light, 1in6, and 
Enough Abuse for calls addressing child sexual abuse and prevention.
  require csa prevention training as a condition of any federal grant 
                      involving children and youth
    In concert with the National Coalition to Prevent Child Abuse and 
Exploitation's guiding values, Stop It Now! and our partner Darkness to 
Light have associated with Prevent Child Abuse America to advocate for 
a new standard for child sexual abuse prevention and intervention. We 
three national organizations have joined together to support Federal 
agencies in finding ways to integrate child sexual abuse and 
exploitation prevention policies and practices into schools, child and 
youth-serving organizations, law enforcement agencies and other 
federally funded programs. With established policies and procedures in 
place for addressing child sexual abuse, all adult staff within an 
organization--from the janitorial staff and bus drivers to the CEO--
would know what steps must be taken to prevent abuse by creating safety 
for children and also how to recognize, respond to, or report abuse.
    The Federal Government can play a significant role in the 
prevention of child sexual abuse. The solution is inexpensive and 
currently available: training adults how to prevent, recognize, and 
react responsibly to incidents or allegations of abuse. Prevention 
training increases knowledge, improves attitudes, and changes child-
protective behaviors. Further, evidence-based programs currently exist 
to help organizations establish internal policies and procedures for 
dealing with reports and incidents of child sexual abuse. Because the 
Federal Government annually supports numerous youth-serving 
organizations through millions of dollars in programmatic funding, we 
believe the Federal Government can serve as a role model in advancing 
policies that better protect children from child sexual abuse. We urge 
Congress to support policies that would require Federal grant 
recipients--for those grants involving youth--to train all adults, 
involved in the program, in child sexual abuse prevention. This 
requirement should be a special condition for all Federal grants that 
involve children and youth programming and services.
           early identification and intervention saves money
    The sexual abuse of a child has significant financial and social 
costs. One of the most thorough studies to calculate the costs of 
sexual violence was completed in Minnesota. It found that the financial 
costs associated with the sexual assault of a child total $207,000.17. 
This does not include long-term consequences of child sexual abuse and 
societal costs. Investing more money in prevention will not only keep 
children safe, but will dramatically decrease the long-term health and 
welfare costs associated with child sexual abuse.
   fund demonstration projects and research to identify barriers and 
 develop program innovations and policy changes that can help overcome 
                or remove barriers to prevention action
    At Stop It Now! we know very well that too often trusted community 
institutions fail to keep our children safe. What we can do to prevent 
the next Penn State? Because, unfortunately, it will happen again, 
unless something fundamental changes.
    By focusing on and investing in demonstration projects and research 
that helps us identify and overcome barriers to not acting to protect 
children, we can get this into a tipping point where we can look back 
and say, ``Things have changed. Adults know what to do and do it, even 
when it is uncomfortable.''
    We can't rely exclusively on mandatory reporting to protect our 
children. We are reminded that we can't rely on the ``system'' to 
prevent children from being sexually abused. And, we don't have a 
``system'' for prevention. We have systems for investigating reports 
but we don't have systems that mobilize when we're worried and get an 
icky feeling in our gut when seeing someone interact with a child.
    We need widespread prevention education and training of adults to 
create a true tipping point that prevents child sexual abuse before 
children are harmed.
    Prepared Statement of Adam Rosenberg, Esq., Executive Director, 
              Baltimore Child Abuse Center, Baltimore, MD
    Dear Chairwoman Mikulski, Ranking Member Burr, and members of the 
committee, I am the Executive Director of the Baltimore Child Abuse 
Center (BCAC), the not-for-profit child advocacy center designated by 
Baltimore City to conduct all interviews of children suspected of being 
sexually abused on behalf of the Baltimore Police Department, 
Department of Social Services, and Office of the State's Attorney. In 
fiscal year 2011, BCAC conducted 887 interviews and risk assessments, 
378 forensic medical exams, 310 treatment referrals, and developed 148 
case management plans for its children seen. The average age of a child 
seen was 8 years old and 90 percent of children seen knew their abuser.
    As a former Baltimore City Assistant State's Attorney who has 
worked with cases of sexual child abuse since 1997, I have witnessed 
firsthand the importance of the multidisciplinary collaboration that a 
Child Advocacy Center like BCAC presents. They are important and 
crucial partners in this Nation's fight to ensure that when children 
have been exposed to abuse and violence that they can receive treatment 
sorely needed, further their efforts to have justice administered and 
best of all minimize additional trauma created by the initial violence. 
Our efforts ensure that children get heard and their voices are no 
longer silent.
    As a former sex crimes prosecutor, and now as executive director, I 
have seen the pain and anguish that children and their parents display 
when faced with the very real possibility that their traumatized child 
will have to retell a most horrid moment in their young lives to a 
group of strangers with the perpetrator of the crime in the room. Many 
times, when faced with this damning prospect, children and their 
families prefer to not proceed or allow the prosecutor to plea the case 
for a substantially lower sentence, thereby enabling sex offenders to 
avoid real justice. The dynamics and circumstances surrounding 
allegations and subsequent criminal investigations into sexual child 
abuse most directly impact its young victims who see their worst fears 
realized--the sex offender who told them no one would believe them 
proved right. These children are victims of crimes committed by sex 
offenders and pedophiles who knowingly prey upon the fact the child is 
of tender years and at a greater likelihood they will not report the 
crime perpetrated.
    All children and families are seen in BCAC's bright cheerful home 
on 2300 North Charles Street--housed in this same building is BCAC's 
medical clinic staffed by a pediatrician and members of Baltimore 
Police Department and Baltimore City Department of Social Services 
agents assigned to child abuse. BCAC is available 24 hours a day, 365 
days a year to provide a single interview and point of contact for 
every reported case of sexual child abuse in Baltimore. We break the 
silo. Watching and participating in these interviews are detectives, 
child protective workers, and prosecutors. For some interviews the 
result ends prosecution and bad guys going to jail, for some it 
involves a child protection intervention, for others it becomes the 
start of therapy, connections, and treatment for children and their 
family members as well--many who disclose to us at BCAC that they were 
also victims of abuse. BCAC is proud to be a charter and accredited 
center of the National Children's Alliance.
    These cases are different. These reports of sexual child abuse need 
to be handled differently than a regular criminal investigation. When 
police and prosecutors come in contact with these cases they often have 
to unlearn their basic skills or learn how to use their investigatory 
traits differently. We live in a world where inconsistency is normal, 
impressions change, and people protect those who have harmed them and 
children don't know why they do so. Victims exposed to violence respond 
differently than witnesses to other crimes and children respond and 
think differently than adults do. Child victims of abuse have both of 
those differences than a standard witness. These factors are taken into 
consideration in every interview.
    Children seen at BCAC (and other centers like it) not only have a 
forensic interview conducted, but also medical assessments, mental 
health referrals, access to family advocacy and support, and education 
on how to prevent future abuse. These services at BCAC are all offered 
for no cost for every participant. BCAC and CACs like it reduce trauma 
and provide a single point of contact at a child family friendly 
facility. We make sure as a multi-disciplinary team that no case falls 
through the cracks and that there is adherence to protocols and 
procedures by law enforcement, social services and prosecutors. We 
provide the training and the focal point so that every child will be 
heard and we reinforce the best practices when investigating child 
maltreatment. We educate the community on a shoe string budget as to 
how they can prevent abuse, and we urge adults to take responsibility 
for protecting kids.
    However, Baltimore City's children (and children nationwide) have 
not always been as fortunate to have the highest quality of attention 
and service when they have reported being sexually abused. In 1985, 
prior to the implementation of CAC throughout the Nation, an allegation 
of sexual child abuse would take 15 to 30 days to conduct. Children 
would be interviewed and interrogated by a variety of professionals of 
varying skill levels ranging from patrol officers, teachers, 
principals, intake nurses, doctors, social workers, prosecutors, 
investigators--upwards of 15 different interviews. This process added 
further trauma to the child, wasteful additional costly interviews, 
inconsistent questioning, and a loss of crucial evidence. BCAC can now 
provide a response within 2 hours of a report of sexual child assault 
or abuse.
                                history
    History changed in 1985 when former Congressman Robert ``Bud'' 
Cramer, who was the District Attorney in Huntsville, AL, organized an 
effort to create a better system to help abused children. District 
Attorney Cramer discovered that his witness, a 12-year-old victim of 
sexual child abuse, had been interviewed by 14 different agencies 
during the course of an investigation. Social service and criminal 
justice systems at the time were not working together in an effective 
manner that children could trust. This common problem added to the 
children's emotional distress, and created a segmented, repetitious, 
and often frightening experience for the child victims; worst of all, 
this process damaged the quality and integrity of the criminal 
prosecution of sex offenders as defense attorneys had multiple varying 
interviews to damage a child's credibility.
    The child advocacy center model developed through former 
Congressman Cramer's vision pulls together law enforcement, criminal 
justice, child protective service, medical and mental health workers 
onto one coordinated team. There are now, 25 years later, more than 700 
established and developing children's advocacy centers in the United 
States alone (that served 236,000 children in 2007) with growing 
interest internationally. All CACs receive guidance and accreditation 
from the National Children's Alliance, a national organization that 
works with the U.S. Department of Justice to provide support for 
centers across the country.
    CACs came to Maryland via Baltimore City in 1987 due to the 
advocacy of then Baltimore State's Attorney Stuart Simms through a 
Juvenile Justice Advisory Committee grant. The CAC model was then 
adopted throughout Maryland. Baltimore stands unique in Maryland in 
that it is entirely run as a standalone not for profit operation, and 
is responsible for sustaining these services to the city of Baltimore 
at a cost of $1.5 million annually obtained through grants, 
philanthropic support, and government reimbursements.
                 studies on cost savings and efficiency
    The cost savings and efficiency that child advocacy centers bring 
to a jurisdiction are substantial. Analysis and studies by National 
Children's Advocacy Center (NCAC) and Office of Juvenile Justice and 
Delinquency Prevention show how CACs continue to play an increasingly 
significant role in the response to child sexual abuse in the United 
States:

    <bullet> Annual investigation and prosecution costs are 41 percent 
lower per jurisdiction with a CAC per a 2005 University of Alabama/NCAC 
analysis.
    <bullet> On a per case basis, traditional investigations were 36 
percent more expensive than CAC investigations--a savings of more than 
$1,000 per case is realized with CACs.
    <bullet> CAC communities processed 202 percent more cases than non-
CAC communities.
    <bullet> Efficiencies inherent in the CAC investigation reduced 
cost in Washington, DC by 57 percent compared to procedures without a 
CAC.
    <bullet> Professionals in CAC communities work together on 
investigations 81 percent of the time; without a CAC, joint 
investigations between police, child protection, and prosecution only 
occurred in 52 percent of cases.
    <bullet> Cases in CAC communities are reviewed as a team 56 percent 
of the time versus 7 percent--allowing all team members to work 
together for the child's benefit.
    <bullet> In communities with a CAC 83 percent of interviews take 
place at a facility designed for interviewing children versus non CAC 
communities where 75 percent of interviews took place in CPS agencies, 
schools, police stations and homes where the crime occurred and the 
suspect resides.
    <bullet> In CAC communities, 48 percent received medical exams and 
72 percent got mental health services, versus 21 percent and 31 percent 
respectively.
    <bullet> Of caregivers seen at CACs, 70 percent reported high 
satisfaction with services received versus 54 percent in non-CAC 
communities.
    <bullet> Offenders confessed in 37 percent of communities with CACs 
versus 29 percent non-CAC.

    Use of children advocacy centers also provides prosecutors and 
child protective services with untold benefits as well.

    <bullet> Communities utilizing a CAC have significantly quicker 
charging decisions and quicker preliminary processing times for these 
cases than those without CAC (How Long To Prosecute Child Sexual Abuse, 
Walsh, et al. 2008).
    <bullet> When prosecutors tripled their use of a CAC in a New York 
City district it resulted in a doubling of felony prosecutions compared 
to just a 25 percent increase in prosecution when CAC use remained 
consistent. (The contribution of children's advocacy centers to felony 
prosecutions of child sexual abuse, Miller et al. 2009)
    <bullet> CAC usage has benefited child protective services and 
showed increased substantiation of allegations of abuse as well as a 
shorter investigative period than a traditional CPS investigation. It 
was concluded that the main advantage of CACs is their 
multidisciplinary nature. (Evaluation of the children's advocacy center 
model: Efficiency, legal and re-victimization outcomes, Wolfteich et 
al. 2007).

    The key to the remarkable results of these studies demonstrate the 
powerful collaboration that CAC's bring to a community of law 
enforcement, prosecutors, child protective services, medical, mental 
health, and child advocates who without a CAC continue to 
uncooperatively work in their own silos. CAC services are an 
economically efficient and more humane means of responding to sexual 
child abuse. Introducing and utilizing the child advocacy center model 
throughout the United States and Maryland for 25 years, have 
dramatically improved the outcomes for hundreds of thousands of 
children who have been victims of sexual abuse.
    CAC's also smartly utilize modern technology and experts to help 
facilitate and improve these investigations. The marked increase in the 
use of technology to assist these investigations along with reliable 
and accepted procedures and well-trained forensic interviewers to speak 
with child victims argues in favor of these statements' reliability as 
they make it possible for the court to consider the spontaneity of the 
child's reports and the suggestiveness of the interviewer's questions. 
Thomas Lyon, J.D., Ph.D. a professor of Law and Psychology at the 
University of Southern California and a leading voice on child abuse, 
neglect and child witnesses, affirms that these statements ``would be 
superior in many ways to in-court testimony because they would be taken 
closer in time to the alleged event, thus reducing memory problems and 
issues of intervening taint through multiple interviews or other 
influences; also, they would be elicited in a non-threatening 
environment, this increasing the child's ability to answer questions 
and resist suggestibility.'' (Thomas D. Lyon. ``7. Lyon, T.D., & 
LaMagna, R. (2007). The history of children's hearsay: From Old Bailey 
to post-Davis. Indiana Law Journal, 82, 1029-1058,'' citing Crawford, 
541 U.S. at 62; Davis v. Washington, 126 S. Ct. 2266, 2280 (2006).
    Considering recent events unfolding across the country where crimes 
of child victims of sexual violence had gone allegedly unreported and 
covered up for years at institutions of higher learning such as Penn 
State University, The Citadel, and Syracuse University, the outrage 
expressed by our country underscores the impact that this violence has 
upon its most tender victims. It is imperative that the Justice 
Department and this task force consider how it can bolster the efforts 
of such important multidisciplinary approaches to tackling this 
problem. By providing an effective, efficient and governmentally 
supported model of compassionately responding to childhood sexual 
violence, the surrounding community will be equally empowered to report 
abuse and help these victims.
    Last month I had the honor and privilege of testifying before the 
Attorney General's Defending Childhood Task Force in Baltimore. I 
shared the successes and challenges which our fight faces. I told the 
assembled task force that at BCAC every child we see and meet with 
decorates a butterfly. Each year we collect over 850 butterflies. These 
wooden butterflies provide a very real manifestation of the scale of 
this problem here in Baltimore. We proudly hang the butterflies from 
the ceilings in our center and recognize that each butterfly is 
different; each one has its own unique story. Each symbolizes the 
transformation that occurs within each child and each case. That task 
force heard from the many voices of victims, survivors, and 
professionals--BCAC hears those voices every day--24 hours, 7 days a 
week.
    The task force grappled with how this process can be made better 
for children--among the recommendations made was to have improved 
processes for information sharing among agencies that serve children. 
While most CACs work to share the information gathered from its 
interviews with investigations from police and child protection, 
multiple other systems do not have information shared such as schools, 
juvenile justice, parole and probation, and personal health care. 
Strides need to be made to break additional silos and share more 
information with these agencies who serve abused children so that 
efficiencies can be realized and more children can be assisted.
    The task force also heard that funding to initiatives to protect 
and defend childhood must be made a priority. There are insufficient 
funds and support for most of these critical programs. Nationally, 
CAC's are cobbled together through a variety of local, Federal and 
philanthropic funds. Locally, BCAC is barely funded by the city it has 
pledged to protect and receives less than 10 percent of its budget by 
the city we strive to serve despite the fact that our process has been 
estimated to save over $1,000 per child or which for us translates into 
almost $1 million a year. Congress recently reauthorized the Victims of 
Child Abuse Act for $18 million which are meant for 700 sites and 
national training. While these funds are appreciated they are entirely 
insufficient to make massive national change. CACs are a best practice 
that has evolved nationally and needs to be supported at all levels to 
continue to succeed so that we can prevent abuse, respond to abuse, and 
treat those who have been abused. Greater Federal funding must be made 
more readily available so that child advocacy centers and other multi-
collaborative agencies can help use their core skills and family focus 
to provide greater support for our communities.
    Finally, many experts testified to the fact that we must change the 
public dialogue and make prevention of abuse and maltreatment to 
children a national issue with the best and the brightest helping shape 
campaigns and ultimately change national perceptions. Many great models 
of prevention education exist, and partnerships supported by the 
Federal Government must be encouraged. Schools, religious institutions, 
youth programs, and agencies like our own must be encouraged to work 
together to build coalitions to build the infrastructure to protect 
communities from child abuse. No statewide curriculum or mandate exists 
in Baltimore, or in Maryland, or in many States nationally. Many are 
shocked to discover that prevention of child abuse (unlike bullying for 
example) is not mandated and doesn't exist. Hope exists however; other 
States and regions of this country have been successful with efforts 
around effective and proven education in Vermont, Illinois, Texas, and 
North Carolina. I urge this committee to recommend that every State 
implement requirements to teach about the prevention of abuse in their 
State and their schools. That education also must include the need to 
report abuse. BCAC has held a series of town hall meetings in the wake 
of these recent school scandals and the most surprising things learned 
was that people had a reluctance to report suspected abuse and did not 
know their requirement to do so. This must change--all too often 
children report to BCAC that they told adults who failed to act. This 
committee can make recommendations to urge every State to enact such 
initiatives and provide the public information so that in the end fewer 
and fewer children will need to be seen at child advocacy centers.
    I urge this committee to consider ways to support and grow such 
unique and important multidisciplinary approaches to combating sexual 
child abuse as well as urging a national dialogue around preventing 
sexual child abuse.
 Prepared Statement of Kenneth Wooden, Author and Child Safety Expert; 
 With Rosemary Wooden Webb and Jennifer Wooden Mitchell, Child Lures/
      Teen Lures<SUP>T</SUP><SUP>M</SUP> Prevention, Shelburne, VT
    Chairman and members of the Senate Health, Education, Labor, and 
Pensions (HELP) Committee, I thank you for this opportunity to address 
members of the U.S. Senate and their staff concerning the on-going 
social crisis of child and youth sexual exploitation. Since my earliest 
days as an investigative reporter and lifelong child advocate, I have 
always kept a special file entitled: ``Never Forget''. Today, let me 
share that file with the Congress and the American people. My desire is 
to provide this committee and the media with well-documented examples, 
from 1905 to the present scandal surrounding Penn State University, of 
how ``The VIP Factor'' has been able to seal the fate of an untold 
number of young victims.
          the vip factor & generational child sexual assaults
    Based on a recent Grand Jury report, Jerry Sandusky allegedly used 
9 of the 16 basic Child Lures to entrap and sexually exploit his many 
young victims: (1) Affection, (2) Assistance, (3) Authority, (4) 
Bribery, (5) Games, (6) Hero, (7) Job, (8) Threats & Weapons, and (9) 
Drugs. Four of the victims were allegedly assaulted during sleepovers 
with Sandusky, another common tactic of sex offenders.
    If proven true in a court of Law--he will be but another example of 
unlimited VIP power over unsuspecting prey. And while it is common 
knowledge now that child predators come from all walks of life, ``The 
VIP Factor'' (Very Important People) is a significant and unaddressed 
reason why sexual crimes against children have continued unabated for 
generations. These VIPs are leaders in the community, from within our 
families, churches, schools, communities, businesses, universities, 
hospitals and civic organizations. Some are VIPs in education, legal, 
business, media, military and athletic organizations, as well as in the 
political world at large. They have imposed a culture of silence that 
few attempt or care to penetrate. Save for the occasional scandal, 
which is quickly covered up and soon forgotten.
    The result is a growing vast reservoir of victims who, for the most 
part, keep quiet. Their cries for help are smothered by the offender's 
threats, as well as by self-imposed shame and guilt, encouraged by the 
offender to keep their prey in emotional bondage. They use the same 
lures to exploit innocent youngsters that have proven effective for 
offenders and irresistible to kids, for generations. These VIPs have 
added significantly to the vast reservoir of victims, due to their 
powerful positions, their sophisticated understanding of basic human 
nature--and the naivety of their young victims.
    As Shakespeare wrote, ``Bait the hook well, and the fish will 
bite.'' The result is the unlawful violation of Children's Basic Human 
Rights. Few if any of these people pay the price for their crimes. That 
price tag is left to the American tax payers as we cope with funding 
``after-the-fact'' solutions to the many personal challenges brought on 
by the trauma of sexual exploitation. Survivors of sexual abuse are at 
significantly increased risk for a host of personal challenges, 
including mental illness, depression, substance abuse, eating 
disorders, cutting, suicide, school drop-out, teen pregnancy, 
prostitution, homelessness, and criminal behavior. The tentacles of 
child sexual abuse reach far and wide--and cost society in untold ways. 
[Documentation B, attached.]
    The flip side of the VIP Factor are those in power who could make a 
difference addressing what the American Medical Association calls a ``. 
. . silent, violent epidemic,'' but choose not to. Perhaps they have 
other political priorities, are protecting jobs or other VIPS or, for 
whatever reasons, they find this issue too ``distasteful'' to deal 
with. Certainly, they are not in the same class as the VIP types who 
commit deliberate criminal acts against children. Instead, these 
community leaders chose the path of deliberate indifference, as the 
human toll of sexual abuse survivors increases in steady numbers, from 
one generation to the next. I submit the attached Bold and 
Comprehensive Plan to Prevent Child Sexual Abuse in the United States 
and indeed, throughout the world. [Documentation A, attached.]
Documentation A.--A Bold and Comprehensive Plan to Prevent Child Sexual 
  Abuse: Leapfrogging the VIP Factor to Safeguard Children & Taxpayers
    Premise: At the Federal, State, and local levels, government has a 
primary responsibility to protect and defend its citizens from foreign 
and domestic harm.
    Point One: In 1995, the American Medical Association labeled the 
sexual assault of women and children, ``a violent, silent epidemic.'' 
It is long overdue that we end our current National Policy of Denial: 
``We do Deshrei it.'' Yiddish for, ``Don't talk about it, don't tempt 
it, and it will go away.'' We must begin to confront the pervasive 
social problem of childhood sexual abuse, and its ensuing debilitating 
effect on health, educational, and social issues. We can do this by 
establishing a new, honest National Policy of confronting this social 
cancer with all the creative resources we possess.
    Point Two: Recognize childhood sexual exploitation as a core social 
problem, a long-standing historical national health issue which effects 
American education, society, and our future as a nation.
    Point Three: Partner with brilliant young entrepreneurs of the high 
tech world's benevolent algorithms to mobilize mass communication of a 
web-based Child Lures Prevention Community Plan as a counter weight to 
VIP predators that entrap, imprison, and degrade our youth. In 
addition, undertake a national Health Care mailing on preventing child 
sexual abuse, similar to the government-issued 1988 AIDS brochure. This 
can help leapfrog over the powerful silent barriers put in place by the 
VIP factor, which continues to leave our children and youth vulnerable 
to abuse. These are the same obstacles imposed by the sexual addiction 
and destructive behavior of untold predators, at the grave expense of 
human dignity and our destiny as a nation. May God Bless our country 
and the 20 percent of our population that makes up 100 percent of our 
future--the Children of America.
      Documentation B.--A Legal Prediction: At The Expense of The 
                           American Taxpayer
    Individual lawsuits against select organizations and sexual 
predators have made an impact in recent years on organizations like 
Unified School Districts, the Catholic Church and Boy Scouts of 
America.*
---------------------------------------------------------------------------
    * (Los Angeles Unified School District, $6 million in 1990; 
Northwest Jesuits, $166 million, 2011; Total paid by the Catholic 
Church, $1.8 Billion, 2003-2008; In light of the 1,000 secret files 
kept by the Boy Scouts of America i.e. ``the perversion files'', $18.5 
million for one case in Portland, Oregon alone. Total paid by the Boys 
Scouts of America is unknown.)
---------------------------------------------------------------------------
    Those individual lawsuits, in my judgment, will pale in 
significance to the legal ``perfect storms'' that are now on the 
horizon, in the form of massive class action law suits against these 
institutions. That vast reservoir of millions of victims is a restless 
social ocean, as new and egregious revelations are revealed at Penn 
State University and elsewhere. The dark curtain is being pulled off 
America, as well as the world, and it's about time.
    From 1985 to 1995, I warned leaders in the Roman Catholic Church--
Cardinal Bernardin of Chicago and Cardinal O'Connell of NYC--as well as 
Public School Superintendents and high level executives within the Boy 
Scouts of America, of these individual lawsuits on the ``horizon.'' 
Their only response was a smile and then disregard of my warnings. One 
and all, they paid and are continuing to pay a high monetary price, 
while the victims will pay a lifetime of memories and counseling.
        Response to Questions of Senator Casey by All Witnesses
    Question 1. I understand from the U.S. Department of Health and 
Human Services that 36 States (including DC and Puerto Rico) have 
State-level definitions of child abuse that do not include deliberate 
acts by any individual that leads to death, serious harm or imminent 
risk of serious harm. These States define child abuse or child neglect 
(which sometimes is used when a parent fails to protect a child from 
physical or sexual abuse), or both, as certain acts or omissions by a 
parent or caretaker.
    Can you comment about how State definitions of child abuse differ 
and what impact this has upon how child abuse and neglect is reported, 
investigated, and prosecuted? How do differences in State definitions 
influence a victim's ability to access services and support? Do you 
have any recommendations on how the Federal Government can do a better 
job of ensuring that all children are protected appropriately, 
regardless of which State they live in?
    Answer 1. In Canada, these are Federal laws, not provincial. In 
terms of State to State differences, I will defer that to the experts.

    Question 2. Many of you provided testimony on adults' moral 
responsibility to protect children by reporting known or suspected 
incidents of child abuse. In your opinion, when child abuse has been 
observed or is otherwise known to be occurring, should an adult have a 
responsibility to report it? In other words, should there be a higher 
standard for reporting when an adult actually knows or sees child abuse 
or neglect occurring, versus an adult who suspects child abuse or 
neglect to be occurring but is not certain? If so, in practical terms, 
what are the implications of implementing a higher standard?
    Answer 2. There are often ``grey areas'' and, therefore, the 
highest standard should be implemented. Child protection is paramount 
and swift action should alleviate any potential negative implications 
of reporting to the standard.

    Question 3. Please comment on the Federal role in providing 
resources to support child abuse prevention and treatment through CAPTA 
and other Federal programs. What type of investment should be made at 
the Federal level? How could Federal resources be better leveraged? 
Please comment on all uses of Federal funds, but on training and 
prevention efforts in particular.
    Answer 3. In terms of specific programs, current Federal resources, 
etc., I am not an expert on the U.S. system. Therefore, I will defer 
these issues to the experts.

    Question 4. Do you think that there is enough awareness among 
members of the public about how to recognize and report child abuse and 
neglect, and how to prevent it? What role do you believe that the 
Federal Government should play in building knowledge and awareness 
among members of the public, or specific members of the public, about 
these considerations?
    Answer 4. Our approach has been mandatory abuse, bullying and 
harassment prevention education in youth serving organizations (sport, 
schools, community youth programs, etc.). We began by training all 
adults in a position of authority, then parents and we are now creating 
age-specific programs for youth within the organizations we serve. It 
is our view that the Federal Government should mandate these programs 
especially in areas where the Federal or State governments already 
provide funding to the organizations. It doesn't mean the Federal 
Government has to pay for the programs, just provide a standard that is 
a requirement to obtain funding. ``If you want Federal/State funding, 
prove to us that child protection programs are in-place and required of 
your membership.''
       Response to Questions of Senator Casey by Sheldon Kennedy
    Question 1.  In your testimony, you state that from your experience 
``a child who is being abused has to tell--on average--seven people 
before their story is taken seriously.'' That is a startling statement. 
Can you tell us more about how you arrived at this figure and what has 
led you to believe that so many challenges stand in the way of adults 
speaking up for children?
    Answer 1. I began using this statement (based on research) back in 
1997 when I first disclosed my abuse. I went back to our curriculum 
Subject Matter Experts, the Canadian Red Cross, and they have provided 
the following (attached documents) which provide extensive information 
on this specific issue:

    <bullet> Adult responses to disclosures of violence.docx.
    <bullet> 9-Sexual Violence_2009_Eng_ed3.pdf.
    <bullet> 13-Intervention to Stop Violence_2009_Eng_ed3.pdf.

    Question 2. In your testimony, you state that by ``empower[ing] the 
bystanders [we'll] be taking an important step in breaking the silence 
on child abuse.'' In your experience, how do you empower the 
bystanders? Is there a tipping point or critical mass that we need to 
reach in order to change the culture of silence? You mention educating 
the ``good people''--the 99 percent of our population--as the best 
defense to prevent abuse. How important is it for us to reach beyond 
people known as ``mandated reporters'' and communicate with the general 
public about child abuse and neglect and how to recognize and report 
it, as well as prevent it?
    Answer 2. Our approach has been mandatory abuse, bullying and 
harassment prevention education in youth serving organizations (sport, 
schools, community youth programs, etc.). We began by training all 
adults (mandated reporters) in a position of authority, then parents 
and we are now creating age-specific programs for youth within the 
organizations we serve. Once you have trained the adult leaders 
(mandated reporters), parents (programs on becoming ``better informed 
parents'' as required by the youth serving organization) and youth 
(programs on becoming ``better informed participants'' required by the 
youth serving organization), you have created a ``holistic culture of 
respect'' across all stakeholders in the organization. This is the 
desired outcome to avoid institutionalization of child abuse and a 
``bystander mentality''. By educating all of the membership, you have 
created a standard, provided a consistent message and given everyone 
the confidence (in numbers) to come forward when issues arise.

    Question 3. In your opinion, should it be the responsibility of 
every adult to report known or suspected cases of child abuse? What 
benefits or drawbacks would you see from making it a legal 
responsibility?
    Answer 3. Yes. There are often ``grey areas'' and, therefore, the 
highest standard should be implemented. Child protection is paramount. 
Swift action should alleviate any potential negative implications of 
making it a legal responsibility.

    [Whereupon, at 12:40 p.m., the hearing was adjourned.]

                               [all]

</pre></body></html>
